<html>
<title> - THE ENVIRONMENTAL PROTECTION AGENCY'S PROPOSED BUDGET REQUEST FOR FISCAL YEAR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
   THE ENVIRONMENTAL PROTECTION AGENCY'S PROPOSED BUDGET REQUEST FOR 
                            FISCAL YEAR 2001

=======================================================================

                             JOINT HEARING

                               before the

                            SUBCOMMITTEE ON
                    FINANCE AND HAZARDOUS MATERIALS

                                and the

                            SUBCOMMITTEE ON
                         HEALTH AND ENVIRONMENT

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 30, 2000

                               __________

                           Serial No. 106-138

                               __________

            Printed for the use of the Committee on Commerce

                    ------------------------------  

                     U.S. GOVERNMENT PRINTING OFFICE
64-026CC                     WASHINGTON : 2000



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

            Subcommittee on Finance and Hazardous Materials

                    MICHAEL G. OXLEY, Ohio, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     EDOLPHUS TOWNS, New York
  Vice Chairman                      PETER DEUTSCH, Florida
PAUL E. GILLMOR, Ohio                BART STUPAK, Michigan
JAMES C. GREENWOOD, Pennsylvania     ELIOT L. ENGEL, New York
CHRISTOPHER COX, California          DIANA DeGETTE, Colorado
STEVE LARGENT, Oklahoma              THOMAS M. BARRETT, Wisconsin
BRIAN P. BILBRAY, California         BILL LUTHER, Minnesota
GREG GANSKE, Iowa                    LOIS CAPPS, California
RICK LAZIO, New York                 EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois               RALPH M. HALL, Texas
HEATHER WILSON, New Mexico           FRANK PALLONE, Jr., New Jersey
JOHN B. SHADEGG, Arizona             BOBBY L. RUSH, Illinois
VITO FOSSELLA, New York              JOHN D. DINGELL, Michigan,
ROY BLUNT, Missouri                    (Ex Officio)
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)

                 Subcommittee on Health and Environment

                  MICHAEL BILIRAKIS, Florida, Chairman

FRED UPTON, Michigan                 SHERROD BROWN, Ohio
CLIFF STEARNS, Florida               HENRY A. WAXMAN, California
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 PETER DEUTSCH, Florida
RICHARD BURR, North Carolina         BART STUPAK, Michigan
BRIAN P. BILBRAY, California         GENE GREEN, Texas
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
CHARLIE NORWOOD, Georgia             THOMAS M. BARRETT, Wisconsin
TOM A. COBURN, Oklahoma              LOIS CAPPS, California
  Vice Chairman                      RALPH M. HALL, Texas
RICK LAZIO, New York                 EDOLPHUS TOWNS, New York
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN B. SHADEGG, Arizona             JOHN D. DINGELL, Michigan,
CHARLES W. ``CHIP'' PICKERING,         (Ex Officio)
Mississippi
ED BRYANT, Tennessee
TOM BLILEY, Virginia,
  (Ex Officio)

                                 (iii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Perciasepe, Robert, Assistant Administrator, Office of Air 
      and Radiation; accompanied by Timothy Fields, Jr., 
      Assistant Administrator Office of Solid Waste and Emergency 
      Response; J. Charles Fox, Assistant Administrator, Office 
      of Water; Steve Herman, Assistant Administrator, Office of 
      Enforcement and Compliance Assurance; and Norine Noonan, 
      Assistant Administrator, Office of Research and 
      Development, Environmental Protection Agency...............    13
Material submitted for the record by:
    Thompson, Diane E., Associate Administrator, Environmental 
      Protection Agency:
        Letter dated August 31, 2000, enclosing response for the 
          record.................................................    67
        Letter dated August 29, 2000, enclosing response for the 
          record.................................................    97

                                  (v)

  


   THE ENVIRONMENTAL PROTECTION AGENCY'S PROPOSED BUDGET REQUEST FOR 
                            FISCAL YEAR 2001

                              ----------                              


                        THURSDAY, MARCH 30, 2000

          House of Representatives,        
                     Committee on Commerce,        
       Joint Hearing of the Subcommittee on Finance        
                       and Hazardous Materials, and the    
                    Subcommittee on Health and Environment,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:05 a.m., 
in room 2123, Rayburn House Office Building, Hon. Michael 
Bilirakis (chairman, Subcommittee on Health and Environment) 
presiding.
    Members present, Subcommittee on Finance and Hazardous 
Materials: Representatives Oxley, Bilbray, Shimkus, Deutsch, 
Stupak, Engel, Barrett, Luther, Capps, and Markey.
    Members present, Subcommittee on Health and Environment: 
Representatives Bilirakis, Upton, Deal, Bilbray, Whitfield, 
Coburn, Bryant, Brown, Deutsch, Stupak, Green, Strickland, 
Barrett, and Capps.
    Staff present: Amit Sachdev, majority counsel; Bob Meyers, 
majority counsel; Joe Stanko, majority counsel; Nandan 
Kenkeremath, majority counsel; Kristi Gillis, legislative 
clerk; Richard Frandsen, minority counsel; and Alison Taylor, 
minority counsel.
    Mr. Bilirakis. The hearing will come to order. This is a 
joint hearing with Mr. Oxley's subcommittee.
    The schedule was the he would kick off the hearing, but he 
is tied up in Washington traffic, so he will be here as soon as 
he can get here.
    In any case, I want to extend my welcome, as per usual, to 
the Assistant Administrator, Robert Perciasepe, and, of course, 
the other EPA officials who will appear to us today.
    Thank you for being here today. There are several specific 
matters which I believe that we should address as part of 
today's hearing.
    However, I must first comment at the outset regarding how 
EPA proposed to--and I use the term--balance its books in the 
fiscal year 2001 budget.
    That is, the administration's budget request relies heavily 
on deleting--at least it seems to be that way--all 
Congressionally directed spending, while at the same time 
proposing new, unauthorized spending about which little, if 
anything, if known.
    For example, while I support innovative State and local 
programs on the environment, and might indeed be supportive of 
more clean air grant programs, I do have concerns about the 
Clean Air Act Partnership Fund.
    The fiscal year 2001 budget, like the fiscal year 2000 
budget, contains little substantive information.
    Indeed, I would venture to say that the average homeowner 
provides far more specific information to a mortgage company 
than EPA has provided to Congress to justify the expenditure of 
$85 million.
    Second, I am disturbed that EPA has apparently made a 
conscious and deliberate decision to violate, or at least not 
abide by, the Clean Air Act provisions respecting air toxics.
    The fiscal year 2001 request contains no spending for 
Federal air toxic standards, even though these are required by 
November 15 of this year.
    I would remind the Agency of Section 112(E)(1)(e) of the 
Clean Air Act is unambiguous at this point.
    The Agency previously acknowledged that it is required--
using its words--required to promulgate MACT standards for all 
174 source categories by the year 2000.
    Third, I must admit that I will be interested in learning 
if there is any substance behind EPA's recently announced 
legislative principles and MTBE and the reformulated gasoline 
program.
    At barely a half page in length, the March 20 principles 
are not a serious effort to address problems in the RFG 
Program.
    In fact, in testimony before the committee and in 
subsequent staff briefings, EPA could not answer even the most 
basic questions about what the Agency supports or does not 
support.
    EPA cannot claim to be working with Congress when it cannot 
explain in any detail what it is proposing.
    Fourth, I remain concerned about safe drinking water 
research.
    Last October, the Subcommittee on Health and Environment 
held a hearing to examine the adequacy of State drinking water 
research programs.
    The fiscal year 2001 budget claims a modest increase in 
such funding. However, I remain concerned that such spending 
may still be woefully short of the needs previously identified 
by EPA.
    I remain concerned that this matter is just not a priority 
for the administration.
    As a final matter of interest, I am also determined 
honestly to hold EPA accountable to local communities in the 
Superfund clean-up process.
    To address that concern, we must assure continued funding 
for the Office of the National Hazardous Waste and Superfund 
ombudsman.
    I have experienced firsthand the important work of the 
ombudsman in connection with the Stouffer Chemical Superfund 
site located in my district--and I might add, in my community--
of Tarpon Springs, Florida.
    I invited the ombudsman to conduct an independent review of 
the Stouffer site to address the concerns of local citizens who 
felt they were being shut out of the clean-up process.
    More than anyone, residents of the neighborhood surrounding 
a hazardous waste site should have their voices heard in the 
clean-up debate.
    The ombudsman has worked effectively and aggressively to 
uncover the facts surrounding the Stouffer site, as well as 
other Superfund sites across the Nation.
    He must be allowed to continue his important work, and the 
EPA cannot be allowed to impose serious funding cuts or target 
this office for elimination.
    We must ensure that the final fiscal year 2001 budget 
approved by Commerce includes adequate funding for this office.
    The Chair will now yield to Mr. Brown for his opening 
statement.
    Mr. Brown. I thank the chairman. I would like to welcome 
our witnesses and extend my thanks to you for joining us today 
to discuss EPA's budget request for fiscal year 2001.
    Americans around the country of every political stripe have 
made it clear they want a clean and healthy environment.
    I commend the EPA for your hard work and your dedication in 
protecting our environment and promoting public health.
    I strongly support the administration's request for the $92 
million to fund Brownfields site assessment and revolving loan 
fund grants.
    Almost every town and city in this country has sites or 
concerns about contamination from previous commercial or 
industrial activities prevents productive use of the site.
    By encouraging investment in these sites, we can help 
communities convert them to productive use to create jobs and 
to save greenfields from development.
    It is my hope that Congress will finally act this year to 
expand Brownfields.
    I expect the EPA will work closely with the Commerce 
Committee on Brownfields legislation.
    I also support funding at the level of $24.4 million 
proposed in the President's budget request for the endocrine-
disrupting chemicals testing program.
    Synthetic chemicals such as PCBs and dioxin interfere with 
the body's natural hormones and may be indicated in a range of 
health problems in people and animals, including reproductive 
and developmental abnormalities.
    Those chemicals have been concentrated at the Great Lakes 
food chain, contributing to the decline in some bird and fish 
species in that region.
    We must find out what the effects are on people. In the 
1996 Food Quality Protection Act and amendments to the Safe 
Drinking Water Act, Congress directed EPA, with Mr. Stupak's 
involvement, mine, and several others, to develop a screening 
and testing program to help identify endocrine-disrupting 
chemicals.
    EPA has begun developing a program based on an 
extraordinary consensus agreement among a wide range of 
stakeholders.
    Thirty-two of my colleagues from both sides of the aisle 
joined me this week in writing to the Appropriations Committee 
to express our support for the endocrine-disrupter testing 
program.
    On a closely related topic, the Post reported, yesterday, 
significant findings from the Air Force's ongoing study of 
former service-men and -women who worked with Agent Orange, 
which contained dioxin during the Vietnam War.
    The study has found, quote, a significant and potentially 
meaningful, unquote, correlation between diabetes and the level 
of dioxin in the bloodstream.
    While further research is needed, dioxin's ability to 
interfere with the normal activity of the endocrine system, 
which regulates the level of glucose in the blood, may, in 
fact, play a role in the development of diabetes among these 
veterans.
    Since 1980, over 150 studies of people in 61 countries and 
regions have found that dioxin and other persistent organic 
pollutants are building up in our bodies in various tissues and 
fluids.
    Studies of breast milk show high levels of concentration, 
which means that our children are exposed to toxics at an early 
and sensitive stage in their development.
    In the last 9 years, the EPA has been conducting a 
reassessment of dioxin exposure and human health based on the 
available scientific information.
    This reassessment will identify the spectrum of adverse 
human effects from exposure to dioxin and related compounds.
    It also includes a comprehensive exposure and source 
analysis.
    I would like to know from you when the remaining three 
chapters of this very important dioxin reassessment will be 
made available for public review and public comment. I trust it 
will be sooner rather than later.
    Mr. Chairman, thank you for this opportunity to comment on 
the EPA budget.
    Mr. Bilirakis. I thank the gentleman. The chairman of the 
Finance and Hazardous Materials Subcommittee, Mr. Oxley.
    Mr. Oxley. Thank you, Mr. Chairman. Good morning. I am 
pleased to open this joint hearing of the Subcommittee on 
Finance and Hazardous Materials and the Subcommittee on Health 
and Environment.
    It is an honor to work with you in this regard to review 
the Environmental Protection Agency's fiscal year 2001 budget 
request.
    While I am disappointed that Administrator Browner could 
not join us today, I am pleased to see so many senior Agency 
officials from the EPA programs that fall within the 
committee's jurisdiction.
    I welcome them all here today. Without taking too much 
time, before we hear from EPA this morning, I want to make some 
brief remarks.
    This year, EPA is asking for $1.45 billion, an increase of 
$50 million over last year.
    Yet, we are told by all sides that the Superfund program is 
over the hump, so how EPA intends to wind this program down, 
and how that will reflect in terms of expenditures is of great 
importance to me and to the members of my committee.
    It is an understatement to say this program has not been a 
model of efficiency.
    GAO has repeatedly described the Superfund program as a, 
quote, high risk for waste, fraud, and abuse, end quote.
    While sites that have been in the pipeline for many years 
are getting to the construction-complete phase, it has not been 
without significant cost, unfairness to many parties, and 
unneeded litigation.
    I am not anxious to see this program unnecessarily expanded 
or for the EPA to embark on new missions without a clear and 
specific Congressional mandate.
    I also have performance concerns about some of the Agency's 
non-NPL or Brownfields programs.
    For instance, in its opening statement, the EPA touts its 
achievement of awarding 68 pilots for Brownfields clean-up 
revolving loan funds.
    Yet, it is my understanding that, in fact, only three loans 
have actually been granted under that program since its 
inception in 1997.
    Aside from Superfund, I have had a lengthy acquaintance 
with RCRA. I am interested in the regulatory treatment of fly 
ash.
    An EPA staff report to Congress reached the general 
conclusion that coal combustion waste should not be subject to 
onerous RCRA hazardous waste regulations.
    I understand that a final Agency determination has not been 
made.
    It is my belief that any decision should be based on sound 
science and recognize the success of strong State regulatory 
programs, including my home State of Ohio.
    I appreciate the opportunity to share my views with the 
Agency and look forward to working with EPA officials to 
address specific issues of concern.
    Let me now yield to my other colleagues for opening 
statements.
    Then, as I understand it, Mr. Chairman, I will be 
introducing our panel.
    Mr. Bilirakis. Yes, that is correct. Before you go into 
that, Mr. Stupak, for an opening statement.
    Mr. Stupak. Nothing, Mr. Chairman.
    Mr. Bilirakis. Mr. Shimkus, opening statement?
    Mr. Shimkus. Thank you, Mr. Chairman. It is great to be 
here, and I am glad to see all my friends and colleagues from 
the EPA here.
    This is an important time, and I would like to focus on a 
lot of different issues dealing with the budget, but with real 
concerns that have been addressed in the State of Illinois 
nationally.
    I agree with Chairman Bilirakis on the 21 March RFG 
program.
    I want to ask you all to work--give me a point of contact 
that I can work with.
    We are putting together a bipartisan coalition to address 
this.
    Congressman Ganske and I have a bill. Karen McCartney is 
going to be on the bill.
    There is some common ground based upon that--your 
statement, based upon some legislation.
    It addresses the Clean Air Act and the Safe Water Act, and 
the Toxic Substance Act.
    I am optimistic that there is a convergence of time and 
events that I think something good for America can happen.
    But, there is some vagueness in the memo--the questions 
that we want to get answered before we can start negotiating.
    I am also interested in, obviously, biofuels and biodiesel 
in the CMAC program, the Congestion Mitigation and Air Quality 
Act, and trying to get some input on that.
    I followed up with my colleague, Mr. Oxley, on the fly ash 
issue.
    After the 19-year study, we need some resolution, and we 
are in hopes that this is not an issue that will be 
politicized.
    One, we have had, I think, a lot of science, and the States 
have done a good job.
    The last thing is Superfund small business liability 
issues.
    Quincy, Illinois, it is a broken record in the song that I 
have been singing, especially the last 2 years.
    I appreciate the help that EPA has done in working with my 
small businesses, but there is still a lot to do in changing 
the law.
    I guess the only frustration we have is we hear movement, 
but we see no legislation to help us move in that direction.
    So, funding will--The budget debate focuses on objectives 
that we can accomplish based upon a budget.
    We are all going to try to tie that all together today, and 
I appreciate your attendance.
    I appreciate the time, Mr. Chairman. I yield back.
    Mr. Oxley. The gentleman yields back. The gentleman from 
Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much. I welcome 
the EPA here today.
    I think it is perfectly representative of what has happened 
in the United States over the last 100 years.
    I think this is a good time to report to our country as we 
begin the new century.
    In the year 1900, the average life expectancy for a male 
and female was 48 years of age.
    Today, it is near 80 for women and 76 for men. One in three 
children who were born today in a hospital in the United States 
will live to the age of 100.
    They will see the year 2100. It is largely because of the 
clean air, the clean water, the safe food, and other laws that 
were put on the books, that have made this place that we live 
in a lot healthier.
    We have a tremendous revolution that has taken place. I see 
it, really, in my own district in Woburn, Massachusetts.
    Back in the late 1970's, we identified a site where 
children had been dying from leukemia.
    A group of parents went out and went door to door to 
identify whether or not there was a cluster of deaths, and 
there had been.
    We had to battle long and hard to, first, create a 
Superfund program, and then to make it possible for it to be 
funded.
    The reality is that we come back today, and that site is 
now cleaned up in Woburn, a blue-collar city.
    GTE Internet is building 1.8 million square feet of new 
office space, to move from the industrial age, in other words, 
to the information age.
    It is such a success story that, when Robert Redford came 
to film the movie ``A Civil Action,'' in 1997, there were no 
more smokestacks left in Woburn.
    That is how fundamentally the economy had changed. They had 
to go find another mill town someplace, because we have been 
able, in this new economy, to change the personality of the 
kinds of jobs that are in blue-collar communities.
    But, we couldn't do it without the help of the Federal 
Government, because, obviously, one city of a population of 
40,000 couldn't clean up a hazardous waste site left there by 
dozens of chemical companies in the 20th century.
    The same thing is happening in my own hometown of Malden, 
along the Malden River where my grandfather got off the boat in 
1902 to work at the Lock Coal Company.
    Twenty companies had just used the Malden River as a 
dumpsite.
    When they left, then that industrial age passed us by, and 
all we were left with in Malden was this unusable plot of land 
as the high-tech companies have moved up to 128, as the Federal 
Government had built this interstate beltway around the city of 
Boston.
    But, that blue-collar community was left behind. Because of 
Brownfields, because of clean rivers' laws, we are able now to 
recapture that land.
    We are now planning on building 1.6 million square feet of 
office space in something that we call Telecom City, something 
that is going to connect blue-collar America to this 
information age revolution.
    That is the beauty of these programs. It really does help 
those older cities, those older towns without the resources, 
who benefited in the industrial age but now are left with the 
residue but without the resources to clean up the damage that 
was done to the land and to the water.
    So, I want to congratulate you, because I think that, 
through these programs, we make it possible, especially for 
those older cities and towns to help to make this transition 
quickly so that their families aren't left behind in this 
information age revolution, that their lands, their schools, 
can be funded by the property taxes that are generated from the 
new industries moving to those communities as well as they do 
to the suburbs.
    So, I just think it is a great time to celebrate the 
success of these programs.
    I strongly support the Environmental Protection Agency, and 
I know that Mr. Stupak wants me to yield very briefly, and I 
would like to, if I have any time remaining.
    Mr. Stupak. Just briefly--I am sure Mr. Shimkus left--
because I just wanted to remind him that, for the last 3 years, 
the legislation he speaks of we have it.
    It is my legislation. We have offered it. We always get 
denied an opportunity for hearing on my legislation to protect 
those people.
    We always get denied the opportunity to present an 
amendment. We tried over the last 3 years, but Mr. Shimkus 
doesn't have to recreate the bill.
    It is already there. It exists. Please join us. That is 
what we are trying to do to get the innocent people out of 
these EPA lawsuits. I thank the gentleman for yielding.
    Mr. Oxley. The gentleman's time is expired. The Chair now 
recognizes the gentleman from Tennessee, Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman, and welcome to the 
panel.
    As so often happens up here, we are called back and forth 
to different meetings, and other committees are meeting.
    So, I apologize in advance for having to leave. It is my 
intention to get back and hear as much of your testimony as 
possible.
    I appreciate the Administrator's statement, and 
particularly in regards to the Food Quality Protection Act.
    I am reviewing, on page 9, the four guiding principles you 
have used in the implementation of this bill.
    I am concerned about a couple of those, but I think that 
could be open to, I think, reasonable debate by reasonable 
people; certainly the first one using sound science in 
protecting public health.
    That is always one of my concerns, that we use sound 
science.
    Rather than go into an opening statement, I just would like 
to pose for Ms. Wayland--you might want to make a note here, if 
you could answer in the event I am not here to ask you these 
questions.
    The registration of new pesticides is obviously important 
to ensure that our farmers and other pesticide users can 
continue to effectively control the pests that threaten their 
crops and public health, especially as the Food Quality 
Protection Act reviews are resulting in significant 
cancellations of the uses of several widely used pesticides.
    I understand that EPA plans to make registration decisions 
on 19 new pesticides this year.
    That is compared to 26 that you made last year and 27 that 
you made in 1998.
    All this despite an 11 percent increase in your budget--in 
the registration budget as the administration requested.
    In other words, you are getting more money, but it seems 
like your registration decisions are going down from 27 to 26. 
Now, to 19.
    My question is why is productivity going down when funding 
is going up?
    The fiscal year 2001 budget contains a 14 percent increase 
for this pesticide registration program.
    How many new pesticide registration decisions do you expect 
to make in fiscal year 2001, and how many of those are for 
conventional pesticides meeting EPA safety standards?
    You may not be able to write this down quickly enough. It 
may be you have to furnish late-filed some of these answers to 
your testimony.
    One final issue regarding the same issue of EPA's potential 
restriction of the uses of several widely used products based 
on the Act's tolerance reassessment process, is to what extent 
there are available substitute products that provide equivalent 
or better efficiency.
    We need to know that. Because of the current backlog on 
pending registration requests, many of these new products may 
be years away from being approved by the EPA as substitutes for 
the ones that you are taking off.
    What is the Agency doing to address the problem of the 
backlog, and what additional resources do you need to expedite 
the new registration and review process to cut down or bring 
down this backlog?
    With that said, I do thank all of our Chairmen and ranking 
members for holding this joint hearing.
    I think it is very important on many other issues beyond 
just this Act that I talked about.
    But, I thank you for that and would yield back the balance 
of my time.
    Mr. Oxley. The gentleman yields back. The gentleman from 
Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, and I thank you and my 
chairman of the Health and Environment Subcommittee for calling 
this hearing today.
    I think it is really important. In fact, it is very timely 
for the area I represent.
    I have a number of areas I would like to explore today with 
members of the panel, and I am most pleased to see my friend, 
Bob Perciasepe, here.
    I am glad that we didn't scare you off the last time--the 
last hearing we had.
    EPA has been involved in two issues recently that are of 
crucial importance to both myself and my constituents.
    The first is the Longhorn pipeline. The second is 
attempts--and I know our chairman mentioned eliminating the use 
of MTBE in gasoline.
    The Longhorn pipeline is a 700-mile pipeline that will 
transport refined product from Houston refineries to 
communities in west Texas and El Paso.
    As a result of a lawsuit, a Federal District Judge in 
Austin initially ordered an environmental impact statement for 
the entire pipeline.
    The Federal Government approached Longhorn and asked that 
Longhorn not appeal due to the potential that, if the appeal 
failed, potentially every pipeline in the country would be 
subject to an EIS.
    The government offered to conduct an environmental 
assessment with predetermined parameters, which is only 
supposed to take 4 months.
    Longhorn has agreed to incorporate substantial mitigation 
above and beyond current Federal and State requirements.
    I supported the EA process--environmental assessment 
process--because the standards for safety would be elevated for 
pipelines in the country.
    Turning that environmental assessment into an environmental 
impact statement has been proposed by a regional EPA in Texas 
and would not add any additional information, and would only 
result in a perception that the National Environmental Policy 
Act is an obstructionist statute as opposed to being a 
beneficial decisionmaking tool.
    Your Agency joined with the Department of Transportation 
and released a preliminary finding of no significant impact in 
October of last year--October 22.
    Four months later, we are still--even longer than 4 
months--we are still studying the pipeline.
    I would like the EPA to move this process along. The EPA 
has studied everything there is to know about the Longhorn 
pipeline.
    Longhorn is committed to make their pipeline one of the 
safest in the country.
    Frankly, I wouldn't support it if they wouldn't. Neither 
would my colleague, Congressman Reyes, from El Paso.
    You still have time to salvage the good intention that 
started this process if you act now.
    I would like your assurances today this process will come 
to an end somewhere, or else we are not going to see pipelines 
built anywhere in the country, because you can't delay 
decisionmaking.
    The second project is MTBE, an oxygenate used in gasoline 
and produced in Texas, and the subject of much debate in 
Congress and in cities and towns across the country.
    The administration suggests that Congress should reduce or 
eliminate the use of MTBE. Which one, the reduction or 
elimination, does the administration support?
    How quickly should MTBE be phased out and when? Even more 
important for this committee, particularly, what does the 
administration propose in its place, and how much will it cost?
    The administration, in its three-paragraph outline of its 
proposal, did not provide much in the way of details.
    Again, this committee and the Health and Environment 
Subcommittee has spent a great deal of time on MTBE.
    We know, both, the problems with it, but also the successes 
it has had since 1991.
    I am hopeful that we will have time to explore the 
administration's proposal in greater detail today. Thank you, 
Mr. Chairman.
    Mr. Oxley. The gentleman yields back. The gentleman from 
Kentucky, Mr. Whitfield.
    Mr. Whitfield. Mr. Chairman, thank you very much. I am 
delighted that we are having this joint committee hearing 
regarding EPA's appropriation request for fiscal year 2001.
    I was listening to a radio program the other day, and they 
were talking about being a Member of Congress, that it helps if 
you have attention deficit disorder, because we very seldom 
have the opportunity to go into anything in any depth.
    I am particularly thankful that we do have an opportunity 
with an Agency as important as EPA to have an hour or 2 hours 
to sit down and just go over and listen to their request for 
their appropriations, and the impact their programs have 
throughout the country.
    So, I am delighted we are having this hearing, Mr. 
Chairman.
    Mr. Oxley. Thank you. The gentleman from Wisconsin has no 
opening statement.
    The gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Chairman. I am very interested in 
today's hearing.
    I am looking forward to hearing primarily on three points.
    One is the Agency's plan for reinstating the 1-hour air 
quality standards in light of the Court of Appeals remanding 
the new 8-hour standard.
    Second, I would like to see discussed the Agency's 
significant and potentially costly proposed change in the total 
maximum daily loads and national pollutant discharge 
elimination permits under the Clean Water Act.
    Third, I am interested in the Great Lakes Initiative that 
was included in the President's budget.
    I haven't seen a lot of detail. I know it is $50 million, 
and I want to make sure that it is well thought out.
    I yield back the balance of my time so we can get started.
    Mr. Oxley. The gentleman yields back very briefly. Thank 
you.
    [Additional statements submitted for the record follow:]
Prepared Statement of Hon. Cliff Stearns, a Representative in Congress 
                       from the State of Florida
    Mr. Chairman, I am pleased that we are having this important 
hearing to allow Congress an opportunity to critique and express our 
concern with the EPA's budget request. I do have several problems with 
the EPA's budget.
    One particular issue that I have a concern with is the EPA budget 
request of over $4 million for the Water Environment Federation. This 
Federation deals with Class B biosolids or sludge, which in my opinion, 
pose a potential health threat. Class B biosolids were spread on 65 
sites in my district last year Can the EPA assure me that this was done 
properly? Can EPA assure me that the health of my constituents and 
drinking water will not be at risk because of the use of Class B 
biosolids? How many enforcement officers does EPA region 4 have to 
inspect and supervise the application of this sludge? If it is so 
important to give the Water Environment Federation over $4 million 
dollars, then what exactly do they do? I do not believe that the proper 
research has been done to justify the usage of sludge, nor do I believe 
that the proper precautions are being taken in using sludge.
    In fact, the Science Committee held a hearing last week regarding 
agency harassment of persons who disagreed with EPA sludge policy. At 
this hearing it was revealed that the agency's inspector general found 
the EPA's sludge policy could not insure public safety. Is the agency 
reevaluating that policy? When will the EPA stop mandating before 
studies are completed? Think of the MTBE crisis. We know that as early 
as 1988 that the EPA had some health concerns with MTBE, but they moved 
forward anyway. Why?
    As a father, a Floridian and a Republican, I want to work to better 
the environment. But in order to this, we don't need more unfunded 
federal mandates and bigger bureaucracies as the EPA would have you 
believe. We need, instead, to give more power and flexibility to those 
closest to the problems, the States and localities. We need to 
strengthen existing provisions, crafting measures that work to better 
the environment, not measures that create more bureaucracies, impose 
costs and fees, and encourage endless litigation for trial lawyers.
    The bottom line is that the EPA should not make a mess, and then 
rely on Congress to fund cleaning it up. Peer review and unbiased 
studies should be completed before any EPA mandate. I look forward to 
hearing from our witnesses and to hearing responses to the questions 
that I have raised.
                                 ______
                                 
 Prepared Statement of Hon. Paul Gillmor, a Representative in Congress 
                         from the State of Ohio
    Mr. Chairman, I would like to thank you for calling this hearing on 
the fiscal year 2001 budget for the Federal agency charged with 
protecting the health and safety of the public and many of our natural 
resources. I appreciate the opportunity to speak and look forward to 
the testimony of our witnesses.
    Today marks the last time that the Clinton Administration will come 
before this committee to justify its funding requests for environmental 
protection. I, personally, find this to be an important exercise 
considering the length and depth that the U.S. EPA has inserted itself 
over the last seven years. It is essential that the Deputy 
Administrators before our panel give detailed accounts of how they wish 
Federal money to be spent and what the American taxpayer can expect to 
receive from it. While other body has expressed interest in an EPA 
authorization bill, an idea I find has real merit, I believe this is 
about as close as this committee will come to such an endeavor.
    Protecting the health and safety of every American is a goal I know 
we all support. Over the last seven years, though, I have had grave 
concerns as to whether EPA was more concerned about fancy press 
opportunities and saving desk jobs than in placing more funding into 
actual environmental cleanup. Without belaboring the point, we are all 
well acquainted with the fact that numerous congressional studies have 
shown that EPA is spending less than 50 cents on the dollar from 
remedial and removal actions under Superfund. Additionally, EPA's 
budget seeks $59.3 million for Clean Air Act programs that are not 
authorized by Congress, and many of which are based on taxpayer-funded 
science that has never been released to this committee, even after 
repeated requests.
    I am also concerned that this budget is last ditch effort to forge 
ahead on the goals of the Administration's political allies, regardless 
of the merits or the science. As Vice Chairman of the Commerce 
Committee, it concerns me greatly that after almost 60 days; the EPA 
cannot come up with basic answers on the agency's plans with regard to 
sound scientific assessments of its programs. Also, while MTBE is 
contaminating the groundwater of wells across this country, EPA is bent 
upon playing politics in California and having the Federal government--
and many Northeastern States--sue electric power plants in the Midwest. 
This would not be so maddening except the Federal courts are ruling 
against EPA. It is time to stop lawsuits and regulatory actions, and 
start working cooperatively with Congress, the states, and local groups 
to make environment protection a goal worth having.
    Mr. Chairman, I have concerns about other aspects of EPA's budget, 
like its plans to implement the Food Quality Protection Act. I am 
concerned that some of the planned cancellations are borne more out 
exacting pain on minor crop farmers who have little clout, than on 
larger more politically active producers. Congress must know how EPA is 
using this money and what is will mean for the future of production 
agriculture and the safety of fresh and processed foods.
    Again, Mr. Chairman, I thank you for this chance to speak. I have 
long believed that in an era of finite resources available for 
environmental protection--be they Federal, state, local, or private, it 
is clearly anti-environment to put lots of money into programs that 
only minimally protect people while other more pressing problems go 
unappraised due to lack of funding. I anxiously wait to hear if EPA 
will put its money where its mouth is when it comes to reasonably 
protecting the health and safety of all Americans.
                                 ______
                                 
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Good Morning. Thank you Chairman Oxley and Chairman Bilirakis for 
calling this joint Subcommittee hearing to review the Environmental 
Protection Agency's Fiscal Year 2001 Budget Request. Although I am 
disappointed the Administrator did not join us today, I am pleased to 
have the opportunity to address the senior Agency officials for EPA 
programs that fall within the Committee's jurisdiction, and I welcome 
them here today.
    I will be brief, but I want to mention a couple of matters that I 
hope we can address today. First, I want EPA to focus its energy on its 
core mandates. In my view, ``mission creep'' has, for some time, been a 
principal nemesis of EPA. As the Agency's budget has grown to a 9.5 
billion dollar request, EPA has gone beyond its core mandates by 
spawning boutique programs and initiatives with questionable long-term 
value and impact. For instance, the Agency has yet to provide me with 
an explanation for why it has identified ``international brownfields'' 
as a key program, much less tell me what it believes an ``international 
brownfield'' is. I have concerns that dozens of initiatives like these 
are diverting resources away from EPA's existing statutory obligations 
and thus away from our national priorities for environmental 
protection.
    This failure to focus on core mandates was clearly evident in the 
findings of the Committee staff report that I released last week 
demonstrating in great detail how EPA ignored evidence for many years 
that diesel engines were emitting millions of tons of excess pollution. 
EPA failed to enforce the law, as well as its own regulations, and the 
American people paid the price in the form of 12 million tons of excess 
pollution.
    Second, I believe the Agency must re-double its efforts to address 
fundamental management concerns. According to the General Accounting 
Office and EPA's Inspector General, EPA continues to have management 
problems that have hurt its effectiveness. Last month, GAO found lax 
computer security at EPA, the result of years of neglect by EPA despite 
repeated warnings and calls for action. While I am pleased that EPA has 
been working diligently for several weeks to address these problems, I 
am distressed that it took this Committee's aggressive oversight to 
spur EPA action. Without aggressive oversight, I am convinced the 
agency would not be correcting its security problems.
    In addition, this month, GAO issued a report that shows that rather 
than reducing paper work by 25% by 1998 in accordance with the 
Paperwork Reduction Act of 1995, EPA is actually expanding that burden 
on businesses to over 119 million ``burden hours'' as of 1998. 
Excessive paperwork, poor computer security, and high overhead do not 
protect the environment.
    I appreciate the opportunity to share my views with the Agency and 
look forward to working with EPA officials to address specific issues 
of concern. I hope the Agency will work with the Congress to focus its 
mission on core mandates for environmental protection and to address 
its broader management and security problems. Thank you, Mr. Chairman.

    Mr. Oxley. I would now like to recognize our panel today. I 
understand Mr. Perciasepe, the Assistant Administrator for the 
Office of Air and Radiation, will present the Agency's prepared 
statement this morning.
    Welcome. Mr. Perciasepe, before you begin, let me briefly 
recognize your colleagues that have joined you at the witness 
table today.
    We have Chuck Fox, Assistant Administrator, Office of 
Water; Steve Herman, Assistant Administrator, Office of 
Enforcement and Compliance Assurance; Susan H. Wayland, Acting 
Assistant Administrator, Office of Prevention, Pesticides, and 
Toxic Substances; Tim Fields--an old friend from our 
Committee--Assistant Administrator, Office of Solid Waste and 
Emergency Response, who I understand will be making an 
appearance later--he is over on the Senate side; Norine Noonan, 
Assistant Administrator, Office of Research and Development; 
and Margaret Schneider, Deputy Associate Administrator, Office 
of Environmental Information.
    Mr. Perciasepe, you may begin. Again, welcome to both the 
subcommittee's jurisdiction.

STATEMENT ROBERT PERCIASEPE, ASSISTANT ADMINISTRATOR, OFFICE OF 
AIR AND RADIATION, ACCOMPANIED BY TIMOTHY FIELDS, JR. ASSISTANT 
ADMINISTRATOR OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, J. 
 CHARLES FOX, ASSISTANT ADMINISTRATOR, OFFICE OF WATER, STEVE 
  HERMAN, ASSISTANT ADMINISTRATOR, OFFICE OF ENFORCEMENT AND 
      COMPLIANCE ASSURANCE, AND NORINE NOONAN, ASSISTANT 
      ADMINISTRATOR, OFFICE OF RESEARCH AND DEVELOPMENT, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Perciasepe. Both Mr. Chairmens, plural, thank you very 
much for the introduction, and, the rest of the committee, 
thank you.
    As you pointed out, Mr. Chairman, I am going to make an 
opening statement for the group, so we can just have one 
opening statement.
    Mr. Oxley. Too bad we couldn't do it up on this side, but 
it just never works that way, so thank you.
    Mr. Perciasepe. Maybe you guys can work on that.
    You mentioned Tim Fields.
    I would like to point out, sitting in for him, or pinch-
hitting until he gets here, is Mike Shapiro, his Deputy, who 
may get some of the questions.
    I just want to recognize them up front. There is Mike Ryan, 
who is the Acting Chief Financial Officer. Would you raise your 
hand?
    I might say that we look forward to working with you on the 
review of the budget process and with the other members of the 
subcommittee on the many issues that they have brought up.
    I do believe we have a productive working relationship that 
has enabled us to work toward the mutual goal of protecting 
public health and the environment.
    Together, we have a great opportunity to work in 
partnership to provide the American public with strong public 
health and environmental protections that they want and that 
they deserve.
    The budget we are putting forward achieves that goal. The 
President has presented a budget that maintains fiscal 
discipline while making essential investment in environmental 
priorities.
    The administration has repeatedly demonstrated that we can 
enjoy enormous prosperity, including the longest economic 
expansion in history while aggressively cleaning up the 
Nation's air, water, and land.
    Over the past 7 years of unprecedented economic progress, 
we have been working with this committee.
    We have both distinguished ourselves through unprecedented 
environmental progress, and we have done it through common-
sense, cost-effective measures that emphasize partnerships and 
cooperation with business, States, and local governments.
    The 1996 amendments to the Safe Drinking Water Act are an 
example of what we can do together.
    We supplied the first ever funding, a $3.6 billion loan 
program for communities to upgrade drinking water systems.
    We set up the first public right to know program for 
ensuring that all consumers of tap water know the source and 
the quality of that water.
    We have announced new measures to protect the health of 140 
million Americans by strengthening protections from emerging 
threats like cryptosporidium.
    As a result of these efforts, 89 percent of Americans now 
get tap water from drinking water systems that meet health 
standards.
    We have tripled the pace of cleaning up toxic waste under 
Superfund.
    At the end of 1999, a total of 670 Superfund sites have 
been cleaned up; 515 of these sites were completed since 1993.
    We have taken important steps to reduce emissions from 
automobiles and small trucks by up to 95 percent and, for the 
first time, ensure that sport utility vehicles, minivans, and 
light-duty trucks meet the same standards as passenger 
vehicles.
    We have required reduced sulphur levels in gasoline, and we 
have cut toxic air pollution from municipal combusters and 
other important source categories by more than 90 percent.
    We have unveiled new efforts to improve air quality in 156 
national park and wilderness areas.
    As a result of these efforts, some 43 million more 
Americans today are breathing cleaner air.
    At the same time, we have dramatically increased the 
public's right to know about toxic chemicals released into 
their communities.
    The Clinton-Gore Administration has nearly doubled the 
number of chemicals that must be reported to communities and 
required over 6000 new facilities to report release of toxic 
emissions.
    As a result of the past decade, toxic pollution has fallen 
by nearly 50 percent.
    We have revitalized communities by accelerating the clean-
up of Brownfields, abandoned or contaminated property that can 
be put back into commercial use.
    Communities across America are gaining new hope with nearly 
$70 million in seed grants awarded to over 300 Brownfields 
projects.
    These projects have leveraged more than $2 billion in new 
investments and created thousands of jobs, expanding the tax 
base for local communities and bringing decayed areas of cities 
back to vibrant use.
    Working with Congress, we have passed a new Food Quality 
Protection Act, that, for the first time, sets pesticide safety 
standards that are protective of children.
    We have recently taken action to reduce significantly the 
special risks posed to children by eliminating the use of two 
pesticides most widely used on foods found in the diets of 
children.
    While ensuring strong environmental protection, we have 
reinvented government in innovative ways to achieve greater 
environmental results at less cost.
    We have vigorously pursued common-sense, cost-effective 
solutions to today's environmental problems.
    The President's new budget, which requests $7.3 billion for 
EPA and $2.2 billion for the Better America Bonds program 
builds and continues 7 years of environmental achievement under 
the Clinton-Gore Administration.
    The budget provides an 11 percent increase for EPA's core 
programs for air, water quality, drinking water quality, food 
safety, scientific research, and enforcement.
    The administration's request provides for such programs 
such as President Clinton's Clean Water Action Plan designed to 
finish the job of cleaning up America's waters and restoring to 
full use the magnificent lakes, rivers, and bays of this 
country.
    It provides for a new initiative to protect and improve one 
of the Nation's greatest shared treasures, the Great Lakes.
    It provides for the President's program for cleaner waters 
across America, which, for the first time, targets individual 
waterways for clean-up plans tailored specifically to their 
needs.
    It provides new funding to protect our waterways from 
polluted run-off, the largest remaining threat to America's 
water quality and gives the States the flexibility they need to 
address this threat allowing up to 19 percent of the clean 
water revolving fund to be used for this critical goal.
    The President's budget provides the necessary funding for 
one of the Nation's top environmental priorities, protecting 
children's health, including targeting such special threats to 
children as lead contamination, air pollution that contributes 
to asthma, and dangerous levels of pesticide residues in foods.
    The President's budget also provides for a creative clean 
air partnership fund. The partnership fund promotes early 
reductions in air pollution.
    It fosters partnerships and flexibility between State and 
local governments in order to encourage new ideas for improving 
air quality that are custom-built by and for local communities.
    This budget calls for continuing to expand the public's 
right to know, including a new effort to develop a network for 
key environmental data with our State partners.
    That new network will be aimed at ensuring data quality, 
achieving reductions in reporting burdens, and enhancing public 
access.
    The budget calls for continuing our success in cleaning up 
the Nation's worst toxic sites.
    It calls for investing in our highly successful Brownfields 
program so that more communities can work together to create 
jobs and put abandoned properties back to work.
    The budget again calls for making our communities more 
livable through Better America Bonds.
    The administration is proposing this innovative financial 
tool to give communities resources they need to make their own 
decisions about preserving green spaces, addressing water 
pollution concerns, and promoting attractive settings for 
economic development.
    In conclusion, Mr. Chairmens, plural, this budget builds on 
7 years of proven success.
    It builds on 7 years of developing the kind of programs 
that the American public wants.
    It is a budget that will build strong American communities 
through partnerships and cooperation through tough health 
standards and through innovative, flexible strategies.
    It is a budget that will ensure a strong economy and a 
healthy environment for this country.
    We look forward to working with you, and we will be happy 
to answer any of your questions.
    [The prepared statement of Robert Perciasepe follows:]
 Prepared Statement of Robert Perciasepe, Assistant Administrator for 
        Air and Radiation, U.S. Environmental Protection Agency
    Chairman Oxley, Chairman Bilirakis and Members of the 
Subcommittees, I am pleased to be here today to present the Clinton-
Gore Administration's FY 2001 budget request for the Environmental 
Protection Agency(EPA). I am joined today by Assistant Administrators 
for major programs in the Environmental Protection Agency. We 
appreciate the opportunity to discuss the FY 2001 request for our 
respective programs, present an overview of the accomplishments of 
these programs, and respond to questions.
    I speak for all of my colleagues today when I express my thanks to 
your two Subcommittees for working with our respective Program Offices 
over the years. While we may not have agreed on every issue and policy, 
we know that the members of the Subcommittees do share our goal of 
protecting the public health and the environment.
    EPA's $7.3 billion request, and the $2.15 billion Better America 
Bonds program, continue and strengthen the Administration's commitment 
to the environment and public health by providing our nation's families 
and communities with cleaner water, cleaner air and an improved quality 
of life.
    The Clinton-Gore budget protects the health and the environment of 
the American public. Last year, however, Congress ``earmarked'' from 
EPA's budget some $470 million for more than 320 special projects in 
individual congressional districts. These earmarks direct money from 
the Agency's core programs--the very programs that keep the 
environmental cops on the beat, use the best science to set standards 
to protect our children, and support the work of our partners, the 
states, tribes and local governments. That is why we are not carrying 
forward last year's earmarks, and that is why we will continue this 
year to oppose earmarks.
    We also remain strongly opposed to any legislative riders that 
undermine our country's basic environmental laws. Our goal is to work 
with this Committee, and others in Congress with jurisdiction over this 
country's environmental laws, to provide real protections for the 
Nation. I strongly believe that the authorizing committees, the 
traditional forum for discussing these issues, should again guide the 
process.
    By providing our children and our communities with cleaner air, 
cleaner water and an improved quality of life, this budget maintains 
the Administration's dedication to the protection of public health and 
the environment. This budget ensures that the EPA will aggressively 
build on seven years of unprecedented environmental progress 
accomplished during the Clinton-Gore Administration.
    Over the past seven years of unprecedented economic progress, this 
Administration, working with Congress, has distinguished itself through 
unprecedented environmental progress. While each of my colleagues 
present today will discuss the specifics of their FY 2001 budgets, as 
well as accomplishments, new investments, and long-term goals, I would 
like to highlight some of these areas.
Office of Air and Radiation
    In 1990, Congress passed the Clean Air Act Amendments with 
overwhelming support, setting ambitious air pollution reduction goals. 
Since then, we have achieved unprecedented success in cleaning our 
nation's air and protecting public health. We have achieved these 
successes through rulemakings, voluntary measures, market mechanisms, 
state partnerships, and stakeholder negotiations.
    From 1970 to 1997, U.S. Gross Domestic Product has grown by 114 
percent, the U.S. population by 31 percent, and the number of miles 
traveled by on-road vehicles (VMT) by 127 percent. Yet, the aggregate 
emissions of criteria pollutants--ozone precursors, particulate matter, 
carbon monoxide, sulfur dioxide and lead--are down 31 percent. 
Emissions are down significantly for each of these pollutants except 
for nitrogen oxides (NO<INF>X</INF>), which have increased somewhat. 
Lead emissions have been cut 98 percent. Most of these declines in 
emissions can be attributed to implementation of the Clean Air Act. A 
few prominent examples of Clean Air Act successes since 1990 include 
the following:

<bullet> In the Acid Rain program, electric utilities have reduced 
        sulfur dioxide (SO<INF>2</INF>2) emissions by 22%, or 3.5 
        million tons, and have cut rainfall acidity in the East by up 
        to 25%.
<bullet> The U.S. and other developed countries have phased out 
        production of many of the chemicals most harmful to the 
        stratospheric ozone layer, including CFCs. We have estimated 
        that, once completed, the worldwide phase out will prevent 
        approximately 295 million skin cancers in the U.S. through 
        2075.
<bullet> The air in our cities is cleaner that it has been in a long 
        time. Nationally, average air quality levels have improved for 
        all five of six common pollutants subject to air quality 
        standards. There have been dramatic reductions in the number of 
        areas violating these standards.
<bullet> Through our voluntary climate change programs, the American 
        people have enjoyed a significant return on their investment. 
        For every dollar spent by EPA on its voluntary energy 
        efficiency programs, the private sector and consumers have been 
        encouraged to invest more than $15.00 in new more efficient 
        technologies; businesses and consumers have saved over $70.00; 
        and greenhouse gases have been reduced by more than half a ton 
        of carbon equivalent.
    FY 2001 Budget Request: The Office of Air and Radiation is 
requesting a total of $831 million for FY 2001. Of that total, $308 
million is for grants to states, tribes and localities. $523 million is 
for the operating programs.
    EPA is also requesting funding in FY 2001 for the Clean Air 
Partnership Fund. This is a priority for the Administration. We 
proposed the Fund for the first time last year and we still believe it 
provides an innovative, yet common sense approach for speeding 
reductions in pollution. The President's Budget requests $85 million 
for the Partnership Fund. The Fund will support demonstration projects 
by cities, states and tribes that (1) control multiple air pollution 
problems simultaneously; (2) leverage the original federal funds; (3) 
facilitate meaningful public involvement, and (4) provide examples that 
can be replicated across the country. By stimulating innovative 
technology and policies, the Clean Air Partnership Fund will help 
communities provide clean, healthful air to local citizens.
    To address global warming, the Administration is requesting $227 
million. We are proposing an increase of $124 million above the FY 2000 
enacted budget for the third year of the Climate Change Technology 
Initiative. Under this budget, EPA will expand its partnership efforts 
with businesses, organizations, and consumers to achieve greenhouse gas 
reductions by taking advantage of the many opportunities to reduce 
pollution and energy bills by fostering energy efficient programs, 
products, technologies, and cost-effective renewable energy. As a 
result of work already under way, EPA efforts with FY 2001 funding 
will:

<bullet> Reduce greenhouse gas emissions annually by over 66 million 
        metric on carbon equivalent, offsetting about 20% of the growth 
        in greenhouse gas emissions above 1990 levels;
<bullet> Reduce other forms of pollution, including reducing 
        NO<INF>X</INF> emissions by about 170,000 tons;
<bullet> Contribute to developing a new generation of efficient and 
        low-polluting cars and trucks.
    The opportunity to save on our nation's $500 billion annual energy 
bill over the next decade while reducing air pollution is tremendous. 
The opportunity to reduce greenhouse gas emissions is also large. We 
currently expect that more than half of the nation's greenhouse gas 
emissions in 2010 will come from equipment that will be purchased over 
the next ten years. We should not forgo this opportunity by not funding 
expanded energy efficiency programs.
    For air toxics, we are requesting $23 million, an increase of $6.6 
million over FY 2000 operating plan levels, to address the final round 
of MACT standards by the May 2002 ``hammer date''--the date by which 
states must determine controls for such sources if EPA has not acted.
    The request for the Montreal Protocol Fund totals $21 million, an 
increase of $9 million over the FY 2000 enacted level. The funding to 
the Protocol is dedicated to paying our dues to the fund and to reduce 
accumulated arrearage.
    To strengthen our relationships with our state and tribal partners, 
this budget provides $215 million in state and tribal grants to help 
implement solutions to air pollution problems locally. Of these 
resources, a $5 million increase will be targeted to regional planning 
bodies to combat the problem of regional haze--one of the most obvious 
effects of air pollution. Additionally, $8 million is provided to our 
state and tribal partners to design, implement, and maintain radon 
programs.
Office of Water
    EPA is in its 4th full year of implementation of the 1996 Safe 
Drinking Water Act Amendments, and we are very proud of the progress we 
have made in meeting the ambitious agenda laid out in the Act to ensure 
safe drinking water and protect public health. Substantial achievements 
have been made in terms of establishing protective, scientifically 
sound standards, promoting source water protection as an integral part 
of a comprehensive drinking water program, fostering the consumer's 
right-to-know, and increasing funding to states and communities. Among 
the examples are:

<bullet> Promulgation of two health-based regulations that: 1) 
        strengthen efforts directed to microbial contaminants and 
        protect Americans from waterborne pathogens, such as 
        cryptosporidium, and 2) address health risks associated with 
        the byproducts of chemical disinfection.
<bullet> Implementation of the Drinking Water State Revolving Fund 
        (DWSRF) and expeditious actions by the states to award loans to 
        local communities to build and upgrade their drinking water 
        facilities. To date, so far, Congress has provided $3.6 billion 
        in funding for the Drinking Water SRF program.
<bullet> We expect shortly that states will make their 1,000th loan 
        under the DWSRF, representing nearly $2 billion in loan 
        assistance to local communities. By the end of FY 2001, we 
        expect that 1,800 loans will have been made and some 450 SRF-
        funded projects will have initiated operations.
    While our successes are indeed noteworthy, significant challenges 
lie before us as the drinking water community--EPA, the states and 
localities, drinking water systems and stakeholders--strive to address 
and implement the remaining requirements of the SDWA amendments. For 
EPA, the most pressing long-term activities are to:

<bullet> Make regulatory determinations on the first Contaminant 
        Candidate List (CCL)--August 2001.
<bullet> Issue a second regulation on byproducts of chemical 
        disinfection--May 2002.
<bullet> Review more than 80 existing National Primary Drinking Water 
        Regulations--August 2002.
<bullet> Develop the second Contaminant Candidate List (CCL2)--August 
        2003.
<bullet> Compile and maintain complete, accurate, and timely data in 
        the Safe Drinking Water Information System on states' 
        implementation and compliance with existing and new 
        regulations.
    To meet these regulatory requirements, EPA must make sure that 
there is a solid scientific underpinning for setting new drinking water 
standards for contaminants identified on the Contaminant Candidate List 
that was issued in 1998, for controlling disinfection by-products, for 
reviewing and revising regulations for contaminants that are already 
being regulated, and for developing the CCL that is to be published in 
2003.
    FY 2001 Budget Request: A critical concern is to balance these 
research needs over the next several years to ensure that we have the 
science necessary to make sound regulatory decisions. To help address 
this need, the Agency is requesting an additional $5 million for 
drinking water research, especially for research on CCL contaminants.
    The States face the daunting task of: 1) adopting new regulations 
(more than ten by the end of 2000) that have been issued as well as 
maintaining compliance with existing regulations, and, 2) reporting 
comprehensive, accurate and timely data to the Safe Drinking Water 
Information System. To support the States in these activities, the FY 
2001 President's budget includes a request of $93 million for Public 
Water System Supervision (PWSS) grants to States. To address drinking 
water infrastructure needs, $825 million is requested for the Drinking 
Water SRF, a $5 million increase above the FY 2000 levels.
Office of Solid Waste and Emergency Response
    The Superfund, Brownfields, Resource Conservation and Recovery Act 
(RCRA), Underground Storage Tank, Chemical Emergency Preparedness and 
Prevention, and Oil programs share an important common goal of ensuring 
that America's wastes will be managed and remediated in ways that 
prevent harm to people and to the environment. These programs directly 
support the Administration's efforts to build strong and healthy 
communities for the 21st Century.
    FY 2001 Budget Request: The Administration is requesting $1.45 
billion in discretionary budget authority and $150 million in mandatory 
budget authority for fiscal year 2001 in support of the Superfund 
program to clean up the Nation's most serious hazardous waste sites. 
The Superfund program will continue to emphasize the completion of 
construction at NPL sites and the use of removal actions to protect 
human health and the environment. The President's goal of 900 
construction completions is still on schedule to be achieved by the end 
of fiscal year 2002. Through three rounds of Administrative Reforms, 
the Administration has been successful in achieving a fairer, more 
effective, and more efficient Superfund program. More than three times 
as many NPL sites have had completed construction in the past seven 
years than in the prior twelve years of the program. Approximately 90% 
sites on the NPL now are either undergoing cleanup construction 
(remedial or removal) or are completed, and approximately 6,000 removal 
actions have been taken at hazardous waste sites to immediately reduce 
the threat to public health and the environment.
    The Agency is requesting $91.7 million in fiscal year 2001 to 
continue implementation of the successful Brownfields Initiative. EPA's 
Brownfields Initiative, announced by Administrator Browner in 1995, 
serves as a catalyst to empower states, local governments, communities, 
and other stakeholders interested in environmental cleanup and economic 
redevelopment to work together in preventing, assessing, safely 
cleaning up, and reusing hundreds of thousands of abandoned, idled, or 
under-used industrial and commercial properties (brownfields). To date, 
EPA has awarded 307 assessment pilots to local communities. These 
pilots have resulted in the assessment of 1,687 brownfields properties, 
generated nearly 6,000 cleanup and redevelopment jobs, and leveraged 
over $1.8 billion. Beyond assessment, EPA has awarded 68 Brownfields 
Cleanup Revolving Loan Fund (BCRLF) pilots representing 88 communities 
to enable eligible states, tribes and political subdivisions to 
capitalize revolving loan funds for use in the cleanup and sustainable 
reuse of brownfields. Further, EPA and its federal partners have named 
16 Brownfields Showcase Communities to serve as national models 
demonstrating the benefits of collaborative activity to clean up and 
redevelop brownfields. EPA also has awarded 21 Job Training Pilots to 
community-based organizations, community colleges, universities, 
states, tribes, political subdivisions and non-profit groups.
    The Administration is requesting $224 million to support the RCRA 
program in FY 2001. The RCRA program protects human health and the 
environment from hazardous wastes by: reducing or eliminating the 
amount of waste generated; encouraging waste recycling and recovery; 
ensuring that wastes are managed in an environmental safe manner; and 
cleaning up contamination resulting from past mismanagement of 
industrial wastes. The RCRA program is predominantly implemented by 
authorized states, and one of the Agency's highest priorities continues 
to be providing funding and assistance to state programs, and working 
with states to remove any federal barriers to making progress in state 
solid and hazardous waste programs.
    EPA will continue to provide leadership, technical assistance and 
support for recycling and source reduction through voluntary programs 
such as our WasteWise and Jobs Through Recycling programs. In 1998, the 
fifth year of the program, WasteWise partners reduced over 7.7 million 
tons of waste through prevention and recycling. Under RCRA Corrective 
Action, the focus is on environmental goals at over 1,700 high priority 
facilities. In July of 1999, EPA announced a series of RCRA reforms 
that are already producing faster and more flexible cleanup actions. 
Specifically, the cleanup reforms reduce impediments to achieving 
effective and timely cleanups, enhance state and stakeholder 
involvement, and encourage innovative approaches. The Administration's 
fiscal year 2001 request includes additional resources that are 
absolutely necessary to implement these reforms, and to stay on track 
to meet the goals.
    The Agency is requesting $87.3 million in fiscal year 2001 to 
support the Underground Storage Tank (UST) and Leaking Underground 
Storage Tank (LUST) programs. EPA and states have made significant 
progress in addressing the UST problem. Since the inception of the UST 
program in the late 1980's, more than 1.3 million substandard USTs have 
been closed. EPA will continue to work with the States to increase the 
compliance rate with the spill, overfill, and corrosion (1998 upgrade 
requirements) portion of the regulations. EPA also will continue to 
work with the States to improve the compliance rate with the leak 
detection requirements. One of EPA's highest priorities for FY 2001 is, 
in conjunction with the states, to undertake a major multi-year effort 
to increase owners' and operators' compliance rates with the leak 
detection requirements.
Office of Enforcement and Compliance Assurance
    EPA has fundamentally changed the Agency's compliance program to 
achieve better public health and environmental results. The basis of 
this program is a strong, well-targeted enforcement program that 
addresses very serious environmental violations. It is complimented by 
an equally strong compliance assistance and incentives program directed 
toward achieving greater compliance. This system of carrots and sticks 
has served us well and we believe it will continue to serve us well in 
the future.
    I would like to share the results of these improvements to this 
program. Over the past four years, EPA has required reductions in 
emissions of nearly 5.9 billion pounds of NOx, over 700 million pounds 
of PCB-contaminated material, and over 409 million pounds of CO. These 
actions have resulted in more than $479 million in environmental 
improvements from supplemental environmental projects; $8.7 billion 
(including $2.7 billion in superfund) in environmental cleanups, 
installations of pollution control equipment, and improved monitoring; 
and $849 million in fines.
    OECA has also built an excellent compliance assistance program. 
Many in the regulated community, particularly small businesses and 
small communities, need assistance to comply with the law. EPA has ten 
compliance assistance centers on the Internet that are being visited 
over 700 times a day. In FY 1999, these centers were visited about 
260,000 times. In addition, in FY 1999, compliance assistance 
activities and tools--seminars, on-site assistance, mailings and 
handouts--reached about 330,000 entities.
    Though OECA has accomplished a lot to date, our compliance 
assistance program is not yet complete. Last year, the compliance 
assistance program worked with its stakeholders to identify remaining 
needs, and issued an action plan in January, 2000. A cornerstone of 
that plan involves the enrichment of OECA's compliance assistance 
program. We are in a unique position to deliver compliance assistance 
materials to a wide audience, including compliance assistance providers 
who work directly with the regulated community. In effect, EPA will 
take on more of a ``wholesaler'' role in the delivery of compliance 
assistance. Among other things, we will continue to create tools, such 
as compliance guides and Internet assistance centers. OECA is also 
developing a compliance assistance clearinghouse, a searchable web site 
that will give users access to compliance assistance materials 
developed by EPA, states, trade associations, and other assistance 
providers.
    In the last few years, OECA has also put in place incentives for 
those who want to self-police and discover and disclose environmental 
violations. Many responsible companies are using the EPA's Self-
Disclosure Policy. To date, almost 700 companies have disclosed 
violations at over 2700 facilities. Companies like GTE and American 
Airlines have recognized the benefit of the Self-Disclosure Policy by 
making multi-facility, multi-state disclosures. As a result of an 
initiative with the telecommunications industry that stemmed from the 
GTE disclosure, environmental violations have been corrected at 750 
telecommunication facilities.
    Finally, OECA has made ground-breaking progress in measuring the 
outcomes of performance. With input from the States, we developed state 
of the art methods to measure the impact of our enforcement and 
compliance activities. Beginning this year, these measures will, among 
other things, give this office a better understanding of significant 
noncompliance by high priority facilities and the improvements that 
result from compliance assistance.
    FY 2001 Budget Request: To maintain this progress in Fiscal Year 
2001, EPA has requested a total of $474 million and 3,540 workyears for 
the Office of Enforcement and Compliance Assurance.
    Of the amount requested, $177 million and 1,137 workyears are from 
the Superfund Trust Fund to ensure that the parties responsible for 
contamination at Superfund sites continue to do the majority of the 
cleanups. EPA's ``Enforcement First'' strategy has resulted in 
responsible parties performing or paying for more than 70% of long-term 
cleanups since 1991, thereby conserving the Superfund Trust Fund for 
sites for which there are no viable or liable responsible parties. This 
approach has saved taxpayers more than $16 billion to date--more than 
$13 billion in response settlements and nearly $2.5 billion in cost 
recovery settlements.
    Another portion of the request, $27 million, is to provide grants 
directly to States and Tribes to carry out pesticides and toxic 
substances enforcement programs. The State and Tribal grant programs 
are designed to build environmental partnerships with States and Tribes 
and to strengthen their ability to address environmental and public 
health threats. These threats include contaminated drinking water, 
pesticides in food, hazardous waste, toxic substances and air 
pollution. The program will award more than $25 million in State and 
Tribal enforcement grants in 2001 to assist in the implementation of 
the enforcement provisions of the Toxic Substances Control Act (TSCA) 
and the Federal Insecticide, Fungicide and Rodenticide Act (FIFRA). 
These grants support state and tribal compliance activities to protect 
the environment from harmful chemicals and pesticides.
    The bulk of the resource request provides the essential monies 
needed to continue the work that is being discussed today. This work 
includes inspections and monitoring, criminal and civil enforcement and 
training, compliance assistance, and compliance incentives. It also 
includes OECA's work in environmental justice, and our review of 
environmental impact statements and environmental assessments under the 
National Environmental Policy Act.
Office of Pollution, Prevention and Toxic Substances
    Through the Office of Prevention, Pesticides and Toxic Substances, 
EPA is making substantial new investments in programs implementing the 
Food Quality Protection Act of 1996 (FQPA) as well as the Toxic 
Substances Control Act. FQPA brought comprehensive reform to our 
nation's pesticide and food safety laws--setting in motion many 
fundamental changes in our approach to protecting human health and the 
environment from risks associated with pesticide use. FQPA focuses on 
the registration of reduced risk pesticides to provide an alternative 
to the older versions on the market, and on developing and delivering 
information on alternative pesticides/techniques and best pest control 
practices to pesticide users. Under the Toxic Substances Controls Act, 
EPA identifies and controls unreasonable risks associated with 
chemicals.
    Meeting FQPA's immediate and more stringent requirements for a 
single, health-based safety standard for new and existing pesticides, 
while also maintaining momentum for bringing new biologicals and safer 
products to market, has been an extraordinary challenge. EPA's 
activities have been guided by four principles: using sound science in 
protecting public health, developing a sufficiently transparent 
implementation process, providing a process for the reasonable 
transition of agriculture to new pest management strategies, and 
maintaining open consultation with the public and other agencies. EPA 
will continue to work closely with our federal, state and tribal 
partners, as well as with our many public stakeholders to seek guidance 
and meaningful public involvement in FQPA implementation activities.
     Since enactment of FQPA, EPA has registered 89 new pesticide 
active ingredients, 56 of which are considered ``safer'' than 
conventional pesticides. FQPA also requires EPA to reassess all 9721 
pesticide tolerances and tolerance exemptions that were in effect when 
the law was passed. As required by FQPA, EPA reassessed 3,290 
tolerances by July 30, 1999, surpassing the 33% goal for August 1999.
    FY 2001 Budget Request: EPA will address serious deficiencies in 
the availability of basic health and environmental hazard information 
for chemicals manufactured in, or imported into the United States in 
amounts greater than one million pounds per year. EPA will continue to 
invest in the High Production Volume (HPV) Challenge Program, which 
will provide information on over 2000 chemicals through a voluntary 
program with over 435 company partners. In addition, the 2001 request 
includes $75 million to help meet the multiple challenges on the 
implementation of FQPA so that all Americans will continue to enjoy one 
of the safest, most abundant, and most affordable food supplies in the 
world. In 2001 EPA will:

<bullet> Reassess an additional 1,200 of the 9,721 existing pesticide 
        tolerances to ensure that they meet the statutory standard of 
        ``reasonable certainty of no harm.'' Support for tolerance 
        reassessments will reduce the risks to public health from older 
        pesticides.
<bullet> Complete reassessment of a cumulative 66 percent (560) of the 
        848 tolerances of special concern in protecting the health of 
        children.
<bullet> Help farmers improve their pest management strategies through 
        the Regional Strategic Agricultural Partnerships Initiative, 
        and the Pesticide Environmental Stewardship Program.
Office of Environmental Information
    The unprecedented change in information technology and the 
burgeoning public thirst for information have radically altered the 
information landscape in the course of just a few years. Just this past 
October, our Agency finalized a major reorganization aimed at 
consolidating and enhancing EPA's management of environmental 
information. This reorganization brings together in one organization 
various functions related to the collection, management, and use of 
EPA's information by the Agency, its State and Tribal partners, and the 
public. The creation of the Office of Environmental Information (OEI) 
resulted from Administrator Browner's view that information is an 
essential resource for environmental decision-making. This new 
centralized focus on information, under the leadership of an Assistant 
Administrator, adds additional authority to the Agency's Chief 
Information Officer position, and enables the Agency to provide better 
guidance and oversight of data integrity and quality issues. In 
response, EPA has taken major steps to improve and enhance its 
environmental information capabilities and its overall approach to 
information.
    Our new Office of Environmental Information (OEI) is the first 
federal agency to recognize the critical inter-dependencies between the 
information the Agency collects and disseminates, and the policy and 
technology needed to support and secure it. The FY 2001 budget request 
of $168M for OEI will support efforts to improve how the Agency 
collects, manages, integrates and provides access to environmental 
information.
    Working with State and Tribal partners and stakeholders, OEI is 
striving to make data more useful and understandable for informing 
decisions, improve information management, reducing reporting burdens, 
measuring success, and enhancing public access. The Agency has seen the 
value of putting information in the hands of the American people, as 
their increased knowledge becomes a force for protecting public health 
and the environment. We have provided communities with increased access 
to more information about pollutants released into their communities by 
greatly expanding the public's right-to-know. Access to environmental 
information has led to creative and sustainable solutions to 
environmental risks and opportunities for preventing pollution.
    The President's budget continues to enhance the public's right-to-
know about environmental emissions in their local communities through 
several initiatives. One of the new efforts represents a fundamentally 
new approach to ensuring the efficient collection and management and 
broad public dissemination of high quality environmental data. Under 
the Information Integration Initiative, the Administration will work 
with the States to develop one of the Nation's greatest sources of 
shared environmental information. We are also stepping up our efforts 
to assure data accuracy, stakeholder involvement, information security, 
and information dissemination while balancing public interest in these 
emerging areas of public policy.
Office of Research and Development
    The Agency's key priorities of clean air, clean water, healthy 
children, healthy ecosystems, and partnerships with stakeholders 
provide the structure for the Agency's ORD budget request for FY 2001. 
Over the last five years, ORD has undertaken an ambitious modernization 
and streamlining effort. We reorganized our National Laboratories and 
research portfolio along the Risk Assessment/Risk Management paradigm. 
We balanced our research activities across the two broad categories of 
Problem-Driven Research (to solve environmental problems of high risk 
and high scientific uncertainty) and Core Research (to improve the 
underlying scientific tools for understanding and protecting human 
health and the environment). We continue to enhance the linkages 
between these mutually reinforcing aspects of our scientific mission.
    Recent work on an updated ORD Strategic Plan 2000 is reinforcing 
our organization's alignment around and attainment of our strategic 
goals. By planning our FY 2001 research program within the structure of 
EPA's Strategic Plan, we are ensuring that ORD's research program 
solidly supports EPA's National Program Offices. Our budget request 
will continue to assure that ORD will provide leading-edge science and 
engineering to support EPA's environmental decision-making.
    Let me give you a few examples of the important research ORD is 
providing:

<bullet> ORD evaluated the overall ecological conditions of estuaries 
        in the Gulf of Mexico, which are critical for commercial 
        fisheries, wildlife habitat, and recreational opportunities. 
        Results of this research (published in our report Ecological 
        Condition of the Estuaries in the Gulf of Mexico) will assist 
        resource managers and the public in focusing on solutions for 
        the most serious problems.
<bullet> ORD established five Airborne Particulate Matter (PM) Research 
        Centers to advance the understanding of the health effects of 
        particulate matter by drawing upon the expertise of some of the 
        nation's leading researchers outside of the federal government. 
        The Centers were established via competitive grants awarded to 
        universities through the Science to Achieve Results (STAR) 
        program.
<bullet> An ORD scientist led the research that will support EPA 
        decisions to protect lakes and streams from acid rain. The 
        study examined trends in lake and stream recovery from acid 
        rain in North America and Europe. The study, which was reported 
        in Nature, involved investigators from nine countries, and 
        found that recovery was occurring in some regions, with signs 
        of likely recovery in others.
    ORD effectively leverages the Nation's scientific resources by 
partnering with other Federal Agencies on the Committee on Environment 
and Natural Resources (CENR) and through our Science to Achieve Results 
(STAR) grants to scientists and engineers in universities and not-for-
profit science organizations. Our partnerships are the result of 
multiple layers of careful integration that ensure that all external 
work complements and strengthens our in-house research. Partnering with 
Federal Agencies provides a common sense and cost-effective way for us 
to utilize the special expertise residing outside of our Agency, while 
also reducing overlapping and duplicative work.
    ORD's FY 2001 budget request builds upon ORD's significant 
accomplishments, supports the Agency's mission, and provides the 
scientific and technical information that is essential for EPA to 
achieve its long-term goals. The research and development program 
outlined in this office's budget request reflects both ORD's highly 
effective in-house research program, and our efforts to partner and 
work with other research organizations. ORD is seeking $107M in support 
of our Science to Achieve Results (STAR) grants program which leverages 
our research capabilities by tapping into expertise from the Nation's 
top academic and not-for-profit scientific organizations through a 
variety of competitive grants, investigator-initiated exploratory 
research awards, graduate fellowships and environmental research 
centers. Further, the office's long range program of hiring 
Postdoctoral scientists and engineers for three year appointments, 
boosts our state-of-the science expertise to ensure that we produce 
outstanding scientists and engineers in the field of environmental 
protection. ORD is focused on optimizing the delivery of timely RESULTS 
to our Agency customers, stakeholders, and the American public.
    FY 2001 Budget Request: The Office of Research and Development's FY 
2001 budget request supports the Agency's key priorities of clean air, 
clean water, healthy children, healthy ecosystems, and partnerships 
with stakeholders. The Agency's total FY 2001 request in the Science 
and Technology (S&T) account is $674.3 million and 2464 total work 
years, an increase of $32 million and four work years from the FY 2000 
enacted level. ORD's total FY 2001 request is $530 million and 1972 
work years. Of this total, ORD's FY 2001 request in the S&T account is 
$492.5 million and 1848 work years. The Office of Research and 
Development's key research efforts will include:

<bullet> Particulate Matter--In 2001, EPA is requesting $65.3M to 
        support PM chronic epidemiology research to evaluate the role 
        of chronic PM and co-pollutant exposure in producing death and 
        disease, and to assess the most prominent PM health risks. This 
        work continues to provide sound science in support of 
        establishing NAAQS and builds upon an extensive network of ORD 
        partnerships with other agencies under the auspices of the 
        Committee on Environment and Natural Resources.
<bullet> Drinking Water Research--We are requesting $48.9M, a $5 
        million increase to support the Safe Drinking Water Act 
        Amendments of 1996 which require EPA to publish a list of 
        unregulated contaminants to aid in priority setting for the 
        Agency's drinking water program. The existing Contaminant 
        Candidate List (CCL) categorizes 60 chemicals and microbes 
        where additional research in the areas of health effects, 
        analytical methods and/or treatment is necessary to provide a 
        sound scientific basis for regulatory decision making. This 
        builds on important FY 2000 accomplishments in identifying 
        drinking water disinfections byproducts and evaluating their 
        relative toxicities.
<bullet> Ecosystem Protection Research--In requesting $106.1M to 
        continue our successful ecological assessment work in the 
        Nation's coastal waters, we are increasing our understanding of 
        their condition and how they can be protected. In particular, 
        in 2001, we will focus attention on the second year of the 
        Environmental Monitoring and Assessment Program (EMAP) Western 
        Pilot to sample estuaries, streams and rivers, and landscapes 
        in 12 western states. We will also enter the second year of our 
        Regional Vulnerability Assessment project to combine modeled 
        projections of changes in stresses (e.g. pollution deposition, 
        land use change) with information on sensitive ecosystems to 
        identify the greatest environmental risks in the next 5-25 
        years.
    Again, I am pleased to have presented the highlights of EPA's 
Fiscal Year 2001 budget request, and we appreciate this opportunity to 
appear before the Subcommittees to discuss these highlights indepth.

    Mr. Oxley. Thank you, Mr. Perciasepe. The Chair recognizes 
himself for 5 minutes for the first round of questions.
    Mr. Shapiro, welcome. I understand you are filling in for 
Tim Fields, and we appreciate your being here.
    As you know, EPA has repeatedly come before this committee 
and testified about the Superfund administrative reforms.
    In testimony before our committee and almost every public 
release, the Agency has touted the success of these 
administrative reforms as the single most important reason why 
we don't need Superfund reform legislation.
    I understand you grouped these reforms by the Agency in 
three tiers comprised of a total of 62 separate administrative 
reforms.
    I have a series of questions I would like to ask you about 
that.
    Has EPA quantified its expenditures on designing and 
implementing these reforms, and can the EPA provide such an 
estimate for each one of those reforms?
    Mr. Shapiro. As far as I can tell, we have not separately 
identified budget line items associated with developing and 
implementing the reforms.
    So, we would be unable to provide you with precise 
information about that.
    We could obviously try to roughly approximate it; we have 
not kept the books in a way that would allow us to easily 
measure costs associated with each reform.
    Mr. Oxley. It is my understanding that EPA has reviewed its 
reforms, and, using the Agency's own definitions, EPA concluded 
that only 14 of the 62 reforms resulted in fundamental change 
to the operation of the Superfund program and produced 
measurable results.
    Put in another way, according to EPA, 48 of the 62 
Superfund administrative reforms either did not produce any 
measurable results or did not fundamentally change the 
Superfund program.
    If this is the case, how can EPA claim these reforms have 
made such an impact on the program?
    Why is it that the vast majority of these reforms have been 
so ineffective even though you constantly talked about how 
successful they have been?
    Mr. Shapiro. I would like to make a couple of points in 
response to that.
    First of all, I think, taken as a whole, we continue to 
believe that the administrative reforms have had an enormous 
impact on the Superfund program.
    We have accelerated the rate at which we can bring sites 
through to completion.
    As demonstrated by the statistics in the program, they have 
actually greatly accelerated our ability to achieve 
construction completions.
    We have reduced the costs of achieving environmentally 
protective remedies, saving well over a billion dollars through 
using the best science and the best technology in our remedies 
and even going back and changing remedies when the situation 
warrants.
    We have clearly made the program fairer, and I am sure 
Steve Herman has a lot to add on that if you would like to hear 
from him.
    Again, overall, we think there is quite a good story to 
tell in terms of the impacts that the reforms overall have had 
on the program.
    Not every reform is easily measurable, and, therefore, when 
we say we can't necessarily measure the success of the reform, 
that doesn't mean that the reform itself, as a piece of a whole 
series of actions to improve the program, has not been an 
important element.
    Finally, even in those cases where we think work remains to 
be done, we think that, as in any activity where we are trying 
to continuously improve our program, the Superfund reform's 
effort was not intended to be a one-shot solution to improving 
the program.
    We intend to learn from the experience in implementing the 
reforms and, where necessary, work harder to implement those 
reforms that have not fully worked out, as well as learn from 
both our own internal experience the experience of our 
stakeholders as to areas where we can continue to introduce new 
improvements into the program.
    Mr. Oxley. As you know, we have offered to put into the 
legislation those reforms that the EPA felt would work or that 
have worked.
    We felt that, if they were so effective, that it would be 
important to put them into law.
    But, in essence, we have been unable to connect those dots.
    Let me ask you a question about the Superfund program. At 
the end of fiscal 1999, you claim that fully 92 percent of the 
sites are on the NPL list who are undergoing clean-up 
construction or were completed.
    Even allowing for additions of new sites as projected by 
EPA, it appears clear that the future size of the NPL will be 
much smaller.
    Does the Agency anticipate a significant reduction in the 
funding requirements to the program as it matures further?
    Mr. Shapiro. We think, at this point, it is premature to 
speculate on the eventual size of the program.
    But, certainly for the foreseeable future, the workload 
ahead of us in terms of the number of NPL sites that remain to 
be worked on, as well as the other very important 
responsibilities of the program, including responding to 
emergencies, cleaning up sites under our removal program, 
maintaining the integrity of remedies where we have to go back 
and doing periodic reviews is such that we are not, at this 
point, comfortable projecting a reduction or ramp-down in the 
size of the program.
    There is, as you know, a very important study that has been 
chartered by Congress, being undertaken by Resources for the 
Future, to look at, over a 10-year period, the projected costs 
of the program, both in completing current NPL sites as well as 
looking at other key components of the program.
    Certainly, EPA has been cooperating fully with RFF in that 
endeavor.
    We look forward to seeing the results of that work.
    Mr. Oxley. When do you expect to see those results?
    Mr. Shapiro. My understanding is that it will go to 
Congress.
    RFF is projecting that they will have a draft report 
available by the end of this year.
    Mr. Oxley. So you are asking for a billion and a half 
dollars for the program despite the fact that the EPA has 
consistently said that 92 percent of the sites were undergoing 
clean-up construction?
    It just seemed, from our perspective in a budgetary 
perspective, somewhat of a disconnect, where EPA is talking 
about 92 percent in the pipeline being completed.
    The program is obviously being ramped down, which I think 
is a positive thing.
    Yet, it continues to ask for a billion and a half dollars 
in the face of what appears to be a rather effective ramp- 
down.
    Mr. Shapiro. Again, even to achieve our goal of 900 
construction completions by the year 2002, the $1.45 billion, 
funding that the President has asked for, we believe is 
absolutely critical in order to maintain ongoing work at sites 
that are under construction but have more work to be done as 
well, as to begin this year, or rather 2001, work on additional 
sites that we will need to bring into completion in order to 
achieve those results.
    So, our success to date and our projected success in the 
future in terms of bringing that 92 percent fully into 
construction completion depends very significantly on our 
ability to get the $1.45 billion that the President has asked 
for.
    Mr. Oxley. My time is expired. Let me now recognize Co-
Chair--the gentleman from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. Mr. Shapiro, first, 
let me just say Mr. Markey, who gave his opening statement and 
left, very eloquently shared with us some of the successes, if 
you will, or credits, of the work of the EPA over the years.
    I think we all certainly subscribe to that and feel EPA has 
done an awful lot of good things.
    I would also say that, you know, we act laws up here, and 
quite often we eventually see them in practice.
    As a result of these, we had a chemical site--and I am 
sorry Mr. Fields is not here, but I assume you are familiar 
with it.
    I actually saw and am seeing constantly EPA in action, and 
I want to first say that they have been terrifically 
cooperative.
    It has just been great to work with them, and I am really 
pleased, in general.
    But--There is always a ``but,'' isn't there? As you may 
know, they made certain recommendations in terms of clean- up.
    It took getting the ombudsman down there to town meetings--
a third one probably coming up--to determine that, in fact, 
they did not take into consideration the geology of the area.
    Or, at least, they didn't adequately take into 
consideration the geology of the area--the geophysics, if you 
will, of the area, that sort of thing--an awful lot of 
sinkholes, you know, in that area.
    I guess what I am saying is, rather than get to the details 
of all of that--because we have spent an awful lot of time 
together, and I am pleased to say that all parties seem to be 
willing to get together to kind of work out a new clean-up type 
of a process.
    But, the role of the ombudsman--I was a member of the 
committee when we had the Clean Air Act.
    You know, it was all cranked in there, and I guess that it 
is more of a word than anything else to all of us.
    But, I have seen that role. You know, I am concerned. I 
said in my opening statement I am concerned that there seems to 
be maybe a reduction of funding toward that end.
    I want to hear from you, and maybe from Mr. Perciasepe--
which would be coming, I assume, from the Administrator 
herself--what you all consider the role of the ombudsman and 
what you think the future of the ombudsman's role would be, and 
what your intent might be regarding that role.
    Mr. Shapiro. Thank you. Again, I don't necessary want to 
get into the details of the Stouffer Chemicals site.
    There are a lot of different points of view there, and I 
know you have certainly spent a lot of time yourself personally 
at the hearings and with the ombudsman.
    Speaking more generally about the ombudsman function, it is 
certainly one that the Agency views as important especially in 
the Superfund program and other hazardous waste programs 
because of the intense interest that communities have in these 
sites, and because of the fact that often there are legitimate 
differences in point of view.
    Citizens feel like they need an independent outlet for 
voicing some of their concerns and pursuing evaluation of the 
Agency's actions.
    So, the current Assistant Administrator, Tim Fields, as 
well as his predecessors, have maintained this important 
ombudsman function.
    That function reports to the Assistant Administrator and is 
funded out of the funds that are appropriated for operation of 
OSWER programs.
    There is no separate line item for the ombudsman, but, 
frankly, for the ombudsman and any staff that are supporting 
the ombudsman activities, it comes out of the budget that we 
use to operate the Assistant Administrator's office.
    There has been no reduction in that in the President's 
proposal.
    Certainly, our intent is to continue funding the 
ombudsman's activities at least at the level that we currently 
have them.
    Mr. Bilirakis. Do you have those figures handy?
    Mr. Shapiro. I don't have a separate break-out.
    Mr. Bilirakis. You know what that means, of course?
    Mr. Shapiro. But, we can certainly get an estimate. Right 
now, that would involve the salary for the ombudsman, and one 
individual that spends most of his time working with the 
ombudsman.
    Mr. Bilirakis. Can you furnish us in writing the 
information regarding that?
    I had other things here, but we have taken up the entire 5 
minutes.
    But, please furnish that information to us. I would like to 
know basically, not only the dollars specifically, but maybe 
extended out to the future in terms of the future role of the 
ombudsman, because I introduced legislation to make sure that 
that position will stay forward.
    I would hope that EPA would support that. Thank you, Mr. 
Chairman.
    [The following was received for the record:]

    OSWER funds the National Ombudsman activities out of funds used to 
operate the Assistant Administrators's office. Funding for the past 2 
years is shown below:

------------------------------------------------------------------------
                                                                 FY00
                                                FY99 ($000)     ($000)
------------------------------------------------------------------------
Payroll.......................................       $194.3       $203.5
Travel........................................        $30.5        $30.5
Grants/Contracts..............................        $29.8        $62.4
Other.........................................         $5.0         $5.0
Total.........................................       $259.6       $301.4
------------------------------------------------------------------------

    It is OSWERs intention to continue funding the National Ombudsman 
function at the same level it has been funded in the past.

    Mr. Oxley. The time of the gentleman has expired. The 
gentleman from the Upper Peninsula.
    Mr. Stupak. Thank you, Mr. Chairman. The Director of the 
Office of Management and Budget has concluded that the 
Republican budget passed last week would cut next year's budget 
for most non-Defense programs by an average of 9 percent.
    His letter identifies some of the devastating impacts on 
programs like Head Start, school repairs, and the hiring of new 
public school teachers.
    However, today, I would like to ask each member of the 
panel to explain the impact of the Republican budget on the 
Environmental Protection Agency overall, and some of the 
important public health programs administered by the EPA.
    I don't know who would want to start.
    Mr. Perciasepe. We will start with the Chief Financial 
Officer on the general budget question.
    Mr. Ryan. Yes, sir. If I could simply give a sense of scale 
for what this would mean briefly, in general, and then you can 
direct questions, as you mentioned, to individual members for 
specifics.
    As we understand it, this 9 percent impact would apply to 
EPA.
    Of course, that hasn't been determined yet with precision.
    But, it would amount to about $680 million. If we were to 
look at just, as a sense of scale as to what that means, that 
is--as I don't have to tell members of the committee--about 
half of everything we have for Superfund.
    It would be 60 percent of what the grants we do for States 
and tribes in air and water programs.
    It really is slightly more than what we have for all of our 
science and technology budget.
    It would pretty much be a devastating blow. Obviously, we 
don't know how a new Administrator would take these cuts with 
precision.
    We do know that we wouldn't think that anyone would 
logically take it from one place, but I offer these up just for 
a sense of scale.
    But, even if you were to proportionately spread it out, it 
would be a tremendous hit.
    If you just take a tenth of it--that $68 million--that 
would pretty much wipe out our leaking underground storage tank 
funding, for example, for a year.
    So, it would be a very devastating hit. It would be very, 
very difficult for us to absorb.
    We've got major damage to the environmental work that is 
ongoing, that other members of the panel are better able to 
describe than I am.
    But, it is not hard to imagine that you can manage that 
magnitude of a cut in 1 year without stopping doing something 
significant.
    You have to make a significant decision of what you would 
cut.
    Mr. Stupak. Would other panel members give us some examples 
of what other programs--Has the Department or Agency begun to 
draw up any kind of plans to administer such a cut?
    Mr. Ryan. No, we haven't started to do that yet. I think 
people have looked into their budgets and have asked the 
question: what would it mean in terms of a 9 percent cut to my 
budget.
    But, we haven't started a formal process, because it has 
been our experience that these numbers jump around.
    We would await the final number before we did a formal, 
full-blown look at this.
    Mr. Stupak. You indicated a new Administrator would not 
probably take $680 million out of one program, if there is a 
program that big that you have that is half of Superfund, I 
believe you said, but take it across other areas.
    We have had a lot of discussions in the health and 
environment in this past year on Brownfields and drinking water 
research, drinking water revolving loan funds.
    You mentioned leaking underground storage tanks, one that I 
have worked on throughout.
    But, there are lead poisoning programs we have talked 
about.
    How would it impact those types of programs, the 
Brownfields, which seems to be real popular on both sides of 
the aisle?
    How would it affect a program like that? Can anyone comment 
on it?
    Mr. Ryan. I think Mr. Shapiro may want to take it for, say, 
the 9 percent cut to Superfund.
    Mr. Shapiro. Yes. I think, if one assumed a flat 9 percent 
Superfund and Brownfields programs, the kind of impacts we 
would anticipate, for example, would be that, we would 
virtually have to eliminate any new construction activities 
starting up.
    We would certainly have a backlog of sites available to 
begin construction in 2001.
    In addition, a cut of that magnitude would probably force 
us to scale back ongoing clean-up activities at sites where we 
have already commenced construction by a significant number.
    If one, again, translated that into the Brownfields 
program, the $92 million that is in the President's budget, 
reduced that by $9 million, would equate, for example, to 
scaling back the number of communities that could benefit from 
revolving loan fund funding by about 20 communities.
    So, it would have a very substantial impact on our ability 
to move forward to protect citizens around these contaminated 
sites.
    Mr. Stupak. Mr. Fox.
    Mr. Fox. On the water front, a cut of this magnitude would 
have a fairly significant impact on our ability to provide safe 
drinking water to all Americans.
    If budget cuts of that type are passed, we would have to 
probably cut on the order of $75 million in our drinking water 
loan funds to small communities throughout the country.
    That could affect loans for up to 40 communities, perhaps 
more.
    We give a good deal of resources to the States to help them 
implement the drinking water programs.
    That, too, would be cut substantially outside of the 
drinking water fund.
    A number of our clean water programs, of course, would also 
be very significantly cut, affecting clean-up activities in 
places like Chesapeake Bay, Long Island Sound, or the Great 
Lakes.
    It would be a very significant impact.
    Mr. Oxley. The gentleman's time has expired.
    Mr. Stupak. There is no place to absorb it if you cut these 
programs. That is what we are hearing?
    Mr. Fox. Again, based on what future decisions we made, 
they would be very difficult decisions.
    Mr. Stupak. Thank you for your patience. Mr. Chairman.
    Mr. Oxley. The gentleman's time has expired. The chairman 
informed the members that we have two votes on the floor.
    We have about 8 minutes, or so. I would like to recognize 
the gentleman from Kentucky for 5 minutes.
    Then, we will stand in recess until after the votes. The 
gentleman from Kentucky.
    Mr. Whitfield. Thank you. Mr. Shapiro, how many Superfund 
sites are there in the U.S.?
    Mr. Shapiro. In terms of sites that are on the national 
priorities' list, including those that have been removed from 
the list after work has been completed, there are 1432 sites.
    Mr. Whitfield. How many of those are operated by the 
government or the government is responsible for them?
    Mr. Shapiro. I believe there are about 170 Federal 
facilities.
    Mr. Whitfield. One of those facilities is in Paducah, 
Kentucky, the gaseous diffusion plant, which has been operated 
by DoE for many years prior to privatization.
    What is the relationship between DoE and EPA on Superfund 
sites, like the gaseous diffusion plant in Paducah?
    Mr. Shapiro. It is the responsibility of the Federal agency 
to do the clean-up with EPA overseeing their operations and 
selecting the remedy in consultation with the Federal agency.
    However, the funding for the clean-up itself comes out of 
that Federal agency's budget.
    Mr. Whitfield. So the $1.45 billion that you are requesting 
in discretionary funds for Superfund would not be used to clean 
up any government site?
    Mr. Shapiro. It would be used to cover our oversight costs 
in terms of working on the technical aspects of the remedy and 
ensuring that the remedy is being implemented.
    But, the actual physical cost of remediation would not be 
covered in that, that is correct.
    Mr. Whitfield. But it is ultimately EPA's responsibility. 
They oversee DoE. Is that correct?
    Mr. Shapiro. It is correct that we oversee DoE. It is DoE's 
responsibility to clean up the site, a responsibility that we 
will enforce.
    But, it is certainly their responsibility to do the clean-
up.
    Mr. Whitfield. Do you have any authority over them?
    Mr. Shapiro. Yes, we do.
    Mr. Whitfield. What sort of authority do you have? Can you 
fine them?
    Mr. Shapiro. Yes, we can.
    Mr. Whitfield. What is the maximum fine that you would be 
able to find a government agency?
    Mr. Shapiro. Steve Herman can answer that.
    Mr. Herman. Congressman Whitfield, what we do is we often 
have a compliance agreement with the other Federal agency, 
which sets out a schedule of the activities that are supposed 
to take place.
    If they miss those, often they are provided stipulated 
penalties for missing those deadlines.
    Mr. Whitfield. Do you have a compliance agreement with DoE 
on the Paducah site?
    Mr. Herman. I believe we do.
    Mr. Whitfield. You know, there's been over $400 million 
spent on the Paducah site.
    There are still 57,000 barrels of hexafluoride. There's 
Drum Mountain, there are aquifers that have been contaminated.
    The Washington Post, on the front page, has written ten 
articles about the Paducah site.
    It seems to me that someone is not getting the job done 
there, and, you know, we talk about being concerned about 
people--the air they breathe, the water they drink, which is 
vitally important, obviously.
    And EPA has made great progress in the area of clean air 
and clean water.
    But, we have hundreds of employees at Federal sites around 
the country who were exposed unknowingly to radiated material.
    The communities have suffered, and these sites are not 
being cleaned up.
    There is no evidence that there is any priority in cleaning 
them up.
    Mr. Herman. The primary priority in the instance you are 
mentioning is with the Energy Department.
    We have been working in various ways with them to try and 
get the clean-up that you want and we want done.
    What I would be glad to do is get together with you and 
your staff and show you exactly what we have done at Paducah, 
what the issues are, and then certainly hear any suggestions 
you have on how we could do our job better.
    Mr. Whitfield. I will take you up on that, because all the 
press--They talk about the $400 million being spent.
    I know that subcontractors are out there supposedly 
responsible for cleaning it up.
    But, ultimately, EPA has the legal authority to oversee 
this and make sure it is done.
    So, I thank you for that offer, and I will be in touch with 
you, and I would look forward to doing that.
    Mr. Herman. I look forward to it, also.
    Mr. Oxley. The gentleman's time has expired. The committee 
will stand in recess for approximately 15 to 20 minutes.
    [Brief recess.]
    Mr. Bilirakis. Let's get started. Mr. Green to inquire.
    Mr. Green. Thank you, Mr. Chairman. I would like to ask 
this question of Mr. Herman, if I could.
    After my opening statement, I will follow up with the 
questions.
    Mr. Chairman, also, if we don't have within our 5 minutes, 
because I understand there is not a second round, if we would 
be able to submit the questions to the panelists for answers or 
written answer in the future, we could request that.
    Mr. Bilirakis. I am just not accustomed to that.
    Mr. Green. If we could if we don't finish our questions we 
have in the 5 minutes, if we could submit questions.
    Mr. Bilirakis. Customarily, we do that, yes.
    Mr. Whitfield. Excuse me just 1 minute. Would the gentleman 
yield for one moment?
    Mr. Green. Briefly.
    Mr. Whitfield. It was my understanding, Mr. Chairman, that 
we were going to have an opportunity for a second round.
    Mr. Bilirakis. I haven't discussed it with Mr. Oxley, but I 
believe that would be a good idea.
    Mr. Whitfield. I know that, walking over there, he said 
that would be fine.
    Mr. Green. Mr. Herman, the Longhorn pipeline I talked about 
earlier is the most thoroughly tested and studied refinery 
product pipeline ever to come into service in the Lower 48.
    Since Longhorn filed for the pipeline conversion in 1997, 
two other previous crude service pipelines are up and running, 
pipelines that were converted from crude to refined products 
without the mitigation measures Longhorn is proposing to 
implement.
    I think you are aware that the environmental assessment was 
supposed to be completed last September and is still not 
completed.
    The original settlement provided a final EA decision would 
be out by September 11 last year.
    It turns out the draft EA was not released until October, 
and the EPA still has not made a final decision.
    Won't you tell me, in my office and our committee, when we 
hope to wrap this up and if we can expect the process to be 
completed?
    Mr. Herman. Congressman Green, I will be glad to address 
that question.
    The environmental assessment, as you know, was done 
pursuant to an agreement after a lawsuit had been filed.
    The court ruled that we had to do an EIS. The process is 
that the environmental assessment is done.
    A finding of no significant impact was put out, and that 
was put out for public comment.
    Mr. Green. Excuse me. The court didn't rule you had to do 
an environmental impact statement.
    Mr. Herman. You're absolutely correct.
    Mr. Green. Because that is what you said, and I wanted to 
make sure the record was correct.
    Mr. Herman. Let me make myself clear. The court didn't say 
that we had to do an environmental impact statement. What the 
law says and what the court says is you do an environmental 
assessment.
    Then, it is determined whether you make a finding of no 
significant impact and you go ahead with the project, or 
whether the environmental assessment and the comments raise 
such questions that you should do an environmental impact 
statement.
    The status that we and the Transportation Department are at 
now is making a determination of whether an EIS is necessary.
    The environmental assessment was put out for comment, and, 
as you know, 6000 comments were received on both sides of the 
question.
    Mr. Green. I attended one of the hearings.
    Mr. Herman. I understood, from Greg Cook, our Regional 
Administrator, saw you and spoke to you at that hearing.
    I know that our staff is working through these. They are 
very sensitive to the issue you raised about the timeframe.
    What I can pledge to you is that they are trying to bring 
this to a conclusion as quickly as possible.
    They want to be sure to do it right, because, as I think we 
all know, there will be litigation.
    It is very important that every ``i'' be dotted and ``t'' 
be crossed, and that they address all of the comments.
    I am aware of the steps that you said that the pipeline has 
taken.
    I am not intimately aware with all the comments and the 
substance of the comments with regard to the objections and 
everything.
    But, I do know that this is a very high priority in the 
region. The Justice Department has been involved, and they are 
working very hard on it.
    Mr. Green. The 6000 comments were based on having attended 
the hearing, particularly one in Austin, Texas, that was 
delayed from December because of the location.
    A lot of those comments were duplicative, and they were 
basically the same concern--the folks who really don't want a 
pipeline that is already there to be used for product instead 
of crude oil. Is that correct?
    Mr. Herman. I am not sure. I do know that, in some cases, 
we do get standard comments, and, you know, we are aware of 
that dynamic.
    Mr. Green. Because of the background on this, I would hope 
and encourage as quick a decision as possible, because it 
probably will be in the courthouse, no matter if you do an EIS, 
because it is not just because of the environmental concerns 
that it is being delayed.
    It is because of competitive refiners in New Mexico 
obviously want to keep a market at El Paso, Texas, and they 
don't want to share it. But, I appreciate your comments today.
    Mr. Herman. I will relate your comments to my colleagues.
    Mr. Bilirakis. The gentleman's time is just about to 
expire. Not quite yet.
    Mr. Green. Mr. Chairman, I have an MTBE question for Mr. 
Perciasepe, but, if we are going to have a second round, I'll 
be glad to yield back my time and wait for my second round.
    Mr. Bilirakis. I appreciate that. Dr. Coburn, time to 
inquire.
    Mr. Coburn. First of all, let me thank the gentleman from 
Florida for allowing me to go out of order.
    Mr. Perciasepe, you testified that you have 7 years of 
proven success.
    That very well may be the case, but I want to tell you, in 
Oklahoma, you don't have 7 years of proven success.
    I want to talk about Tar Creek, and Mr. Fields, I think, is 
aware of that program.
    Before I ask the questions, I want to outline, so that 
everybody knows what's going on, we have an identical project 
in Joplin as to Tar Creek in Ottawa County in Oklahoma.
    You all are the supervising agent running that clean-up 
program.
    It costs twice in Oklahoma what it costs to do the same 
thing in Joplin. There is a criminal investigation going on 
right now.
    We have involved the FBI in it. Now, I understand that the 
Army's Criminal Investigation Division is in it, because you 
are using the Corps to contract.
    My question, actually, probably should go to Mr. Fields, 
unless you would rather take it yourself.
    No. 1, if this is the proven success of the EPA's 
management, why is it that, No. 1, it is behind schedule, No. 
2, it costs twice what it should, and, No. 3, there's a cost-
plus program that bonuses have been paid on even though the 
home sites----
    Most of the people are totally dissatisfied with what the 
EPA has done in the clean-up.
    No. 4 is the fraud that has gone on, which my office has 
notified the EPA of, but they continue to pay the contractor.
    I would like to know how the EPA can justify that they, in 
fact--that is a proven success record in Oklahoma, when in fact 
there is nothing but collusion and proven bribery by now, which 
we have already given to the FBI, in the contractor--and the 
Corps is included in that--and how can you say that this is a 
proven record of success?
    Mr. Fields. Congressman, I would agree with you that we 
have some major problems at Tar Creek.
    The FBI has been involved. The EPA Office of Inspector 
General has been involved.
    Mr. Coburn. Could I interrupt just for a minute? I want to 
tell you how good your Inspector General is.
    They called our office to get the information but never 
came to get it.
    We have documents this high, which your Inspector General 
has never come to get.
    Mr. Fields. I don't know the background.
    Mr. Coburn. There is no background.
    Mr. Fields. They are working with the FBI. They may have 
gotten the information from the FBI.
    There is a joint effort going on with the Inspector 
General, the FBI, and other State investigatory agencies on 
this issue.
    I don't know what the sources of the FBI, IG, is using, but 
we agree there's some major problems there.
    The clean-up is half done. It is going to cost a projected 
$60 million to get that done.
    We think that the Superfund program, overall, has made 
substantial improvement. This is the site that we have problems 
in.
    We want to complete this job. Now we are projecting by 
summer of 2001.
    I agree with you that there are significant issues with the 
Corps of Engineers contractors.
    We are trying to resolve that, and we have--On the average, 
it has taken us now 8 years to get clean-ups done.
    A lot of time and money has been saved, but I agree with 
you that some serious issues have been addressed at Tar Creek.
    Criminal activity, obviously, will be referred to the 
appropriate authorities, and, if there are criminal activities, 
there will be prosecution.
    But, in the meantime, we are trying to work with the Corps 
of Engineers, who is our agent in this case, to get them to get 
their contractors back on board so we can do an effective job 
in getting this Tar Creek clean-up done by next summer.
    Mr. Coburn. I understand you are going to continue to use 
the same contractor that has, No. 1, been paid twice for doing 
half the remediation down there, plus a cost-plus and the 
oversight.
    EPA is primarily responsible for this, is that not correct?
    Mr. Fields. EPA has overall responsibility. The Corps of 
Engineers is carrying it out.
    We have not yet concluded, Congressman, whether or not we 
are going to utilize all the same contractor personnel or firms 
to do the remaining work.
    That issue is being assessed now. We'll have to make some 
judgment as to whether we change contractors and personnel 
involved in the clean-up, because, as you know, we stopped work 
on February 25 of this year because of the FBI and IG 
investigations going on about the criminal activities.
    Mr. Coburn. Let me ask, is not the goal of these clean-ups 
part of the measurement of the success of the contractor, 
whether, in fact, the citizens who have been involved and 
disrupted are satisfied?
    Mr. Fields. I agree. Public satisfaction is a major factor, 
sure.
    Mr. Coburn. As a matter of fact, it is part of this 
contract.
    Mr. Fields. Yes.
    Mr. Coburn. It is written into the contract.
    Mr. Fields. I assure you I know this has not been a good 
experience for any of us on either side--either within the 
government or outside EPA.
    This is an outlier. It is not typical behavior or activity 
at a Superfund site.
    We are as much concerned as you are. We are giving this 
very high-priority attention, both in Washington and in our EPA 
office in Dallas.
    Mr. Coburn. Let me reclaim my time to make sure--Your 
office, the EPA Region 6, was notified by me over 18 months 
ago.
    This was brought to the EPA Administrators in Region 6 
attention that there was a problem here.
    I don't doubt that there are other areas that are doing 
well. I know in Joplin you have done a wonderful job.
    I am not critical of the whole thing. What I am saying is 
what needs to be addressed in this budget is how does this 
happen, that, one, even 18 months later is still going on until 
February 25 when my office has notified you that you have major 
problems.
    At the same time, we notified you that we knew there was 
corruption in the process.
    So, my question then would be--and then I will finish, Mr. 
Chairman--what steps has EPA taken to oversee the contracts 
that they do grant to make sure that their intermediaries, the 
Corps, are actually carrying those out?
    Mr. Bilirakis. A short response and follow it up, maybe, 
with something in writing.
    Mr. Fields. We will follow up in detail, but I assure you 
that when your inquiry was referred to the Region activities 
occurred.
    It is unfortunate that communication was not communicated 
back to you or your staff as to the follow-up activities that 
led to the shutdown on February 25 of this year.
    But, I agree with you there should have been better 
communication, better coordination with you, and follow up to 
the information that you have referred to the Region.
    Mr. Coburn. I would just say that the only reason that the 
shutdown occurred is my office continued to force you to 
address this issue.
    There was no instigation on your part to do what you should 
have been doing.
    Mr. Bilirakis. The gentleman's time has expired. Ms. Capps 
to inquire.
    Ms. Capps. Thank you for holding this hearing, Mr. 
Chairman.
    I have been out of the loop a little while, so I am 
trusting that, if this question has come up, that you'll tell 
me, and then it will save some time.
    But, I represent a district on the California coast, where 
we have some contaminated MTBE sites.
    I am particularly concerned about the remediation and about 
the lack of technology for remediation for MTBE, and the 
ability to deal with what we already have and know about.
    This committee has paid a lot of attention to the Clean Air 
Act, and oxygenate requirements and renewable fuels are all 
important concerns.
    In the meantime, communities like Cambria on the central 
coast of California with contaminated water supplies are 
suffering.
    EPA's Blue Ribbon Panel has recommended that the Agency 
accelerate laboratory and fuel research and pilot projects.
    We in California have asked for an oxygenate waiver, 
because we really do want to get rid of the MTBE.
    I am concerned now with the budget constraints, and the 
increased requirements that we are asking of your Agency in the 
face of a new MTBE, contaminated water supplies.
    How, in the budget, can we hope to find resources for 
addressing the threats from MTBE?
    Mr. Perciasepe. Let me just say something in general and 
then turn it over to my colleagues to be a little more specific 
on some of the clean-up and research issues.
    We had hearings here about the waiver and the need for 
California to reduce the amount of MTBE use.
    We agree with that. We are working with the State to 
process that.
    We also want to work with the committee on legislation that 
will help us all solve the problem.
    But, in our existing budget, we do have some funds to be 
doing some research on remediation.
    I'll let my colleagues, Norine Noonan, from the Office of 
Research and Development, and Tim Fields, from the Emergency 
Response and Solid Waste program, talk about it in terms of 
what is going on now.
    Mr. Fields. I'll just start the remediation part. Norine 
will talk about the research efforts on technology.
    We obviously are very sensitive to the remediation problems 
being caused by MTBE in your State.
    We are working to make sure we get as many oversight 
dollars as we can to the State and to the region to make sure 
that remediation can be done effectively.
    We were assured that all the locations within the State--
that adequate oversight dollars for clean up are being 
provided.
    We are carefully looking at our remediation efforts. We are 
cleaning up 21,000 underground storage-type releases a year.
    We are particularly looking at whether or not the special 
threats being posed by MTBE to make sure that our technology is 
going to adequately remediate MTBE, recognizing, though, that 
additional study of appropriate options needs to be done.
    So, Dr. Noonan can address that.
    Ms. Noonan. Thank you, Tim. Ms. Capps, we are conducting 
research in two areas of remediation.
    One is ground water and soils remediation research, where 
we are including in our studies field evaluations of both 
natural attenuation and bioreactor technology.
    We are also evaluating two very promising technologies. We 
are treating drinking water directly.
    In addition to that, we have formed an interagency work 
group along with the agencies in California to select the field 
site in California for the evaluation of field-ready 
remediation technologies.
    These technologies will be evaluated based on a nationally 
competitive selection.
    The site selection is nearly complete, and we expect to 
announce that at any time.
    So, we are indeed conducting research in a variety of 
technology areas.
    Ms. Capps. I applaud that, but I am concerned that we are 
now asking for the complete removal of MTBE in California.
    I think that is a pretty large request. I am wondering if 
you have been able to attach a dollar amount to what that will 
be.
    Certainly, it is not going to be limited to the State of 
California, I am quite sure.
    Then, again, how does this fit into the overall budget?
    Mr. Perciasepe. I'll try to answer your question in two 
parts.
    One is the cost, perhaps, to gasoline if you do this, and a 
lot of research or analysis on that has been done in California 
on the phasing out of MTBE and the phasing in of replacement 
volume of some kind to replace the volume.
    The cost to the consumer at the gas pump to redoing the way 
we make clean-burning gasoline will vary from one part of the 
country to another part of the country.
    California has their own program, and they have done their 
own changes to it last December at the Air Resources Board.
    I think they have made their own estimates, which my memory 
says is a couple of cents a gallon.
    If they don't have the constraint of the oxygenate 
requirement and have the time to do it on a national level, I 
think we would see that, if you don't create flexibility in how 
you continue to meet the air quality objectives while you are 
phasing out one kind of additive, and you don't have enough 
time to phase in the other one, then the more quickly you try 
to do that the more the potential price impact will be.
    The more time you get to do it the less the impact would 
be.
    So, that is one of the key issues, I think, we have to 
discuss since we are trying to work with Congress to develop 
legislation. What kind of timeframes for these things will 
work?
    On the cost of remediation, again, it is going to be very 
site-specific.
    A lot of the occurrence data we see across the country from 
MTBE is at very low levels from ubiquitous leaking, not 
necessarily an underground storage tank or a major rupture in a 
pipeline.
    But, those sites obviously will need to be remediated, and, 
depending on how long ago the leak occurred, there will be an 
increased cost due to MTBE, because it will move farther than 
the rest of the plume of the gasoline.
    But, if it is caught quickly, the plume will be still 
closer together.
    On the national level, particularly in lakes and rivers 
MTBE will be gone within months, if not days, if you stop 
adding it, as long as it's an aerobic situation.
    Mr. Oxley. The gentlelady's time has expired.
    Ms. Capps. Could I ask for about 30 seconds more? One 
little clean-up exists, and because it is the underground that 
I am concerned of.
    You are saying a 9-percent budget reduction. How are you 
going to address this in the House budget?
    Mr. Fields. Well, we recognize, if the budget is reduced by 
9 percent, it means we'll have to make some choices about 
certain clean-ups not being done.
    That is going to impact. Some few thousand sites will not 
be able to be overseen in terms of the clean-up dollars that 
would be lost because of that kind of budget cut.
    So, we obviously are very concerned about the impact of 
that, not only in your site, but also other sites across the 
country.
    Ms. Capps. So some communities will not be having clean 
water?
    Mr. Fields. There will be a delay for some communities in 
them being able to get remediation of their ground water, 
because we will not be able to get around to some clean-ups 
this year in fiscal year 2001 with that type of budget cut.
    Mr. Oxley [presiding]. The gentlelady's time has expired. 
The gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Chairman. I would like, in my 5 
minutes, to spend really on two items that I referenced in my 
opening statement.
    Mr. Fox, I talked a little bit about a question about this 
new Great Lakes initiative--the $50 million initiative.
    As a Great Lakes member, it is terrific, but no one knows 
really what it is.
    It had, I think, one sentence in the President's budget. 
There weren't a lot of details.
    As I talked to my colleague, Vern Ehlers, who Chairs the 
Great Lakes Task Force, there has been no consultation.
    Tell me what this is going to do? Do you need legislation 
to do this?
    Mr. Fox. We included this provision in our budget to 
provide an additional $50 million for Great Lakes clean-up.
    These dollars will be focused at what we call areas of 
concern, which are places that were highlighted as specifically 
problematic in the Great Lakes agreement that was negotiated 
between the U.S. and Canada.
    The State of Michigan, in fact, there's close to a dozen, I 
think, areas of concern within the State of Michigan.
    Mr. Upton. The Kalamazoo River, I think, is one.
    Mr. Fox. One of them. These moneys would be directed to 
State and local governments to support clean-up activities in 
these areas.
    The way we have envisioned this program is these funds 
would be available to both State and local governments.
    We would request that the Appropriations Committee include 
sufficient language so that we can make these grants to both 
those entities.
    Mr. Upton. Do you need authorization language to do this or 
not?
    Mr. Fox. Currently, we have ample authorizations to give 
the moneys to the States.
    There's been a lot of good work being done there. If we 
want to be able to give money to local governments, advice of 
counsel suggests that the specific authorization in that regard 
would be helpful.
    Mr. Upton. I know Mr. Ehlers and other members of the 
Michigan delegation on a bipartisan basis would be most willing 
to listen and see what we can do to try and be helpful to clean 
up those waters.
    Mr. Perciasepe, as I understand--I want to go back to this 
1-hour rule, which I know we have communicated about in 
writing.
    It doesn't make a lot of sense to me in terms of what 
happens.
    We have a number of counties in Michigan. Then we moved to 
an 8-hour standard. That was something, I know, that EPA and a 
number of us were very supportive of.
    Now, you have been forced to go back to 1 hour, which, as I 
understand it, is not your doing.
    But, as I look at these counties, if--A number of years ago 
they were out of compliance but now, in fact, they do meet the 
1-hour standard, because, in previous years, they're out of 
compliance, that is where you are putting them.
    As we look at those counties, who a number of years ago in 
the past did meet the 1-hour standard but now don't meet it, 
they are okay.
    I mean, for us in Michigan, particularly western Michigan 
where our air quality is really determined based on what comes 
across the lakes--transient air, whether it be Chicago, 
Milwaukee, or Gary--we know of counties in our State that you 
can literally take--and I am talking about this with the 
Administrator--take every human activity out of there--no 
roads, no businesses, no people, no charcoal fires--and they 
can't meet the standard until Gary and Chicago and Milwaukee 
do.
    Going back to the basic question, the logic of designating 
the counties that, today, can meet the 1 hour but in the past 
didn't, and now you have non-attainment, doesn't seem very 
fair.
    Mr. Perciasepe. Let me try to go through what we are going 
to hopefully be able to do.
    Mr. Upton. Particularly knowing what the penalties and 
ramifications are as businesses look to expand. That is 
something else.
    Mr. Perciasepe. Exactly. I know you have talked to the 
Administrator, and I have spent some time with members from the 
central part of the State, as well.
    When we promulgated the new 8-hour standard before the 
court remanded it to the agency, in what we viewed as a good 
government approach, we got rid of the old 1 hour standard in 
areas that met it. That way they could focus on with what they 
might have to do to meet the new standard.
    So, we went through a process, and we revoked the 1-hour 
standard in thousands of counties around the country.
    Under the normal process those counties would have done a 
maintenance plan.
    In your case, it may have been largely a transport plan 
that we are working on with Wisconsin or Illinois.
    Mr. Upton. And it was of great help in those other States, 
too.
    Mr. Perciasepe. And, then, as they attained the standard 
and submitted maintenance plans, we would have redesignated 
them as attainment.
    The counties, I think, in question, in most of that part of 
Michigan, are in attainment.
    Mr. Upton. That's right.
    Mr. Perciasepe. To my knowledge, they are achieving the 1-
hour standard, but they never went through that redesignation 
process in the past.
    So, if we put the 1-hour standard back in those counties 
because there is no standard now, the residual effect would be 
that they would then assume the designation they had in the 
past.
    What could happen would be the things that you outlined in 
your question.
    What we are trying to do--and this has been precipitated in 
part by the inquiries from the delegation--we are setting up 
some more meetings with the delegation to talk about it. We are 
trying to see if there is a way to work that process so that we 
can resolve those issues before anything happens in terms of 
any new requirements.
    We've got some ideas that we'll want to talk to the 
delegation about.
    But, we understand the issue.
    We agree that we need to try to deal with the issue, and we 
have some ideas on how to do so.
    Mr. Upton. I appreciate your willingness. My 5 minutes--The 
clock is still moving pretty fast.
    I thought I would catch my 7 o'clock plane tonight, as 
well.
    Mr. Oxley. Could the gentleman wrap up?
    Mr. Upton. The clock is a little fast. Maybe we can get 
together in the next couple of weeks and not take the full 
subcommittee's time. I would appreciate that and look forward--
--
    Mr. Perciasepe. We are definitely looking into ways to deal 
with that issue.
    Mr. Upton. I yield back the balance of my hour.
    Mr. Oxley. Very good. Very effective, too. The gentleman 
from Florida, Mr. Deutsch.
    Mr. Deutsch. Thank you, Mr. Chairman. I want to refocus the 
hearing a little bit on the hearing topic, budget requests, and 
really follow up on Mr. Stupak's question, which I think is, in 
some ways--should be the central question that we are asking 
about.
    There are some members of the panel who did not have the 
opportunity to respond to Mr. Stupak's question about the 
impact of the Republican budget on EPA's programs.
    If we could discuss the impacts on the pesticide program, 
the Office of Research and Development and the Air Program----
    Ms. Wayland. I would be happy to start, using Mr. Ryan's 
caveat that, of course, the Administrator would ultimately make 
any final decision on any budget cuts.
    Let me just mention a few of the programs in my area of 
responsibility that I would be especially worried about.
    One is the Food Quality Protection Act that has been 
mentioned by several.
    Mr. Deutsch. Can I just interject for a second? Basically, 
we are talking about a 9-percent reduction.
    So, assuming you had to reduce 9 percent, what would that 
mean? I think that is really the question.
    Ms. Wayland. The areas I would be concerned about that 
could be affected by a 9-percent reduction would be the Food 
Quality Protection Act, where we have a statutory obligation to 
review some 9700 tolerances to ensure that they meet the new 
statutory standard to protect the health of consumers, and 
especially children.
    I would be very concerned that we would not be able to meet 
our statutory deadlines under a 9- or 10-percent cut.
    Let me mention also endocrine disruptors, which has been 
mentioned by Mr. Brown this morning.
    This is a brand-new program we are trying to get off the 
ground, and I would be very concerned about additional delays 
that might occur in that program if we were to take a 9- to 10-
percent cut there.
    And, new pesticides--It was mentioned this morning by Mr. 
Bryant, before he left, that he was very concerned about the 
pace of bringing new products on the market.
    I think that we share his concern, and we would be most 
concerned if, in fact, we had to take a 9- or 10-percent cut 
that would prevent us from keeping up with the pace of new 
products coming on the market that are actually safer for 
American farmers and safer for consumers.
    With that, I will let Mr. Perciasepe speak.
    Mr. Perciasepe. I think the programs that would be most 
under concern in my area would be State grants.
    We have about $215 million in State grants. That's only 
about a third of the $680 million that Mike mentioned earlier.
    Also, we are asking for an increase in doing the MACT 
standards, that I know is of concern to the committee, of 
around $6 million.
    That's around a 30 percent increase in the 2001 budget. 
That would probably be a difficult thing to pull off with that 
kind of reduction.
    Those are the things I would mention. Those are in the air 
toxics standards.
    Ms. Noonan. For the Office of Research and Development, a 
9-percent cut amounts to about $48 million of total funding for 
R&D requested for 2001.
    Let me just give you one example in the area of drinking 
water research, an area that this committee has been 
particularly concerned about.
    Drinking water research comprises almost 10 percent of my 
total budget now.
    A 9-percent cut to that budget would really walk us back 
significantly in our ability to support research on the 
contaminants that this committee has been concerned about with 
regard to the Contaminant Candidate List, as well as severely 
limiting our ability to identify and characterize pathogens 
that may pose increased risk of infection and disease, 
particularly to susceptible sub-populations like children.
    It would also inhibit our work severely in water-borne 
infectious diseases.
    As this committee knows, the outbreak of cryptosporidium in 
Milwaukee was responsible for the deaths of approximately 100 
people. Since 1991, the percent of outbreaks attributable to 
cryptosporidium has doubled, which means we must advance in 
both detection methods and research to understand how to 
mitigate pathogens in drinking water.
    A 9-percent cut would walk us back significantly from that.
    Mr. Herman. Mr. Deutsch, if I just might address some of 
the problems this would cause in the Office of Enforcement and 
Compliance.
    It depends again on how Congress did it, but the ultimate 
effect would be that the environmental cop would be taken off 
the beat.
    There would be few inspections, fewer criminal 
investigations, and, overall, less enforcement.
    There would also be less compliance assistance for small 
business.
    A 9- or 10-percent cut across the board for inspections 
would mean 1300 fewer inspections, 50 fewer criminal 
investigations, and we have had some very significant ones in 
your State, I know.
    It would mean more than 60 million pounds of pollutants 
still being released into the air that could have been stopped.
    Further, if the language--the Congressional language--
contains the same strictures--the same restrictions on our 
ability to move money within our office--it totally undoes our 
effort to be able to address certain tools at certain kinds of 
problems and certain kinds of problems.
    Mr. Oxley. The gentleman's time is expired.
    Mr. Deutsch. Mr. Chairman, if I might, just in closing, I 
would hope--Now, I have now offered my colleagues on the other 
side of the aisle the opportunity to defend those budget 
proposals.
    Mr. Oxley. We have seen the well-orchestrated 9-percent 
cut.
    The question is 9 percent from what? We'll be getting into 
that shortly. The gentleman from California.
    Mr. Bilbray. Thank you. Editorial comments. Those of us in 
California are very interested in EPA's history of looking at 
food supplements and health food, which was a very touchy 
subject, as you know, for those of us on the West Coast.
    Do anything, but don't take our granola from us.
    Bob, I would like to ask specifically, I have looked at the 
joint announcement of the EPA and USDA last week.
    After that, I reread the Blue Ribbon Report from EPA, which 
you know I very strongly support, and which the Lung 
Association supports.
    What I found in that report was a recommendation of a 
reduction of MTBE use, maintaining air quality benefits and 
removing the 2 percent oxygen requirement.
    However, I couldn't find in this report any suggestion that 
reflected your announcement last week, that a new requirement 
for renewable fuels should be established.
    Is that requirement in this report at all?
    Mr. Perciasepe. Could I turn your attention to page six in 
the Executive Summary Recommendations where it talks about 
removing the oxygenate requirement.
    It doesn't get specific about that, but it says that the 
panel recognizes that Congress, when adopting the oxygenate 
requirement, sought to advance several national policy goals, 
energy security and diversity, agricultural policy, et cetera, 
that are beyond the scope of our deliberations.
    The panel recognized that, if Congress acts on the 
recommendation to remove the requirement, Congress will likely 
seek other legislative mechanisms to fulfill these other 
national policy interests.
    What we did is we tried to interpret a suggestion to you in 
principle on how we might do that.
    You are correct, although the panel did not make a specific 
recommendation on how to achieve those other objectives.
    Mr. Bilbray. And they did not recommend--Let me just say 
this.
    If the EPA was writing down priorities, would the 
priorities be economic, fuel independence, and then, third, 
public health clean air? Would that be the priorities of the 
EPA?
    Mr. Perciasepe. EPA's priorities would be public health.
    Mr. Bilbray. The priorities that were articulated in the 
press release were economic, fuel independence, and then public 
health was third.
    So, this obviously didn't reflect EPA's priority list. It 
was somebody else's priority list.
    Mr. Perciasepe. I'm not following. What report?
    Mr. Bilbray. The announcement that was just made by the EPA 
and USDA, just released last week--the joint press release by 
the----
    Mr. Perciasepe. Okay, last week.
    Mr. Bilbray. When I read it, I said this cannot be the 
priority of the EPA.
    It must be of somebody who is looking at other priorities 
rather than public health as the primary----
    Mr. Perciasepe. All the priorities that we would identify 
as being central to the public health issues that you and I 
have spent time discussing in this room are in those principles 
that were announced last week.
    As you have already pointed out, they are derived 
significantly from the Blue Ribbon Panel Report.
    What we tried to present last week was a broader 
administration view that takes into account these other issues, 
like energy security and agricultural policy, and tried to give 
us an idea.
    It is only one of the ideas in there of how you would deal 
with that.
    Mr. Bilbray. So you're saying that it is the 
administration's position, not necessarily EPA's, but the 
administration's, that the farm economy, the energy 
independence, takes 1 and 2, and that health is No. 3 in the 
list from the administration's point of view, but not EPA's?
    Mr. Perciasepe. The first thing on the list is give us the 
authority to remove MTBE. That is the first thing on the list.
    Mr. Bilbray. The three priorities in the press release--and 
I'd ask you to look at it--was the economic impact, fuel 
independence, and then, and only then, the public health side 
of it.
    I just thought that, if EPA signs off on this letter, they 
need to take a look at the fact that is this USDA strategy that 
got priority over EPA, because it didn't reflect the EPA that I 
have worked with for 25 years.
    Mr. Perciasepe. We identified--and I don't know what order 
it was in the press release--but in the piece of paper that 
lays out the principles, the first principle is give us the 
authority to remove MTBE.
    We do say that, in order to have a package to achieve all 
the goals that Congress had in 1990 and to address the issues 
that the Blue Ribbon Panel highlighted, although they didn't 
make a specific recommendation on it, all of those things need 
to be done together.
    Mr. Bilbray. Now, we all agree that mandates in the past 
have been pushed through, meaning well, but without the 
research to be able to back it up, and which is now causing 
problems that we did not perceive.
    Now, Administrator Browner, on March 20, 2000, stated that 
she was calling on Congress to take the unprecedented step to 
start providing content levels for ethanol and other bio-fuels 
in gasoline.
    Does the EPA, in fact, know through extensive research that 
ethanol is, ``safe?''
    Mr. Perciasepe. Let me say that ethanol has been one of the 
most studied alcohols around.
    EPA would admit that anything that is designed to explode 
in a car is going to have byproducts of combustion.
    Whether you put MTBE in or alcohol, or benzene or toluene, 
or whatever you put in, there will be something that comes out 
of the tailpipe.
    California's own analysis of this and I'll read directly 
from the summary and conclusions of the Department of 
Environment's report on ethanol and other substitutes.
    I can certainly provide this for the record, but I would 
like to say here on the record that there are no substantial 
differences in the public health impacts of different non-MTBE 
fuel formulations, which include several different ethanol 
formulations considered in the scenarios for the year 2003 for 
the State of California.
    Then, it goes on to talk about the water risk from MTBE.
    So, comparing MTBE and non-MTBE health effects in terms of 
the air emissions----
    Mr. Bilbray. That's not what I am saying. We're not talking 
MTBE here.
    We're talking about EPA is now proposing to replace one old 
mandate with a new mandate, and then says it is safe.
    I am saying where is the data to prove, in every 
application that you are going to be mandating, that ethanol is 
safe and is the safest fuel, safest formula to use in that 
application?
    Mr. Oxley. The gentleman's time has expired. The gentleman 
may respond.
    Mr. Bilbray. I ask for unanimous consent for an additional 
minute, Mr. Chairman.
    Mr. Oxley. We'll have the gentleman respond and then move 
on. Do you have a response?
    Mr. Perciasepe. In addition to the State of California 
making that finding that I just----
    Mr. Bilbray. They were making a finding of one application, 
and that is comparing it to another product.
    Mr. Perciasepe. Ethanol.
    Mr. Bilbray. But that is an application pertaining to 
water, and other applications.
    Do you agree there have been court cases and findings--and 
California has gone to court, and they've won in court over the 
application of ethanol--different situations that were not 
considered appropriate for public health? The courts 
adjudicated that.
    I am just saying where is our data to say that a new 
mandate will be safe, and be safe in the implementation?
    Mr. Perciasepe. The other studies done by the Health 
Effects Institute and the State of California, as I mentioned--
--
    There's a wide range of literature on the health effects of 
ethanol.
    The thing that I think would be of more concern to us is 
the byproducts of combustion of ethanol, things like 
acetaldehydes, and things like that, that come out of the 
tailpipe.
    The question, then, is when you put ethanol in and it 
reduces the other toxics, which it does, what is the net 
effect?
    Are the emissions from gasoline still able to meet the air 
quality standards that we are suggesting we maintain?
    The other important thing that we are suggesting is that we 
start with where we are and move slowly into the future on 
growth in the use of renewable fuels.
    There is a lot of research and you also have to look at the 
net effect on the emissions.
    Mr. Oxley. The gentleman's time is expired.
    Mr. Bilbray. The Blue Ribbon Committee said that that 
mandate to the State of California was obstructing the clean 
fuel strategy rather than aiding it.
    We still want to make sure that our clean air strategies 
are based on the health, not economic stimulus.
    Mr. Oxley. The gentleman's time has expired. The gentleman 
from Kentucky, Mr. Whitfield.
    Mr. Whitfield. Mr. Chairman, thank you very much. Mr. 
Fields, prior to your coming in, I had a discussion with Mr. 
Shapiro about the gaseous diffusion plant at Paducah, which is 
a Superfund site.
    I would just like to emphasize to you the point that Mr. 
Coburn made.
    I think that there must be some problems where EPA is 
overseeing the clean-up of Superfund sites for which the 
Federal Government is responsible for that.
    We have had the FBI come in and take files out of there, as 
well.
    We have the Washington Post writing about the Paducah plant 
ten times in the last 6 months on the front page.
    We have spent $400 million down there, and there is still 
little evidence of any clean-up, with aquifers being 
contaminated, and so forth.
    I would urge you to review that. Mr. Herman was kind enough 
to offer to meet with us to discuss this in more detail, which 
I would like to do.
    I would ask you is EPA legally prohibited from spending its 
appropriated funds to help in the clean-up of a Federal 
Superfund site?
    Mr. Fields. We can't spend Superfund dollars, but we always 
seek restoration through subsequent-year appropriations if we 
find an emergency situation.
    We have done that on occasion where we have done clean-ups 
on park-land property.
    We have spent several millions of dollars, and then we have 
gone to the Department of Interior to get reimbursement.
    I do want to say, on Paducah, the current plan this year, 
DoE has a $50 million budget.
    Secretary Richardson has requested more than $100 million 
for Paducah in fiscal year 2000.
    I agree with you. I don't want to leave us at the previous 
discussion on this, but we recognize Paducah is a major 
problem.
    The DoE recognizes that, and they realize the need to put 
much more money into clean-up.
    We on the EPA side obviously would prefer that the Federal 
agency get the appropriate appropriation for clean-up out of 
their own budgets. We would then obviously provide oversight.
    Mr. Whitfield. I know you would prefer that, but can you 
spend the money?
    Mr. Fields. Yes, sir, we can do that.
    Mr. Whitfield. Is it essential that you be reimbursed by 
the agency?
    Mr. Fields. It is critical for us right now. The Superfund 
budget in fiscal year 2000, as you know, got cut by $100 
million.
    The more money we spend on Federal activity, that is less 
for the private sector. We obviously want DoE, DoD, to get good 
dollars.
    Mr. Whitfield. Let me ask you, are you spending money from 
the Superfund account on Brownfields projects?
    Mr. Fields. Yes, sir, we are.
    Mr. Whitfield. Are Brownfields projects defined as a 
Superfund NPL site?
    Mr. Fields. No, we spend Superfund dollars on things that 
are not NPL sites.
    Mr. Whitfield. Here is my point. We have on record around 
the country at Federal sites employees of the Federal 
Government and subcontractors who are coming down with serious 
illnesses, cancer, and so forth.
    We have aquifers being polluted, yet your Agency is 
spending money for non-Superfund site clean-ups when you have 
these Federal sites around the country.
    You are talking about $109 million for fiscal year 2001, 
which I applaud Mr. Richardson for. I was there when he made 
the announcement.
    But, we spent $400 million down there, and you still cannot 
tell that anything has been done.
    Mr. Fields. I acknowledge there are major problems at 
Paducah, but keep in mind the overall clean-up budget for the 
Federal Government is roughly $12 billion.
    Mr. Whitfield. Do you think that your Agency should be 
spending money on Brownfield sites, which are not the danger to 
the public that these Superfund sites are?
    Mr. Fields. We think we have made an appropriate judgment 
about how much we should spend.
    States and local governments have come to us for requests. 
We spend roughly 5 percent of the Superfund budget on 
Brownfields each year.
    We think that is an appropriate investment for the 450,000 
Brownfield sites that States need to clean up under their 
voluntary clean-up program as compared to the 95 percent of the 
Superfund budget that goes to our NPL sites.
    Mr. Whitfield. You and I disagree on that, because I can 
just tell my community that, despite the contamination 
concerns, despite the contamination of the aquifers, that still 
that's not that big of a priority at this point in time.
    Mr. Fields. Congressman, just one interjection. We have 300 
people in EPA who are working actively overseeing Federal 
facility clean-ups like Paducah paid for out of the Superfund 
budget.
    So, there are people who are actively working on facilities 
across the country overseeing clean-ups being done by DoE and 
others.
    We think that is the appropriate role for EPA in Federal 
facilities.
    Mr. Whitfield. When we have our meeting with Mr. Herman, I 
don't know how you are organized at the EPA, but would it be 
appropriate----
    Mr. Fields. I'll be happy to join Mr. Herman.
    Mr. Whitfield. Thank you. One other question. There is a 
lot of methamphetamine labs around the country.
    Every time law enforcement officers find one, it has to be 
cleaned up. It is my understanding that EPA has funds available 
in the local government reimbursement program to assist local 
police departments with clean-up of those sites. Is that 
correct?
    Mr. Fields. That is correct, Congressman.
    Mr. Whitfield. Do you know how much money is in that fund?
    Mr. Fields. I was told it is 2 percent of whatever our 
Superfund budget is. It is 2 percent of $1.4 billion this year 
that would be available under that local government 
reimbursement fund.
    Mr. Whitfield. Whose office would that come under?
    Mr. Fields. That is under my office. My Office Director is 
here with me on that program, yes.
    We run that Superfund program that administers the local 
government reimbursement program.
    Mr. Whitfield. The EPA has been having a lot of meetings 
with States and environmental groups and the industry to find 
some common ground and resolve issues as it relates to the New 
Source Review regulations.
    It is my understanding that some real progress has been 
made there.
    Yet, we keep hearing that the EPA may walk away from those 
discussions and simply end them. Where are you all on that?
    Mr. Perciasepe. We continue to have discussions with many 
different stakeholders about enhancements of the New Source 
Review program.
    Several months ago, what would commonly be called the 
complex manufacturing group--these are a variety of different 
industry groups--came and said they wanted to get into some 
more detail on this.
    We have had about four meetings with them.
    We have not stopped. We have stopped having those meetings 
while we assess where we are, and I am probably going to spend 
some personal time doing a little motivational activity trying 
to get people to start to see some common ground, but we are 
not going to suspend them at this time, no.
    Mr. Whitfield. Thank you, Mr. Chairman.
    Mr. Oxley. The gentleman's time has expired. The Chair will 
recognize himself for just some brief questions.
    There has been a lot of talk about a 9-percent cut. Mr. 
Perciasepe, the 9-percent figure that was a cut was from the 
President's request, is that correct?
    Mr. Ryan. It would obviously be against the next budget 
would be the President's request.
    Mr. Oxley. So would this alleged 9-percent cut from the 
President's request----
    Mr. Ryan. The way I understand OMB calculates it for this 
purpose was from the current budget to get the number that we 
talked about.
    Mr. Oxley. The staff informs me that the Function 300 in 
the budget basically gave, in the natural resources and 
environment area in Function 300, a $200 million increase from 
a freeze level, and that that was in the budget.
    Ultimately, it is up to the appropriators, of course, to 
determine how that is determined, is that correct?
    Mr. Ryan. That's correct, yes, sir.
    Mr. Oxley. Let me now turn to some questions for Mr. 
Fields. Welcome back, Tim.
    Mr. Fields. Good to be here, sir.
    Mr. Oxley. For the umpteenth time, I guess, I have a 
question about fly ash.
    After 19 years of study, an EPA report to Congress 
concluded that regulation of fossil fuel combustion waste 
should generally remain exempt from Federal hazardous waste 
regulation.
    In briefings earlier this year, EPA's professional staff 
appeared to voice a similar conclusion, yet we now hear reports 
about an 11th-hour reversal of that position, among others.
    There is concern from the Governor of Ohio, Bob Taft, who 
has sent me this letter dated March 30.
    He has some concerns, ``EPA's move to regulate coal 
combustion waste under Subtitle C of RCRA undermines the 
extensive efforts of States, Ohio in particular, to increase 
the beneficial reuse of these materials.''
    In other words, recycling, which I presume we all want to 
encourage.
    My question is can 19 years of study and the recommendation 
of the Agency's technical staff and the existence of strong 
State regulatory programs simply be ignored?
    Mr. Fields. We are not going to ignore any information on 
this issue.
    I want to make clear we have not made a determination. That 
issue is still being discussed within the administration.
    I want to make clear up front--make very clear--that, even 
if we made a regulatory determination that some portion of coal 
ash were to be regulated as a hazardous waste, nothing would 
change.
    We would have to go through a subsequent rulemaking 
process, which would take several years before anything would 
change.
    But, also keep in mind that, when we issued the March, 1999 
tentative conclusion in the report to Congress, we indicated 
that that was open for comment.
    Subsequent to March, 1999, we have gotten many comments 
from a lot of people about this issue.
    We are reviewing a lot of the information about what is 
going on out there in practice.
    Several things have changed over the last 12 months. We 
have found, for example, that 43 percent of the industry has 
not lined their waste disposal landfills that serves 
impoundments.
    We received comments which provided additional information 
on damage cases that have been caused by coal ash operations.
    Also keep in mind that the March, 1999 report to Congress 
made it clear that that tentative conclusion not to regulate 
any coal ash did not apply to mine filling.
    We have subsequently found, in looking at mine filling 
operations, that there is inadequate ground water monitoring in 
many cases where the mine fill operations are occurring, and 
that that is having impacts where ground water contamination 
has been documented, et cetera.
    When the initial report to Congress went up in March, 1999, 
it was a very close call.
    It was not a slam-dunk by any imagination. We made clear 
that we wanted to open this up for comment, receive input from 
a variety of sources, and we are doing that.
    We are looking at all the information, that some States 
have very good programs, and we are looking at those good 
practices as we make those decisions about what should be our 
regulatory determination as to whether some part of coal ash 
ought to be regulated under Subtitle C.
    Even if we made such a determination, it is likely that 
those beneficial reuses for concrete and roadbeds and others--
--
    Those would continue to not be considered a hazardous 
waste, even if we concluded that some portion of this 
industry's waste should be regulated as a hazardous waste.
    But, Mr. Chairman, let me make clear. A decision has not 
been made.
    We are having discussions right now within the 
administration with a lot of different agencies--the Department 
of Energy, the Department of Interior, and others--about this 
issue as we speak.
    We will weigh all the information, all the many comments we 
received since March, 1999, as well as our own independent 
analyses we have done of State programs, in making an 
appropriate regulatory determination.
    Mr. Oxley. Thank you. My time has expired. Let me recognize 
the gentleman from Florida.
    Mr. Deutsch. Thank you, Mr. Chairman. Before I ask 
questions, I have a statement by Mr. Towns and Ms. Capps, who 
will submit those into the record.
    Mr. Oxley. Without objection.
    [The prepared statement of Hon. Edolphus Towns follows:]
Prepared Statement of Hon. Edolphus Towns, a Representative in Congress 
                       from the State of New York
    Mr. Chairman, I welcome our witnesses today to discuss the 
Environmental Protection Agency's (EPA) budget for the important 
environmental protection programs which they administer. I strongly 
support this Committee's oversight responsibilities, and welcome 
hearings such as this, but I am afraid that this hearing may be just a 
little too late in the process. I would have preferred a hearing such 
on these issues earlier in this session of Congress.
    The President's budget was submitted on February 7, 2000. The House 
of Representatives passed its budget and the EPA appropriations 
hearings concluded yesterday. It is my understanding that the 
Republican budget passed by the House of Representatives two weeks ago 
would require significant cuts in domestic discretionary spending. 
According to the Director of the Office of Management and Budget, ``the 
resolution would cut next year's budget for most non-defense programs 
by an average of nine percent.'' I am concerned that this could have 
serious impacts on the EPA's environmental protection programs, and I 
ask unanimous consent that Mr. Lew's letter of March 23, 2000, be 
inserted in the record at the appropriate place.
    I'm concerned about the impact the Republican budget may have on 
programs I strongly support like the Brownfields program. This program 
is needed to cleanup areas in urban communities such as the one I 
represent in Brooklyn, NY and return them to viable uses. H.R. 1750, a 
bill I introduced which has over one hundred cosponsors, is an effort 
to ensure that the Brownfields program remains intact and continues to 
cleanup urban communities such as the ones in Brooklyn.
    Finally, Mr. Chairman I am pleased that the President's budget 
funds this important program at $92 million. This program is extremely 
helpful and one that I strongly support. I urge all members to resist 
efforts to cut EPA's budget and restrict important environmental 
protection programs. I would like to additionally urge all members to 
resist efforts, as have been seen in past years, to cut Brownfields 
funding or place restrictions on revolving loan program grants.
    Thank you, Mr. Chairman.

    [The prepared statement of Hon. Lois Capps follows:]
  Prepared Statement of Hon. Lois Capps, a Representative in Congress 
                      from the State of California
    Thank you, Mr. Chairman, for holding today's hearing on EPA's 
proposed budget for Fiscal Year 2001. I would also like to thank our 
witnesses for coming today. I appreciate all the work you do to protect 
public health and the environment, and realize it is no easy task.
    I am particularly concerned that under the Republican's proposed 
across the board budget cut of nine percent, EPA will unable to fulfill 
its mandate to protect public health and the environment. For example, 
the Underground Storage Tank Program will be cut at a time that EPA has 
requested more funding, and at a time when funding is needed to address 
compliance with storage tank regulations. This is particularly 
important to help prevent additional contamination to our nation's 
water supplies from MTBE.
    I applaud EPA's recently stated commitment to phase out MTBE, and 
hope the Agency will move expeditiously on California's request for a 
waiver from the oxygenate requirement. However, in light of the recent 
U.S. Geological Survey finding that as many as 9,000 wells in 31 states 
across the nation may be contaminated from MTBE, I would like to know 
if there are any specific plans in the works by EPA to help communities 
remediate contaminated water supplies affected by MTBE leaking into 
groundwater. I hope the Agency will commit time and funding to combat 
this problem. EPA's own Blue Ribbon Panel recommended the acceleration 
of laboratory and field research, and pilot projects, for the 
development and implementation of cost-effective water supply treatment 
and remediation technology. Where in the budget can we find money to 
implement these programs?
    Another area of particular interest to me is implementation of the 
Food Quality Protection Act (FQPA). Additional research funding is 
critical to ensure that our farmers are given the necessary tools they 
need to protect their crops and supply our nation with the food it 
needs at this critical phase when pesticide tolerances are being 
reassessed.
    I realize that EPA has a large responsibility to protect public 
health and the environment. I look forward to working with my 
colleagues to support the important work of your Agency.

    Mr. Deutsch. Also, I have a letter from the Director of the 
President's Office of Management and Budget regarding how that 
9-percent cutback number came, which I think clarifies the 
comments that were made.
    Mr. Bilirakis. I guess I'll reserve on that until we take a 
look at the letter. We haven't seen it. I don't know that 
there'd be any problem on it.
    Mr. Deutsch. Let me take this last round of questions and 
kind of move to a local issue that I know, Mr. Fox, you have 
been very involved in.
    The EPA comments regarding Homestead Air Force Base, if you 
can elaborate what EPA's position is regarding the Air Force 
determination for the use of that base, I think that would be 
very helpful.
    Mr. Fox. As you know, south Florida has a very unique, 
sensitive environmental ecosystem.
    The Air Force Base happens to be located between two 
national parks, the Key Biscayne National Park and the Florida 
Everglades National Park, so that any proposal for 
redevelopment of that Air Force Base is something that we take 
very seriously and presents the potential to have significant 
environmental issues.
    The Federal Aviation Administration and the Air Force have 
gone through a process of developing a proposed redevelopment 
project for Homestead that includes the idea that it would 
become a regional commercial airport.
    EPA submitted formal comments on this environmental impact 
statement this month.
    Our comments raised, I think it is fair to describe it, 
serious objections with the proposal as it was laid out.
    Potential noise issues, water quality issues among others, 
traffic congestion, indirect impacts with growth and 
development are among the issues that we have raised formally 
in our comments.
    We have suggested that alternative proposals would be much 
more mixed-use development that wouldn't be focused on a 
commercial airport and might be more appropriate development 
for that site.
    I'd be happy to provide the committee with more specific 
detailed comments on this if you'd like to have them for the 
record.
    Mr. Deutsch. Let me just probe a little bit. Now that EPA 
has made its comments, what legal authority do you have to 
prevent those types of uses that you view as detrimental based 
on your statutory authority?
    Mr. Fox. That will be dependent on different aspects of the 
development project and where different regulatory 
opportunities arise throughout the course of this development.
    Typically, development projects need clean air permitting, 
clean water permitting, and at some level we would ultimately 
have some authority there.
    But, at this point, our goal is really to work with a very 
complex mix of Federal and State interests to try to find a 
solution that will ultimately serve the people of south Florida 
and the environment for years to come.
    Mr. Deutsch. Could you also elaborate a little bit, as 
well.
    Is there a formalized mechanism, because, at this point, 
obviously there are a number of different Federal agencies 
involved?
    I know Secretary Babbitt has also spoken out directly on 
this. I know that Secretary Daley has an impact through the 
Commerce Department.
    I think the Secretary of Defense, Secretary Cohen, has a 
direct involvement, as well.
    Is there a formalized mechanism where people are talking to 
each other in terms of what ultimately will be an 
administrative position regarding this?
    Mr. Fox. My understanding is the answer to that is yes, it 
comes through structures that were developed through the Base 
Closure Act by Congress.
    It is a local authority that I think, in this case, is run 
by Miami-Dade County. That is the forum in which these 
discussions are ongoing.
    Mr. Deutsch. But, from the administration side, is there a 
formalized mechanism that is going on right now?
    Mr. Fields. Yes. As Mr. Fox said, the base closure 
process----
    We have a base realignment and closure team that is 
composed of State officials, EPA officials, and DoD officials.
    We happen to be involved in property transfer. It has to be 
approved by EPA.
    So, in terms of the appropriate reuse options at Homestead, 
we have to be signatories that the appropriate transfer of 
property for whatever use is going to be environmentally 
protected.
    So, that is one mechanism, at least, under the base closure 
program.
    Mr. Deutsch. Let me follow up just a little bit on what you 
just said.
    You have outlined, and I have correspondence through--it is 
under your signature, but it is to Albert Lowas of the Air 
Force Base Conversion Agency.
    You have elaborated now in testimony some serious specific 
concerns that you have.
    Again, I am not an expert in the BRAC process. Are you 
saying that EPA has to formally approve the specific 
disposition?
    Mr. Fields. Through that BRAC program, we have to be a 
signatory to the appropriate property transfer to assure that 
the environment is going to be protected. That is part of the 
role we play there.
    Mr. Deutsch. Let me ask you, under the present proposals, 
what you seem to be saying is that those don't meet your 
concerns.
    Mr. Fields. I'll let Mr. Fox answer that.
    Mr. Fox. That is correct, but, again, I think our goal here 
is to work with all the interests to see if we can find a 
solution that will meet both the economic and environmental 
goals for the area.
    Mr. Deutsch. Right, but, again, I just want to be really 
clear, though, in your answer to that statement, what I have 
heard you say--and I don't want to put words in your mouth--you 
can repeat them, maybe, more directly--the present proposal, 
which is really--which the county has selected as its option, 
that specific proposal does not meet standards where you feel 
EPA would sign what is a legal requirement to transfer that 
property to Dade County for that use?
    Mr. Fox. What we have said is that the preferred option----
    Mr. Deutsch. I understand that.
    Mr. Fox. [continuing] raises significant environmental 
objections, and we have articulated those at this time.
    I think it raises very much, as you suggest, the question 
as to whether or not we would ultimately find that we would 
disapprove that.
    Mr. Bilirakis. The gentleman's time has expired.
    Mr. Deutsch. The gentleman hasn't really answered the 
questions.
    Mr. Bilirakis. As long as we get to it quickly here.
    Mr. Deutsch. You're not going to say what you don't want to 
say, but, I mean, it is almost like a yes or no question is a 
lot easier.
    If you can give me a yes or no answer, I'd appreciate it.
    Based on that specific project, which is a project that you 
evaluated, I don't think there is any question that the Collier 
option is a more environmentally sensitive option in weighing 
it.
    But, I guess I am really trying to pin you down, 
truthfully, which is that, based on that specific proposal that 
is out there, are you saying the EPA, as an Agency, will not 
sign a legally required document as part of the approval 
transfer process?
    Mr. Fox. I truly mean to be respectful and not avoid the 
question.
    But, this is very early in the process. This was the first 
document that was put out.
    I don't think it would be appropriate for me right now to 
opine one way or the other.
    Mr. Deutsch. I understand that. Thank you, Mr. Chairman.
    Mr. Bilirakis. The gentleman's time is expired. You know, 
the 9-percent reduction figure that has been bandied around 
here----
    By the way, the gentleman requested this March 23 letter be 
entered as part of the record.
    Without objection, that will be the case.
    [The letter follows:]

                  Executive Office of the President
                            Office of Management and Budget
                                                     March 23, 2000
The Honorable J. Dennis Hastert
Speaker of the House of Representatives
Washington, D.C. 20515
    Dear Mr. Speaker: I am writing to express the Administration's deep 
concerns about the budget resolution that the House will debate today. 
The resolution reported by the House Budget Committee would set the 
country's overall fiscal policy on the wrong path. If implemented, it 
would reverse much of the fiscal progress of recent years and could 
endanger our hard-won budget surplus. It is a plan for fiscal 
legislation that will make it extremely difficult to address priorities 
such as reducing our public debt, strengthening Social Security and 
Medicare, including providing a prescription drug benefit, expanding 
health care coverage, and enacting targeted tax relief. The resolution 
will also make it difficult to complete the FY2001 appropriations bills 
in a timely manner.
    The budget resolution makes room for a fiscally irresponsible tax 
cut by short-changing important priorities for the American people. As 
a result, Social Security, Medicare, health coverage, and discretionary 
programs would all suffer under the resolution reported by the Budget 
Committee. The resolution calls for policies that would undermine the 
pledge to dedicate the entire Social Security Trust Fund annual 
surpluses to debt reduction. In short, the resolution calls for tax 
cuts and related additional debt service costs that would exceed both 
OMB and CBO on-budget surplus projections over the next five years.
    The resolution creates room for the tax cut through an unrealistic 
assumption that Congress will be able to pass deep cuts in domestic 
discretionary spending. The resolution would cut next year's budget for 
most non-defense programs by an average of nine percent. These 
artificially low levels would be cut even lower over time in order to 
pay for the resolution's tax cut. Too often, past policymakers have 
used questionable economic and budget assumptions to produce rosy 
scenarios and avoid making tough but necessary budget choices. That 
approach to budgeting helped produce the record deficits of the 1980s 
and early 1990s. This resolution should not set as back on that course.
    The results of these discretionary cuts would be devastating. 
Compared to the President's Budget, more than 1.1 million women, 
infants, and children would be cut off from nutritional assistance 
through the WIC program. The FBI would have to cut 900 agents. We would 
be unable to reach the President's goals of serving 950,000 children in 
Head Start, providing urgent repairs for 5,000 schools, and hiring 
49,000 public school teachers to reduce class size. We would be unable 
to keep our national security commitments around the world.
    Discretionary spending is not the only priority that would be 
crowded out by the resolution's fiscally irresponsible tax cut. The 
resolution does not adequately address the critical issues of Social 
Security and Medicare. The committee-reported resolution includes no 
proposals to extend Social Security's solvency. The reserve fund for 
Medicare is inadequate to address Medicare's solvency and modernize the 
program with a prescription drug benefit. Moreover, the resolution 
fails to fund other important health initiatives, including the 
President's proposals to expand access to health coverage through 
Medicaid and the State Children's Health Insurance Program (SCHIP). The 
President's Budget framework would allocate $91 billion ($18 billion 
over five years) to the health coverage initiative.
    The President's budget proposed to reverse some of the mechanisms 
used last year in the final appropriations bills. We made those 
proposals to restore normal budgetary conventions in hopes of returning 
to more straightforward fiscal legislation that is free of gimmicks. 
The resolution rightly assumes the President's proposal to reverse some 
of those timing shifts. Unfortunately, by relying on unrealistic 
assumptions about discretionary spending, the budget resolution risks 
once again forcing the use of the same approach.
    The Committee-reported resolution is fundamentally flawed and fails 
to provide a balanced and workable economic plan. In the past, this 
approach has delayed, rather than expedited, action on appropriations 
bills and other fiscal legislation.
    In contrast, the alternative that Representative Spratt will offer 
on behalf of the Democratic leadership is a more responsible budget 
that improves on the Republican resolution in a number of important 
aspects. It assumes a more responsible aggregate level of non-defense 
discretionary spending that would be available to fund education, law 
enforcement, the environment, and other critical needs. It includes a 
targeted tax cut that will not put our surplus at risk. The Spratt 
alternative also includes important health initiatives, such as 
expanding access to health coverage, extending Medicare's solvency, and 
providing a prescription drug benefit.
    I hope you will revise the Committee-reported resolution to address 
the Administration's concerns and pass a bipartisan budget resolution 
that will make it possible to complete this year's work in a timely 
manner while producing effective results for the American people. I 
look forward to working with you towards that end.
            Sincerely,
                                               Jacob J. Lew
                                                           Director

    Mr. Bilirakis. I will refer to this letter in my 
questioning--the letter as identified by Mr. Deutsch, from 
Jacob J. Lew, the Director of OMB.
    The resolution creates for the tax cut, or anyhow--The 
resolution would cut next year's budget for most non-Defense 
programs by an average of 9 percent.
    It does not say EPA is cut by 9 percent. There is nothing 
in this to that effect.
    I wanted to get that clear, because, you know, it is an 
opportunity by members to demagogue again, as quite often 
unfortunately happens here.
    I don't know what the EPA budget would be, whether it would 
be 9 percent reduction.
    But, again, we are talking about reduction from the 
President's request, not a reduction from prior years, because 
our understanding is it to have been an increase in the 
Republican budget.
    Mr. Perciasepe, I understand you indicated that the 
administration was requesting an increase in air toxics.
    But, on page I-45, is it, of your budget document, zero 
dollars is requested for air toxic standards.
    Second, although--and I have already covered this, but I'll 
do it again--the 9-percent figures are bandied about, in fact, 
this is an artificial figure based on a request and not an 
actual reduction versus spending in 1999.
    This request, by the way, that we are referring to, 
includes programs--and you all can counter this if you'd like--
not specifically authorized like $85 million for the Clean Air 
Trust, and over $2 billion in commitments for Better America 
Bonds.
    The administration request also proposes reductions for air 
toxics, science, and research; therefore, reductions in efforts 
to attain national air quality standards.
    Isn't it, really, a more accurate picture of your request 
is that you have advocated some administrative priorities but 
that funding for EPA has generally been going up the last few 
years?
    Isn't it true that it has been going up for the last few 
years?
    Mr. Perciasepe. For EPA?
    Mr. Bilirakis. Yes.
    Mr. Perciasepe. There are significant Congressional 
earmarks placed in our budget.
    I will ask the Chief Financial Officer, but I think it was 
$400 million.
    Mr. Fox. $470.
    Mr. Perciasepe. $470 million was added to our budget that 
was not geared to our specific programs in our 2000 budget.
    On the air toxics, I am afraid that there was a mistake in 
the submittal to you, and I apologize for that.
    I have been given an errata sheet on what the actual 
requests----
    Mr. Bilirakis. Zero should not be zero?
    Mr. Perciasepe. I apologize for that. I've just been told 
that there has been a mistake in that.
    I will provide for the record the correct numbers.
    [The following was received for the record:]

    The following numbers replace those in the Key Program Summary for 
Air Toxics.

------------------------------------------------------------------------
                                                                FY 01
                                      FY 99        FY 00     President's
                                     Enacted      Enacted       Budget
------------------------------------------------------------------------
Air Toxics Federal Standards.....     24,637.9     19,380.6     27,312.3
Air Toxics Characterization......      9,088.2      8,452,9      9,503.7
Air Toxics Implementation........     10,561.6     11,517.6     14,511.3
Clean Air Partnership Fund.......          0.0          0.0     25,700.0
------------------------------------------------------------------------


    Mr. Bilirakis. The air toxics research, of course, you 
reduced your request in that connection.
    The Air Toxics Federal Standards is where they had the 
mistaken zero.
    Mr. Perciasepe. That's correct. The number I have----
    Mr. Bilirakis. So there's give-and-takes insofar as your 
budget is concerned, too.
    The point, I guess, is that there has not been, in the 
budget that is passed by the Congress, a 9-percent reduction 
for the EPA dollars.
    There is a 9-percent, apparently, reduction overall for 
non-Defense spending as per the letter that Mr. Deutsch placed 
in the record. How that will affect EPA----
    Mr. Ryan. You stated it correctly the way Mr. Deutsch 
characterized it: they are saying it is 9 percent on average.
    You are quite correct. The Appropriations Committee can 
determine how they want to do that any way they choose.
    But, we have to prudently look at what 9 percent would mean 
if we got our share, which is what we have done.
    Mr. Bilirakis. Well, you do have to prudently, but you 
certainly shouldn't be taking the position that there will a 9-
percent--a definite 9-percent reduction.
    Again, if there is a 9-percent reduction--which, hopefully, 
there will not be--it is a reduction from the President's 
request, which includes some of these programs which apparently 
have gotten it authorized. Maybe that might be open to 
discussion.
    Mr. Fields, thank you for coming back all the way over to 
this side of the Capitol.
    Mr. Shapiro stood in your shoes. I did say to him, as I did 
to all the others, how much I appreciated the cooperation of 
the EPA with regard to the Stouffer site down in Tarpon 
Springs, Florida.
    You would be surprised that I would bring that up, but I 
also went into the ombudsman.
    Can you tell me is there an intent to reduce or eliminate 
the role of the EPA ombudsman?
    Mr. Fields. Absolutely not, Congressman. We support the 
ombudsman function.
    The function sunset in 1989. We have continued that as a 
permanent EPA function.
    Every one of the last three Assistant Administrators has 
continued that ombudsman function without exception, Republican 
and Democrat.
    I assure you that we strongly endorse and believe that 
there is a need for an ombudsman function within the EPA.
    I know you have actively participated in public meetings 
with our ombudsman down in Florida.
    We appreciate your involvement in the situation at 
Stouffer, and I assure you there is no intent to eliminate that 
function from EPA.
    Mr. Bilirakis. And you speak for EPA when you say that?
    Mr. Fields. I am speaking for EPA when I say that.
    Mr. Bilirakis. You know, I became familiar with that role, 
and, again, as I said earlier, we can pass this legislation but 
we quite often don't see it actually in operation.
    In that case, I was able to see it in operation. All right. 
Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman. Mr. Perciasepe, 
you state in your testimony that, ``Congress earmarked from 
EPA's budget some $470 million for more than 320 special 
projects in individual Congressional districts last year.''
    You further state that the EPA will not be carrying forward 
last year's earmarks and will continue this year to oppose 
earmarks.
    In addition, I understand that this year's EPA budget would 
dramatically reduce funding for rural water technical 
assistance.
    I represent part of southern Ohio that is rural. Last year, 
the EPA's State and tribal assistance grants included about 
$1.4 million in funding to initiate a large project designed to 
eliminate arsenic in the drinking-water supply of several 
communities in my district.
    This project is estimated to cost over $20 million. The 
counties of Vinton and Jackson in southern Ohio are a part of 
Appalachia and currently have unemployment rates of 17 percent 
and 8 percent, respectively.
    They do not have $20 million to clean up the arsenic in 
their drinking water.
    Given the fact that these rural counties in southern Ohio 
suffer from arsenic-laced drinking water, they do not have $20 
million readily available for this kind of project.
    The EPA budget severely cuts rural water technical 
assistance.
    The EPA will not carry this project forward in fiscal year 
2001, and EPA will not support earmarks for fiscal year 2001.
    I finally got to my question. Where do these communities, 
or communities like this, get funding to move these investments 
forward, because what is happening is life-threatening?
    Mr. Perciasepe. Mr. Strickland, I'll let Chuck Fox, 
Assistant Administrator for the Water Program, answer your 
question.
    Mr. Fox. About 4 years ago, this committee reauthorized the 
Safe Drinking Water Act and created a State revolving loan fund 
program, which we have gotten up and running, and has proven to 
be a very successful program in helping communities finance 
drinking water improvements around the country.
    In fact, this month, we are estimating that the thousandth 
loan to a community has been provided under this law that was 
only passed 4 years ago.
    There's already been over $2 billion worth of activity 
here.
    It is good news to me. Seventy-five percent of the loans in 
this account are actually going to small systems under 10,000, 
which in many cases are those communities that have the 
greatest need.
    These are loan programs. They are typically reduced loans 
at below-market rates. They are not grants.
    But, it is a way of helping some of the communities around 
the country.
    Mr. Strickland. I understand there is an increase of about 
$5 million in this revolving fund.
    But, a community where there is 17 percent unemployment and 
where people are drinking today, if they have no other source 
for clean drinking water, arsenic, where there have been 
numerous cancers identified that are probably related to this 
problem, can you tell me today that there is going to be 
sufficient funding for this community and for other communities 
to solve these kinds of problems?
    Mr. Fox. I wish I could, but I can't. The short answer is 
that, in this country, we have an enormous gap of 
infrastructure needs around the country, both wastewater and 
drinking water.
    Our most recent needs survey on the drinking-water side 
suggests over $100 billion worth of investment that is going to 
have to happen in this country over the next 20 years.
    The contribution this committee authorized represented a 
very significant increase in the Federal contribution.
    Historically, it is a share that is paid by the State and 
local governments, particularly local governments.
    This is a very significant need that we face as a Nation.
    Mr. Strickland. I certainly don't want to be argumentative, 
and I don't want to be disrespectful to you.
    But, I have been elected, and those of us who sit up here 
have been elected.
    It troubles me somewhat that the earmarked projects seem to 
be held in disdain when many of us represent situations in our 
district where we have no other choice but to seek earmarks for 
problems that are of such significance.
    Having said that, I am going to continue to seek an earmark 
for this very, very serious problem.
    A last question, if I could, Mr. Chairman. I think I have a 
little time left.
    Mr. Perciasepe, as you know, I testified before the Senate 
Committee in Cincinnati, Ohio, regarding the New Source Review 
issue.
    I stated then and I'll state now that, without sufficient 
dialog from the interested parties or stakeholders, I have 
little confidence that a workable solution can be reached.
    At the time of the hearing, I understood that EPA was 
conducting stakeholder meetings.
    However, I recently have been informed--and if I am wrong, 
please correct me--but I have been informed that EPA has 
suspended further discussions with industry stakeholder groups.
    Could you tell me if that is true or not true?
    Mr. Perciasepe. I think the word ``suspended'' is probably 
the wrong word.
    We have been having dialog with a number of different kinds 
of industry groups, from utilities to what would commonly be 
called complex manufacturing--paper mills, oil refineries, 
industries of that nature.
    We have had a series of meetings with them, and we are sort 
of assessing where we are with those discussions.
    Then, I will be following up some of them to see if we can 
find some points to move forward.
    I think we have made some progress. We are going to need to 
push a little harder on all sides to do this.
    So, suspension, I think, is too hard a word, but we are in 
a couple-week period here where we are trying to assess where 
we are and where the opportunities are to continue.
    The simple answer is no, we haven't suspended.
    Mr. Strickland. Mr. Chairman, can I ask one really quick 
question?
    At the Cincinnati hearing, I submitted testimony on the 
IBEW. I would be interested in knowing if you can tell me 
quickly which stakeholder groups have been involved in the 
discussions, and in particular whether or not labor has been 
included, as the Senators suggested that they ought to be.
    Mr. Perciasepe. I don't have a published list with me today 
of all the different groups.
    We could follow up with you, or I could supply them for the 
record, Mr. Chairman.
    But, I don't know to what extent any particular labor group 
may have been involved in the discussions or represented.
    Mr. Bilirakis. Will you furnish that information for the 
record? Certainly Mr. Strickland is very interested.
    [The following was received for the record:]

    As with any group with an interest in NSR reform, labor groups have 
had the opportunity to comment on the rulemaking by writing to the 
Agency, commenting on proposed rules, attending public hearings, or 
participating in the numerous stakeholder meetings that have been open 
to the public. The EPA maintains a docket for the NSR Reform rule 
(Docket No. A-90-37) which includes information about the various 
meetings to discuss NSR Reform and includes any written comments 
received on the rule.
    A review of the docket shows that unions, including the United Mine 
Workers, The United Brotherhood of Carpenters and Joiners, and the 
Paper, Allied-Industrial, Chemical and Energy (PACE) International 
Union, have either commented on the proposed rule or have attended at 
least one of the stakeholder meetings. However, this docket is not a 
comprehensive record of everyone who attended every single public 
meeting, and some individuals in the record did not indicate whether 
they were representing an organization, so it is likely that additional 
representatives from unions have also attended some of the larger 
public meetings and made comments on the rule.
    In addition to unions, the groups participating in stakeholder 
discussions so far generally include (1) representatives from numerous 
industry groups such as the Chemical Manufacturers' Association, the 
American Petroleum Institute, the Edison Electric Institute, over 100 
other trade groups, individual corporations, and law firms representing 
a broad cross-section of industrial sectors; (2) representatives from 
dozens of state and local air pollution control agencies, as well as 
from regional planning groups in the Northeast and Mid-Atlantic States, 
and from STAPPA/ALAPCO, a national association of state and local air 
pollution control agencies; (3) representatives from about a dozen 
environmental or public interest groups including some umbrella groups 
like the Clean Air Task Force who represent additional organizations; 
and (4) representatives from federal agencies including EPA, the Forest 
Service, the National Park Service, the Fish and Wildlife Service, the 
Department of Energy, and the Department of Defense.

    Mr. Bilirakis. If the gentleman will yield time that he 
does not have, just very quickly on the arsenic, we earmarked 
$4 million for our arsenic research.
    Has that taken place? I am hitchhiking upon your question.
    Mr. Fox. We are perhaps talking about a few different 
earmarks here, but the earmarks for arsenic we have are part of 
a very ambitious arsenic program.
    We are, in fact, very soon going to be proposing a new 
drinking water arsenic standard based on the research that's 
been done.
    We are a little bit late in terms of the statutory 
deadline, but I suspect this new arsenic standard will be out 
in June.
    Our current standard of 50 parts per billion is not 
protective of public health, and this will be a new, more 
stringent standard based on the results of the National Academy 
of Sciences as well as some of our own research.
    Mr. Bilirakis. So your answer is that you are using the 
dollars allocated for arsenic research for that research, is 
that right?
    Ms. Noonan. Yes, sir, Mr. Chairman.
    Mr. Bilirakis. Thanks. Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. Chuck, let me address 
an issue that does not specifically apply to this committee 
technically, that is, the International Boundary and Water 
Commission project in south San Diego right on the Tijuana, 
Mexico border.
    I know, traditionally, this would not be something you 
would be doing, either, because it is a State Department 
project.
    But, seeing that public health is the issue here, after 25 
or 30 years of the EPA suing San Diego over the secondary 
sewage mandate in the Clean Water Act, the same EPA is 
operating or has built a plant that does not operate at 
secondary to this day, but seems to be able to go to secondary.
    I have been informed that we need to have the cap raised by 
Congress.
    Has EPA included in their budget a request of this Congress 
that the spending cap that was put on by previous Congresses--
and we will say 7 years ago?
    Has EPA requested that this Congress remove the spending 
cap and allow EPA to go to build to the secondary standard 
mandated by the Clean Water Act?
    Mr. Fox. We sent a letter to the Appropriations Committee 
and this Congress requesting that they remove the cap.
    It happened last year. It is not included in our budget, as 
a matter of your technical question, but it was a separate 
letter we sent to the committee.
    Mr. Bilbray. But the problem is why wouldn't you include it 
in this budget, because it is essential to be able to implement 
a budgetary request, isn't it?
    Mr. Fox. As we were building this budget, Mr. Bilbray, as 
you well know, I was having very detailed conversations with 
you and some of your colleagues.
    It was out of respect for that process that we did not 
include any specific language in this budget at that time.
    It is still our goal to have the Congress remove the cap so 
we can get ahead with secondary treatment.
    I think that is in the best interest of the people of this 
country and the people of your district.
    Mr. Bilbray. Out of respect for the environment, are you 
planning on presenting Congress with the same letter this year 
that you presented last year?
    Mr. Fox. If you think that would be necessary, we certainly 
could do that.
    Frankly, I think the letter is out there. It stands. If you 
feel it needs to be refreshed, we could certainly do it.
    Mr. Bilbray. Do you think is that an essential part of 
implementing EPA's strategy when it applies to fulfilling the 
Clean Water Act at the International Boundary and Water 
Commission in San Diego?
    Mr. Fox. We simply cannot go to secondary treatment at that 
plant without Congress raising the cap.
    We have enough money in the pipeline right now to continue 
on some engineering work this year.
    But, we ultimately can't complete construction on it 
without Congress removing the cap.
    Mr. Bilbray. Thank you. Bob, let me get back to my favorite 
subject.
    I have read that page 6 of the Blue Ribbon Report. It 
doesn't say anything about introducing new mandates.
    Now, before we get into that, let me ask you a question. In 
1995, a new Member of Congress was asked by the State of 
California to carry a bill to eliminate the 2 percent mandate 
for that State.
    Since then--Let's just say this. Why do you think I 
introduced the bill in 1996. I worked on it in 1995. Why do you 
think I introduced that?
    Why do you think the State of California did? Was it 
because I knew MTBE was a problem? That I knew it was going to 
become such a controversial issue?
    Mr. Perciasepe. I don't know. You'll have to tell me.
    Mr. Bilbray. How would I have known that MTBE was going to 
be the controversial issue that it is now at that time?
    Mr. Perciasepe. So you were proposing to do it, I am 
assuming, from the way you asked the question, to remove the 
oxygenate requirement even before MTBE was an issue?
    Mr. Bilbray. The problem I am getting to--and this is what 
the Blue Ribbon Committee is reinforcing--MTBE by itself is not 
the problem.
    The problem is a mandate that does not allow flexibility to 
address environmental problems, and I'd ask my colleague--both 
my colleagues on the other side of the aisle to really look at 
this, because we get----
    EPA now is being diverted over to talking about MTBE, 
rather than talking about a mistake that was made in 1990, that 
those of us in the environmental health community knew was a 
mistake by 1992.
    By 1994, we had developed alternative fuel prototypes, and 
in 1995 and 1996 we were asking for the permission to implement 
those alternatives.
    I am asking you are you willing to recognize what the Blue 
Ribbon Committee said, and that is Congress should act as 
quickly as possible to remove the mandate so the flexibility 
can respond to environmental concerns?
    Mr. Perciasepe. We agree that the 2 percent oxygenate 
mandate should be removed.
    Mr. Bilbray. But you propose to replace it with a new 
mandate.
    Mr. Perciasepe. A different mandate.
    Mr. Bilbray. You understand my concern? We are running into 
the same problem, and I hope my colleagues understand.
    That problem is you start mandating that certain substances 
are used, and, when problems come up with those substances, you 
have eliminated the need.
    It has been 5 years that I have been trying to get Congress 
to recognize this problem.
    Now, you are going to introduce a new mandate. Is it going 
to take another 6 years or 7 years to correct the problem that 
may occur there?
    Why can't we as a people and as a strategy set a tough 
standard and say now, go clean up the environment, and do it 
based on the outcome, not based on a mandated implementation?
    Certain products get used, but, if those products are 
environmentally damaging, you look around and say it is a 
mandate.
    I want to say this to my colleagues. This is the 
frustration I have here.
    Are you sure that your new mandate will not create new 
environmental problems?
    Mr. Perciasepe. If you take MTBE out, you are going to have 
to put something in.
    Now, you can make the list of all the possibilities. 
Remember, this is gasoline.
    Every one of the possibilities that you have to fill that 
volume of liquid that we'll have to fill will have some 
potential problem.
    Which one may have the least, or at least a neutral 
potential?
    That is what we are trying to do, but we are not suggesting 
that ethanol be the replacement in the Clean-Burning Gasoline 
program.
    We are talking about preserving the amount of renewable 
fuels we currently have in the Nation's fuel supply, which is 
about 1.2 percent of it, give or take a tenth of a percent, and 
that it grows slowly over a 10-year period.
    Mr. Bilbray. So, in other words, you are talking from the 
energy independence point of view and the FDA's point of view? 
It is not part of the public-health strategy?
    Mr. Perciasepe. We have a couple of recommendations in that 
package about the clean-burning gasoline component of it.
    One is to remove the oxygenate standard to create more 
flexibility to meet the clean air performance standards that 
you are talking about, and, two, to give us the authority to 
remove particular--in this case, MTBE--constituents to give us 
the unambiguous authority to be able to deal with other welfare 
issues that come up when you use these.
    Mr. Bilbray. I think you used a great word, the welfare 
issue.
    The question is is the Clean Air Act--Mr. Chairman, I'm 
sorry about this, but the issue is this--there's conflicting 
priorities, and I ask my colleagues to look at this.
    Mr. Bilirakis. You have done that, Brian. Please summarize.
    Mr. Bilbray. I would summarize the fact that this is the 
conflict we get welfare to try to address energy independence, 
but you have put it into an energy----
    Mr. Perciasepe. Welfare is the term in the Clean Air Act 
that this committee uses for issues other than air, like ground 
water.
    Mr. Bilbray. I have no problem with that. My problem is 
that we are getting people trying to implement other agendas 
within a public-health law.
    When you do that, you cause conflicts with your intended 
purpose, which is public health.
    That is what we run into. I yield back my time.
    Mr. Bilirakis. Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. I want to talk about 
one of my frustrations.
    It is a different subject, but I am equally frustrated, and 
there are some similarities, I am afraid.
    In my district, we have a problem regarding water 
filtration.
    The filtration plant was mandated for the Croton Reservoir 
a decade ago, and I have been working very hard to try to find 
alternatives to building this $6 billion plant--water 
filtration plant--which I call a boondoggle, that will disrupt 
the community, and I think ultimately lead to more pollution in 
our water.
    What frustrates me that I believe there are alternatives to 
filtration.
    EPA won't look at them. There is a 1999 GAO report that 
showed the EPA requested far less than the authorized amount of 
money for research and development on filtration alternatives.
    I am dismayed, frankly, that the EPA is not fully utilizing 
the available resources to develop this technology.
    I would like to know what amount of money is being utilized 
to develop filtration alternative measures this year and what 
is the status of this technology.
    Can the EPA be doing more to develop filtration 
alternatives, because what happens is communities are barred by 
law from reopening the situation.
    We have had improvements in technology over the past 10 or 
15 years.
    There might be alternatives to filtration, but we are 
barred from even looking at those alternatives.
    All we get, frankly, from your Agency, is that we must 
build this boondoggle.
    What is happening in New York, there is--The New York State 
Department of Environmental Conservation is now considering 
raising the level of phosphorous allowed in water stored at the 
Croton Reservoir.
    The DEC argues that the Bronx filtration plant will 
effectively remove the additional pollutants.
    It makes no sense to me the logic of let's pollute the 
water, let's raise the levels of acceptable pollutants, and 
then spend $6 billion to build a filtration plant.
    I want to know why is it not logical to say we need the 
ability to maintain clean water, not to raise pollutant levels 
to justify this questionable decision to build the filtration 
plant in the Bronx, New York, where I represent.
    I am wondering, Ms. Noonan or Mr. Fox, or, if someone can 
just enlighten me, because I am very frustrated with it--for 
clean water.
    I have a wonderful environmental record well into the 
1990's, and I am not a person who says not in my community, 
build it in someone else's community.
    But, it seems to me, if you have alternatives, why wouldn't 
we want to even look at those alternatives?
    Why would we want to maintain the kind of bureaucratic 
approach of, no, this is a mandate; it must happen. There may 
be alternatives. We're not going to look at them, and we are 
not even going to request the authorized amounts of money for 
research and development of filtration alternatives that we 
have.
    Mr. Fox. I appreciate your frustration, but, if I could 
just talk a little bit about the filtration issue, and then Dr. 
Noonan can talk briefly about the research.
    Filtration, frankly, is the basic mechanism for providing 
clean water to all Americans.
    We are all dependent on filtered water here in Washington, 
D.C. when we take a glass of water.
    There has been common understanding in the public-health 
community for years that we want to provide what we call 
multiple barriers of public-health protection in the drinking 
water system, meaning that, if you could take pollution out of 
the water in the first place, that is a good thing to do, even 
in the case where you are filtering your water, as well, since 
we had a series of filtration requirements that came online 
throughout the late 1980's and early 1990's and were reaffirmed 
in the Safe Drinking Water Act amendments.
    We have done, I think, incredibly well across the country.
    There are a total of 10,000-plus drinking water systems 
that are required to filter because they are getting their 
water from surface water supplies like the Potomac.
    Over 9000 of those have filtration in place. There were 145 
systems that we made very specific scientific determinations, 
that they did not need a filter based on very high-quality-
source water and repeated sampling that proved that they were, 
in fact, safe.
    Today in this country there are all but two systems that do 
not--are not meeting the filtration requirements as required 
under our regulation out of these 10,000.
    One of them is the Croton system, and the other is the 
Boston system.
    The rest of New York's water supply, as you know well, has 
maintained filtration avoidance because they have such high-
quality water.
    The Croton watershed, as you know, is a very urbanized, 
increasingly developed watershed that has the potential of 
introducing a significant amount of pollutants into the 
watershed.
    There has been sampling suggesting that, in some cases, 
filtration is necessary.
    We have reached a consent agreement with the city of New 
York to provide filtration for that supply.
    I think the consent agreement requires construction and 
completion of all this by the year 2006 or 2007.
    Mr. Engel. If there are technical advances in filtration 
alternatives which have been developed over the past 10 years, 
why wouldn't we look at that?
    Do you feel that there have been advances in filtration 
alternatives?
    I mean, if water was determined to require filtration a 
decade ago, and since that time we have made advances, why 
wouldn't we want to look at that?
    Let me just do a second part. I have some legislation which 
would allow public water systems to reapply after a 12-month 
period to the State in order to ascertain if the filtration 
plant is still needed.
    My bill allows the new technologies to be considered in 
determining whether a filtration plant is needed or if 
environmentally friendly filtration alternatives that provide 
clean drinking water can be implemented instead.
    Mr. Fox. We have some concerns with this legislation, 
again, coming back to the fundamental premise that the 
filtration provides the basic level of protection to all 
Americans who are drinking water.
    Mr. Bilirakis. Mr. Fox, with all due respect, the 
gentleman's time has expired, but I would certainly allow a 
very significant response to this question, not an 
encyclopedia, I guess, is what I am saying.
    Mr. Fox. I will be very quick. We have some concerns with 
your legislation.
    We believe, in general, we have made significant progress 
in this country with filtration.
    The Croton system, in particular, when we had the last 
hurricanes come up the East Coast, was shut down for many weeks 
because of problems with high turbidity.
    This is not a system that typically would meet our test for 
avoiding filtration.
    Ms. Noonan. Mr. Chairman, may I ask for the privilege of 
clarifying the gentleman's question.
    Mr. Bilirakis. If you can do it briefly, yes.
    Ms. Noonan. In fact, we are working on alternative 
filtration technologies.
    We have worked on them prior to now, and we continue to 
work on them, both membrane filtration and biofiltration.
    We have in-house work in our laboratories that is taking 
place. It is a small effort, because we have a large water 
research plate full of issues.
    Let me just mention that, in general, alternative 
filtration systems waste a significant amount of source water.
    They do tend to be expensive to maintain and operate on a 
cost-per-gallon basis.
    In a priority-setting mode, we have to make choices about 
the kinds of investments we make in drinking water.
    Given that, we have maintained a small effort in evaluation 
of alternative filtration technologies within our drinking 
water program.
    Mr. Engel. Mr. Chairman, if I could just have 10 seconds 
for a response.
    I want to just repeat that the September, 1999 GAO report 
illustrated the EPA requested far less than the authorized 
amounts of money for research and development in filtration 
alternatives.
    That is very dismaying that you are not fully utilizing the 
available resources to develop this technology.
    Mr. Bilirakis. We have tried to make those points a number 
of times, Mr. Engel.
    All right, our timing--By the way, I just wanted to, as we 
close here--The staff has consulted, at my request, with the 
CRS.
    The CRS--Regarding last week's budget resolution, the CRS 
informs us that, based on their analysis, the House passed a 
$700 million increase for Function 300 Natural Resources, which 
is a 3.8 percent increase.
    Just for the record, again, I would ask you, and I know you 
would be available, to respond to any written questions.
    Without objection, members' opening statements will be made 
a part of the record.
    Any additional material may be submitted to the record for 
3 days.
    Robert, thanks very much for your patience and your 
perseverance. It was a good hearing.
    [Whereupon, at 1:15 p.m., Thursday, March 30, 2000, the 
hearing was adjourned.]
    [Additional material submitted for the record follows:]

              United States Environmental Protection Agency
                                                    August 31, 2000
The Honorable Michael Bilirakis
Chairman
Subcommittee on Health and Environment
Committee on Commerce
U.S. House of Representatives
Washington, D.C. 20515
    Dear Mr. Chairman: Enclosed please find a complete set of our 
responses to the follow-up questions for the record following the March 
30, 2000 hearing on the Environmental Protection Agency's FY 2000 
Budget which were received on May 5, 2000. As you know, we have already 
provided responses in two previous installments on June 13 and July 20, 
2000.
    I thank you for the opportunity to respond, and hope that EPA's 
input will prove valuable to the Committee.
            Sincerely,
                                          Diane E. Thompson
                                            Associate Administrator
Enclosures
     Committee on Commerce; Subcommittees on Finance and Hazardous 
         Materials, and Health and Environment 3/30/00 Hearing
    According to the Administration's budget submission for Fiscal Year 
2001, an additional $106 million is requested for its clean air goal. 
However, much of this increase may be attributable to the Clean Air 
Partnership Fund, for which $85 million is requested.
    Question 1A: Please provide all draft criteria or guidance 
concerning how the Fund would be organized and administered.
    Attached below is the full text of the document entitled ``U.S. EPA 
Clean Air Partnership Fund: Draft Program Design Framework,'' which has 
been publically disseminated for discussion. In it, such program design 
organizational and administrative questions such as selection criteria, 
eligible grant recipients and the grant evaluation and selection 
process are discussed in draft form.
    As noted in the document, official ``guidance'' for the Fund will 
be developed and issued according to a timetable whose specific dates 
will be finalized at some point after the completion of the 
appropriations process.
   U.S. EPA Clean Air Partnership Fund Draft Program Design Framework
Introduction
    This Clean Air Partnership Fund draft program design framework is 
being prepared and distributed to solicit suggestions from all parties. 
Please contact Keith Mason (202-564-1678) in EPA's Office of Air and 
Radiation with comments or questions. A final Clean Air Partnership 
Fund program design will be contained in the solicitation for proposals 
and accompanying guidance that will be developed and distributed at a 
later date.
Statutory Authority
<bullet> The CAPF will operate as an EPA grant program under Section 
        103 of the Clean Air Act which authorizes EPA to issue 
        demonstration grants.
Eligible Grant Recipients
    The Fund will provide grants to local, state and tribal 
governments, and to multi-governmental organizations, specifically:

<bullet> Government agencies and organizations at the state, city, and 
        county levels
<bullet> Tribal government agencies and organizations
<bullet> Regional and multi-governmental organizations whose members 
        are from state, city, county and tribal agencies
Selection Criteria for Project/Program Evaluation
    EPA will use the following criteria in the evaluation of CAPF grant 
proposals:

<bullet> Reduce multiple air pollutants. Projects or programs should 
        reduce or prevent more than one kind of air pollutant. All 
        classes and types of air pollutants are eligible including: 
        NO<INF>X</INF>, SO<INF>X</INF>, SO<INF>2</INF>2, PM, VOCs, CO, 
        lead, air toxics, ozone-depleting substances and greenhouse 
        gases.
<bullet> Demonstrate innovative programs or technologies which reduce 
        or prevent multiple air pollutants.
<bullet> Result in significant leveraging of Federal (CAPF) funds by:
    <bullet> providing a minimum level of matching funds directly from 
            the grant recipient (match % to be determined)
    <bullet> providing additional leveraging, as appropriate to the 
            project or program, through one or more of the following 
            mechanisms:
      --revolving loan funds;
      --bond guarantees;
      --tax incentives;
      --supplemental matching funds;
      --funding from private sources; and/or
      --others to be proposed by applicant and approved by EPA
<bullet> Transferability. Project should demonstrate the potential to 
        replicate results and create benefits in other areas of the 
        country.
    Additional criteria will also be developed that address the role of 
partners and public participation. Criteria may also be developed that 
are specific to the types or categories of projects that are eligible, 
as appropriate, as part of the final Solicitation of Proposals and 
Guidance.
Eligible Projects & Programs
    The CAPF will provide an initial source of funding for many types 
of demonstration projects or programs that include but are not limited 
to the following:

<bullet> air pollution control technologies or processes;
<bullet> air pollution prevention technologies or processes;
<bullet> retrofits or improvements that increase the energy efficiency 
        and reduce associated air pollution of
    --commercial, industrial, municipal or residential buildings and 
            facilities;
    --transportation systems or fleets;
    --industrial processes; or
    --existing pollution control technologies or systems
<bullet> power technologies using low or no-emitting resources as 
        cleaner energy sources, such as renewable energy;
<bullet> financial mechanisms or other types of strategies that enable 
        an eligible grant recipient to implement a number of 
        demonstration projects.
Apportioning the CAPF
<bullet> By size of grant--to make the CAPF accessible to as many 
        entities as possible, different amounts of funding are 
        apportioned to different sizes of programs or projects as 
        follows:

----------------------------------------------------------------------------------------------------------------
                                                                                               No. of      % of
                       Grant size                          Amt of pool       Size range        grants     total
----------------------------------------------------------------------------------------------------------------
Large..................................................     $20 million    $2.5-$5.0M each          4-8      25%
Medium.................................................     $45 million    $1.0-$5.0M each        10-45      50%
Small..................................................     $20 million        <$1.0M each       20-100      25%
----------------------------------------------------------------------------------------------------------------

<bullet> By EPA's strategic air goals--EPA will review the set of final 
        award decisions to ensure alignment with the Agency's air 
        goals, focusing at least \2/3\ of the Fund on projects/programs 
        that address criteria pollutants and \1/3\ of the Fund on 
        projects/programs that address air toxics and all projects/
        programs required to demonstrate significant co-benefit 
        reductions of other categories of air pollutants such as 
        greenhouse gases.
Project/Program Timeframe
<bullet> Projects or programs should minimize the time from proposal to 
        project start up.
<bullet> Projects or programs should be implemented within 1-3 years 
        after the grant is awarded.
Grant Evaluation & Selection Process
    EPA will use a two-tiered process to evaluate proposals and select 
final grant awards.

<bullet> Tier 1 provides an initial screen of a project/program 
        synopsis to see how well they meet a limited set of necessary 
        selection criteria
<bullet> Tier 2 provides a more in-depth evaluation of full proposals 
        across all selection criteria for projects/programs that 
        qualify based on the Tier 1 process.
    EPA's two-tier process for the CAPF comprises the following steps:

<bullet> EPA selects evaluation panels
<bullet> EPA sets parameters for Tier 1 and Tier 2 evaluations
<bullet> All applicants submit a 3-5 page synopsis of their proposals
<bullet> Panels evaluate proposal synopses using a pre-determined 
        methodology
<bullet> Applicants that qualify based on Tier 1 evaluations develop 
        and submit a full proposal
<bullet> EPA panels perform Tier 2 evaluations
<bullet> Final award decisions are made

                       Design Process & Timetable
------------------------------------------------------------------------
Clean Air Partnership Fund Program Development  Approximate  Approximate
                     Steps                       Time Frame  Target Date
------------------------------------------------------------------------
Gather information and stakeholder ideas &       4-6 months    2/00-8/00
 input........................................
Develop draft program design options..........   2-5 months    4/00-9/00
Evaluate options & further develop guidance...   2-5 months    8/00-1/01
Issue Solicitation of Proposals and Guidance,   ...........    2/01-4/01
 and provide outreach and training about
 guidance to states, locals and tribes........
------------------------------------------------------------------------


                      CAPF Grant Proposal Calendar
------------------------------------------------------------------------

------------------------------------------------------------------------
Grant Project/Program Synopses Due...................         summer '01
Full Grant Proposals Due.............................           fall '01
Final Selections Made................................     winter '01/'02
------------------------------------------------------------------------

    Question 1B: It seems that EPA is proposing, under this Fund, that 
EPA will decide who will or will not receive grants, based on broad 
criteria like ``multiple air pollution problems' and facilitation of 
meaningful public involvement.'' Please tell us what effort you have 
made to align such criteria with existing statutory goals contained in 
the Clean Air Act.
    Answer 1B: As defined in the document referenced in 1A above (and 
attached below), EPA will ``review the set of final award decisions to 
ensure alignment with the Agency's air goals, focusing at least \2/3\ 
of the Fund on innovative projects/programs that address criteria 
pollutants and \1/3\ of the Fund on projects/programs that address air 
toxics and all projects/programs required to demonstrate significant 
co-benefit reductions of other categories of air pollutants such as 
greenhouse gases.''
    Question 1C: What data or ranking scale will you use to judge 
relative risks that will be addressed by each proposal?
    Answer 1C: Exact details such as what data will be required to be 
included in actual proposals and how will that data be evaluated will 
be part of the final Solicitation of Proposals issued after the 
completion of the appropriations process. One of the selection criteria 
will be the demonstrated success of the proposals in reducing or 
preventing more than one kind of air pollutant. It is expected that 
proposals will quantify (in a specific manner to be determined) the 
reductions of emissions that the demonstrations will achieve and how 
those reductions result in improvement to air quality-related human 
health and ecological impacts.
    Question 1D: How do you propose such Funds be allocated among the 
states? By a formula? Some other criteria, such as need?
    Answer 1D: As specified in the ``Draft Program Design Framework,'' 
the Fund will provide grants to local, state and tribal governments, 
and to multi-governmental organizations, specifically:

<bullet> Government agencies and organizations at the state, city, and 
        county levels
<bullet> Tribal government agencies and organizations
<bullet> Regional and multi-governmental organizations whose members 
        are from state, city, county and tribal agencies.
    At this point, it is expected that all proposals will be evaluated 
on their individual merits in a national-based competitive process and 
that there will not be any predesignated allocations of resources to 
specific states, counties, tribes, cities or multi-governmental 
organizations.
    Question 2A: I noted that Chairman Bliley requested EPA, in a 
letter dated March 21, 2000, to provide FTE figures and expenditures 
for MTBE research. However, I could not find a line item for such 
research in Acting Chief Financial Officer Michael Ryan's March 28, 
2000 response to Chairman Bliley. How much does EPA propose to spend on 
MTBE research in Fiscal Year 2001?
    Answer 2A: The MTBE research resources for FY 2001 total $1.1 
million.
    Question 2B: Please provide the Committee with details on all FY 
2001 MTBE research efforts, including the identity of the principle 
investigations, when each research project was initiated, when it is 
due to be completed and what scientific and technical questions each 
project will explore.
    Answer 2B: The FY 2001 MTBE research efforts are as follows:
    30. Monitored Natural Attenuation of MTBE under Varying Geological 
Conditions
    Principle Investigator: John T. Wilson & John Haines
    Initiated: FY98
    Estimated completion: FY01
    What scientific and technical questions will the project explore?
    The project addresses the question of the extent and rate of the 
natural biodegradation of MTBE under several different geochemical 
conditions for which different terminal electron accepting processes 
predominate. The project results, which are based on coordinated 
laboratory and field work, will be of use in developing guidance on the 
extent to which monitored natural attenuation can, or cannot, be 
incorporated into the remedial actions taken at leaking underground 
storage tanks sites where MTBE is present. The final report for this 
project is expected to be completed by the end of the second quarter of 
FY01. In FY01, EPA plans to initiate research on the natural 
attenuation of other oxygenates that are proposed as replacements for 
MTBE.
    2. MTBE Treatment by Adsorption/Oxidation
    Principle Investigator: Scott Huling & Teri Richardson
    Initiated: FY99
    Estimated Completion: FY02
    What scientific and technical questions will the project explore?
    The project addresses the problem of providing cost-effective 
treatment options for groundwater that is contaminated with MTBE. This 
project is specifically addressing the possibility of a recently 
developed process that relies on the use of granular activated carbon 
(GAC) that has been treated with iron to adsorb MTBE from contaminated 
water and then use hydrogen peroxide to cause Fenton's reaction which 
simultaneously regenerates the GAC and oxidizes the adsorbed MTBE. This 
process was developed by EPA researchers and currently EPA has a patent 
application pending. The project will develop potential cost data as 
well as evaluating the technical feasibility of applying this process 
to groundwater contaminated with MTBE.
    3. MTBE Treatment by Advanced Oxidation
    Principle Investigator: Thomas Speth
    Initiated: FY99
    Estimated Completion: FY02
    What scientific and technical questions will the project explore?
    The project addresses the problem of providing cost-effective 
treatment options for drinking water that is contaminated with MTBE. It 
explores the conditions necessary to strip MTBE from drinking water 
supplies and the advanced oxidation technologies necessary to destroy 
the released MTBE. The project will examine relationships between 
operating conditions and MTBE removal performance, and the conversion 
efficiency of the associated advanced oxidation technologies capable of 
treating MTBE in the offgas
    4. Ex-situ Treatment of MTBE Contaminated Groundwater
    Principle Investigator: Al Venosa
    Initiated: FY98
    Estimated Completion: FY02
    What scientific and technical questions will the project explore?
    The project addresses the problem of providing cost-effective 
techniques to biodegrade MTBE using membrane reactors.
    5. Technical Support to the Regions on MTBE Issues
    Principle Investigator: Patricia Erickson
    Initiated: FY01
    Estimated Completion: Continuing
    What scientific and technical questions will the project explore?
    The projects will provide site-specific technical support in 
identifying and implementing MTBE treatment strategies.
    6. MTBE Toxicological Reviews
    Principle Investigator: Michael Davis & Jane Caldwell
    Initiated: FY00
    Estimated Completion: FY01
    What scientific and technical questions will the project explore?
    The project will develop MTBE oral reference dose (RfD) and cancer 
unit risk toxicological reviews for Agency consensus review.
    7. Alternative Tier II Health Effects
    Principle Investigator: Michael Davis & Jane Caldwell
    Initiated: FY01
    Estimated Completion: FY02
    What scientific and technical questions will the project explore?
    The project will analyze Alternative Tier II health effects testing 
data for Clean Air Act 211(b) mandate. The project includes baseline 
gasoline and gasoline with MTBE, TAME, ETBE and EtOH.
    Question 3: What is the EPA spending in FY 2001 and what does the 
proposed budget for FY 2001 allocate for programs concerning the ozone 
and particulate matter (PM) standards which were promulgated in 1997 
and are now currently under litigation? What does the FY 2001 budget 
allocate for all PM research programs? How much is proposed in FY 2001 
for PM monitoring?
    Answer 3: The Office of Air and Radiation budget includes $2.0 
million for PM, and $0.7 million for ozone. The resources will be used 
to develop guidance documents and analytical tools to provide 
infrastructure that will be needed when the litigation of these 
standards is resolved. The State and local agency grant program (STAG 
grants) for FY2001 includes $42.5 million for the revised PM monitoring 
network and $1.25 million for IMPROVE (Interagency Monitoring of 
Protected Visual Environments) regional haze/visibility monitoring.
    Guided by the recommendations of the National Research Council 
(NRC), the FY 2001 budget for Particulate Matter research by the Office 
of Research and Development (ORD) is $65.3 million. The EPA's ORD also 
provides approximately $2 million (included above) directed toward 
continuing PM monitoring work at the Supersites. The Supersites are 
intensive monitoring projects that study components and sources of PM. 
They are coordinated with other research activities being planned to 
study the health effects associated with exposure to these pollutants.
    Question 4: Please provide the Committee with a written explanation 
of how spending for PM research and monitoring will inform EPA's next 
review of the PM standard which would be required under the 5 year 
cycle outline in the Clean Air Act, to be promulgated in mid-2002?
    Answer 4: Research and monitoring funded in FY 2001 will increase 
our understanding of particulate matter (PM) health effects and 
exposure for the review of the criteria and standards scheduled for 
completion by 2007. The key dates for the current review of the 
standards are mid-2001, when the criteria document and staff paper 
should be complete. In addition, in late 2001 to 2002, the Agency will 
be soliciting public comments, including any significant new scientific 
developments arising from research being conducted and published by 
that time. All of the air quality monitoring data collected in 1999 and 
much of that collected in 2000 will be included in air quality analyses 
for the Staff Paper and the later stages of the decision-making 
process.
    Newly-funded research, accepted for publication in a peer-reviewed 
journal by mid to late 2000 can be considered for inclusion in the 
criteria document and staff paper. Generally, research initiated in FY 
2001 cannot be expected to produce results in time to be considered in 
the new scientific findings included in these documents. However, if 
any highly significant new findings result from this research in 2001, 
they could be provisionally considered during the public comment 
period. Some of the new work is targeted at more cost-effective 
implementation of PM standards. Results of the 2001 funded research in 
this area will be of use and of potentially significant value to 
industry, States, and EPA in 2003-2005, in areas such as modeling tools 
and source characterization used by the States in their State 
Implementation Plans (SIPS). As previously mentioned, the findings of 
all of the newly-funded research will play an important role in the 
subsequent review of the PM National Ambient Air Quality Standards 
(NAAQS) in 2007 and subsequent years.
    PM research spending in FY 2001 will be consistent with the 
recommendations of the National Research Council Committee on Research 
Priorities for Airborne Particulate Matter. The research will address 
questions related to the biological mechanisms of toxicity, 
characterize factors affecting susceptibility, identify components and 
characteristics of PM associated with toxicity, improve understanding 
of sources and actual human exposures to PM, and understand the role of 
PM and gaseous copollutants in affecting human health. As research in 
these areas is completed the peer reviewed results will be incorporated 
into the Air Quality Criteria Document and also support State 
Implementation Planning.
    Question 5: EPA is about to propose new diesel sulfur regulations. 
How will EPA propose to address both possible price increases and any 
effect on diesel supply under its proposed regulations? In light of the 
current increases in price--has EPA completed any specific study of 
price and supply issues?
    Answer 5: EPA's proposed emission standards for new heavy-duty 
vehicles and diesel fuel sulfur control were announced on May 17, 2000 
and published June 2, 2000 (65 Fed. Reg. 35430). The potential for 
price increases and the impacts on diesel fuel supply are two of the 
many issues that were discussed in the proposal and on which we 
requested public comment. For example, the proposal includes a 
substantial discussion on a phase-in of the low sulfur diesel 
requirements as a way to provide the oil industry with some additional 
flexibility in meeting the proposed sulfur reductions. We are 
continuing to evaluate these issues and options to address them as we 
develop the final rule.
    EPA is fully committed to working cooperatively with the diesel 
fuel industry to ensure that any efforts to reduce harmful levels of 
sulfur in diesel fuel are done in a reliable and cost-effective manner. 
EPA worked successfully last year in partnership with the auto and 
petroleum industries to develop a cost-effective rule for tougher 
tailpipe emission standards for cars and low sulfur gasoline. We plan 
to take the same collaborative approach with regard to reducing the 
sulfur content of diesel fuel. By working cooperatively with the oil 
industry, environmental groups, public health experts, and states and 
by taking full public comment, we will develop a cost-effective 
standard that can be implemented without disruption of fuel supplies 
and that still fully protects public health and the environment.
    Although EPA has not completed any specific study on fuel prices 
and supply, we have investigated, with DoE, many issues related to 
recent high gasoline prices in the midwest.
    Question 6: Page I-14 and I-15 of the Fiscal Year 2001 budget 
document indicate that EPA is ``evaluating, and will continue to 
evaluate, clean air programs to determine how best to secure necessary 
public health protections while still respecting the court's decision 
(on the 8 hour ozone standard and new PM standard).''
    (A) Please provide the Committee with a more complete explanation 
of this statement. Please provide a specific definition of the 
difference between implementing the standards and ``securing necessary 
public health protections''?
    (B) What specific actions could constitute implementation versus 
what actions would constitute securing public health protections?
    Answer 6: EPA looks at each action related to the ozone standard on 
a case-by-case basis to determine whether, given the status of the 
litigation on the 8-hour ozone standard, we can move forward. EPA's 
approach to addressing the regional transport of ozone in the eastern 
half of the country by controlling NO<INF>X</INF> emissions is a good 
example of how EPA is securing necessary public health protections 
while still respecting the court's decision. When EPA initially issued 
requirements for NO<INF>X</INF> reductions (i.e., issuing the 
NO<INF>X</INF> SIP Call and granting states' section 126 petitions), 
EPA did so because it was necessary to attain both the pre-existing 1-
hour standard and the new 8-hour standard. After the court's decision 
on the 8-hour ozone standard, EPA announced that it would stay the 
rationale and requirements for the NO<INF>X</INF> reductions that were 
based solely on the need to attain the new 8-hour ozone standard. 
Although the NO<INF>X</INF> reduction requirements are based on the 
need to attain the 1-hour ozone standard, they will also help areas 
have air quality that meets or is nearer to the level of the 8-hour 
ozone standard, which will help protect public health. Another example 
is EPA's recently issued Tier 2 standards to control motor vehicle 
emissions. They are necessary to meet the 1-hour ozone standard, but 
they will also provide additional health benefits by helping areas 
reduce ozone pollution to levels that meet or are nearer to the level 
of the 8-hour ozone standard.
    Providing information on an areas' air quality is also consistent 
with the court's decision. The court specifically recognized that EPA 
has a statutory obligation to designate areas with respect to whether 
they are attaining air quality standards, and gave no indication that 
it was relieving EPA of that obligation for the 8-hour ozone standard. 
Thus, EPA is in the process of working with the states to designate 
areas as attainment or nonattainment for the 8-hour ozone standard 
because we believe it is important that people have information about 
the quality of the air they breathe. Similarly, we are working with 
state and local governments in many areas to provide information to the 
public about air quality through the use of the Air Quality Index.
    The court decision has not affected the activities related to the 
fine particulate standard that were planned for this time period. 
Primarily, EPA had planned on conducting the review of the fine 
particle standard, as required by statute, and working with the states 
to establish the fine particulate monitoring network and to collect 
data from it. Neither of these activities is affected by the court 
decision.
    Question 7: The Clean Air Act requires EPA to promulgate all 
Maximum Achievable Control Technology Standards (MACT standards) for 
air toxics by this November.
    (A) Can you tell me precisely how many MACT standards will not be 
promulgated by the deadline contained in section 112(e)(1)(E) of the 
Clean Air Act?
    Answer 7A: To date, we have promulgated 46 standards (covering 82 
source categories) and proposed an additional 4 standards (covering 4 
source categories). This primarily includes standards which were in the 
2, 4, and 7 year bins and each with their own respective statutory 
deadline. The final deadline is November 15, 2000 for the remaining 
standards in the 10 year bin. In total, there are 62 standards 
(covering 96 source categories) in the 10 year bin. We are working on 
these standards, however, we will not have all of them completed by the 
statutory date. By November 15, 2000, we estimate that we will 
promulgate 3 MACT standards and propose 23 MACT standards. It is our 
plan to have all of the standards completed by May 15, 2002, the date 
of the section 112(j) MACT ``hammer.'' While we are looking at ways to 
streamline the regulation development process so that we can meet the 
May 15, 2002 date, the amount of resources received in fiscal year 2001 
will play a major role in meeting this schedule.
    Question 7B: Has EPA calculated the impact on public health of 
delaying these MACT standards past the statutory deadline? If not, why 
not?
    Answer 7B: EPA has not calculated the impact on public health by 
delaying the MACT standards past the statutory deadline. Assuming that 
all MACT standards are promulgated by the May 15, 2002 date, we will be 
no more than 18 months behind schedule. For many of the standards which 
have not been promulgated, we are still gathering information on 
pollutants being emitted, amount of emissions, control technology, and 
the ability to reduce emissions of these pollutants. Therefore, we have 
not been able to do a health assessment associated with missing the 
statutory deadline.
    Question 8: Mr. Perciasepe indicated in the Administration's 
statement that the FY 2001 budget proposed an additional $5 million for 
safe drinking water research in Fiscal Year 2001. However, in 
information provided to the Committee, it was indicated that the Fiscal 
Year 2001 budget only requested a $3.2 million increase. Please explain 
the discrepancy in these amounts.
    Answer 8: The Agency's policy is not to request funding in support 
of Congressional earmarks as part of the President's Budget submission. 
In light of this policy, the FY 2001 drinking water research request 
actually represents a $7.8 million increase over FY 2000 Enacted levels 
when FY 2000 Earmarks are not considered. Included in the increase is 
an additional $5 million to support important research on contaminants 
on the Contaminant Candidate List (CCL). This $5 million increase is 
over and above the FY 2000 Enacted level for this important area.
    Question 9A: EPA has missed the statutory deadline of January 1, 
2000 for proposing a new standard for arsenic. When does EPA expect to 
propose a new arsenic standard?
    Answer 9A: EPA proposed a new drinking water standard for arsenic 
in the Federal Register on June 22, 2000. The proposed rule will have a 
90-day public comment period.
    Question 9B: Since the 1996 Safe Drinking Water Act Amendments 
allowed for a full year between the dates for proposal of a standard 
and promulgation of a final standard, does EPA believe it will be able 
to sufficiently evaluate all the public comments it will receive and 
promulgate the new standard by January 1, 2001? If so, what specific 
actions will EPA take to address this shortened schedule between 
proposal and a final rule?
    Answer 9B: EPA has established a timetable to meet the January 1, 
2001 deadline for a final rulemaking and has taken a number of steps to 
help expedite the rulemaking process. The Agency has conducted 
extensive stakeholder outreach and interaction on this proposed 
rulemaking over the past three years. We have preliminarily addressed a 
range of stakeholder views identified to date on the principal issues 
of this rulemaking. We held five formal stakeholder meetings across the 
country for the purpose of discussing all aspects of the proposed 
rulemaking. In addition, we participated in a series of technical 
workgroup meetings sponsored by the American Water Works Association 
(AWWA) designed to examine analytical methods, occurrence, treatment, 
and cost/benefit analyses (states, utilities and environmental groups 
attended the AWWA meetings). We also worked with 22 small entity 
representatives, the Small Business Administration, and the Office of 
Management and Budget through the Small Business Regulatory and 
Enforcement Flexibility Act process. We also presented summaries of our 
rulemaking activities at national and regional meetings of several of 
the major trade associations. Finally, several states participated in 
the Unfunded Mandates Reform Act consultation. The Agency expects that 
the public comment period will serve to amplify comments and points of 
view that have been raised previously and considered, rather than new 
issues that will require an extensive period of time to analyze.
    Question 10A: The trade press has reported that EPA will propose a 
5 part per billion (ppb) standard for arsenic and take comment on a 3 
ppb and 10 ppb standard. Whether or not this is what EPA intends to do, 
can you tell us the present scientific basis for a 5 ppb standard?
    Answer 10A: EPA is proposing a new drinking water standard of 5 ppb 
for arsenic and taking comment on regulatory options of 3 ppb (the 
feasible level), 10 ppb, and 20 ppb. EPA is proposing a Maximum 
Contaminant Level Goal (MCLG) of zero for arsenic. Arsenic is the first 
drinking water regulation which will set a standard higher than 
technically feasible (3 ppb) using the discretionary authority from the 
1996 Amendments to the Safe Drinking Water Act to adjust the Maximum 
Contaminant Level (MCL) if the benefits would not justify the costs.
    The scientific information that was reviewed in considering a range 
of possible MCL options was the health effects of arsenic (principally, 
the National Academy of Sciences's National Research Council report 
NAS/NRC), the occurrence of arsenic nationwide, the analytical methods 
that may be used to measure low levels of arsenic, and the costs and 
benefits of complying with a new standard.
    From a health perspective, EPA believes that arsenic in drinking 
water can cause several types of cancer including skin, bladder, lung, 
and prostate cancer. Non-cancer effects include skin pigmentation and 
keratosis (thick skin growths), gastrointestinal, cardiovascular, 
hormonal (e.g., diabetes), hematological (e.g., anemia), pulmonary, 
neurological, immunological, and reproductive/developmental function. 
The NAS/NRC report concluded that the current MCL for arsenic is not 
sufficiently protective and urged EPA to lower the MCL as soon as 
possible. The NRC report indicated that the risk of death due to 
bladder cancer at the current MCL of 50 ppb was 1 to 1.5 in 1,000 and 
that the risk of death from lung cancer from arsenic in drinking water 
could be two to five times that of bladder cancer. However, the Council 
also noted a number of significant uncertainties in the analyses 
underlying these estimates. These considerations are of particular 
interest in examining possible arsenic in drinking water MCL options in 
the range suggested by this question.
    Question 10B: GAO indicated in a September 1999 report that costs 
would rise dramatically for a 5 ppb standard from $620 million to $2.1 
billion under EPA estimates and from $1.5 billion to $4.2 billion under 
private industry estimates. Do you have any updated cost estimates for 
5 ppb standard? What are they?
    Answer 10B: At the proposed level of 5 ppb for arsenic in drinking 
water, EPA has projected the total costs of treatment, monitoring, 
reporting, record keeping, and administration for the 6,600 community 
water systems needing to reduce arsenic to be $379.0 million a year at 
3 percent discount rates and $445 million a year at 7 percent discount 
rates. These estimates are much lower than the 1995 EPA estimates cited 
by GAO. The previous EPA estimate for a 5 ppb MCL was $620 million a 
year using a 7 percent discount rate. The $2.1 billion estimate was for 
an MCL option of 2 ppb, not 5 ppb.
    The following table shows the total annualized costs of treatment, 
monitoring, reporting, record keeping, and administration for this rule 
at 3 and 7 percent discount rates for all the MCL options included in 
the proposed rule.

                               Total National Annualized Costs of the Arsenic Rule
             (Includes cost of treatment, monitoring, reporting, record keeping, and administration)
----------------------------------------------------------------------------------------------------------------
                                                                 Three Percent Discount   Seven Percent Discount
                       Regulatory Action                                  Rate                     Rate
----------------------------------------------------------------------------------------------------------------
Proposal of 5 <greek-m>g/L....................................         <difference>$379         <difference>$445
                                                                                million                  million
Option of 3 <greek-m>g/L......................................         <difference>$645         <difference>$756
                                                                                million                  million
Option of 10 <greek-m>g/L.....................................         <difference>$166         <difference>$195
                                                                                million                  million
Option of 20 <greek-m>g/L.....................................  <difference>$65 million  <difference>$77 million
----------------------------------------------------------------------------------------------------------------

    Question 10C: How many avoided fatal cancer cases would be 
attributable to a 5 ppb standard?
    Answer 10C: It is extremely important to recognize that the 
proposed rule has both quantifiable and non-quantifiable benefits. In 
other words, there are health end points that we can calculate with a 
certain degree of confidence (e.g., avoidance of some types of fatal 
cancer),but believe there are also significant benefits that are more 
difficult to quantify (e.g.,avoided circulatory problems) that are 
important and attributable to this rule. Reducing arsenic from 50 ppb 
to 5ppb protects an additional 22.5 million Americans and will prevent 
about 20 cases of bladder cancer per year and approximately 5 bladder 
cancer deaths per year. EPA expects that arsenic-related lung cancers 
(that could number as many as two to five times the number of bladder 
cancers) and cardiovascular diseases will be reduced with a lower 
standard as well.
    Question 10D: The trade press has reported that EPA will propose a 
5 part per billion (ppb) standard for arsenic and take comment on a 3 
ppb and 10 ppb standard. Has EPA completed all the arsenic research 
which was designed as a ``high priority'' under the arsenic research 
plan?
    Answer 10D: As shown in Table 10-1, EPA has completed or will soon 
complete each of the high priority, short-term research projects in the 
Research Plan for Arsenic in Drinking Water. These studies represent a 
broad range of activities in the areas of arsenic health effects, 
exposure, risk assessment and risk management. Some of these studies 
have provided information that directly supports the current standard 
development process, while others have made significant progress in 
addressing longer term research needs. The studies conducted by EPA 
investigators, collaborators and grant recipients compliment the 
efforts of scientists worldwide to improve our ability to assess and 
control the risks posed by exposure to arsenic in drinking water.

 Table 10-1. Short-Term, High Priority Research Projects in the Research
                   Plan for Arsenic in Drinking Water
------------------------------------------------------------------------
               Project Title                           Status
------------------------------------------------------------------------
Effects Task 1a. Feasibility study on       Completed.
 important health endpoints (Utah).
Effects Task 1b. Directed epidemiology      Collaborations underway,
 study--ongoing collaborations (China,       with results available
 Chile).                                     beginning in FY 2000
Effects Task 2a. Develop biomarkers         Completed urinary biomarker
 (urinary metabolic profiles).               study in Utah population,
                                             and several studies of
                                             arsenic metabolites in
                                             animals. Linked to long-
                                             term effort.
Effects Task 3a. Factors that affect human  Completed several studies of
 susceptibility.                             the effect of micronutrient
                                             status on arsenic
                                             metabolism and toxicity.
                                             Linked to long-term effort.
Exposure Task 1a. Evaluate analytical       Completed.
 techniques for inorganic As(III) and
 As(V) speciation in water.
Exposure Task 1b. Evaluate sample           Research completed,
 preservation techniques for arsenic         manuscript in preparation.
 species.
Exposure Task 3a. Refine and evaluate an    Research completed,
 analytical approach to separate As(III),    manuscript in preparation.
 As(V), MMA, DMA and arsenobetaine in
 urine.
Exposure Task 6a. Development of a          Completed.
 national data base on concentrations in
 water.
Risk Assessment Task 1a. Mode of action     Completed
 workshop.
Risk Assessment Task 1b. Synthesis of       Completed
 existing and new data to support arsenic
 risk assessment and risk characterization.
Risk Management Task 1a. Conduct            Research completed,
 laboratory and field tests on arsenic       manuscript in preparation
 control technologies, including As(III)
 oxidation.
Risk Management Task 3a. Conduct studies    Research completed,
 on the arsenic characteristics of the       manuscript in preparation
 residual material generated by testing in
 RM 1a.
------------------------------------------------------------------------

    Question 11A: The proposed radon drinking water regulations 
proposes a primary radon Maximum Contaminant Level (MCL) of 300 
picocuries per liter (pCi/L) and an alternate standard of 4,000 
picocuries per liter if a multi-media mitigation plan is adopted. How 
many states plan to adopt a multi-media mitigation plan?
    Answer 11A: EPA expects the majority of states will choose the 
multimedia option as both the most cost-effective and protective of 
public health. Preliminary information from a variety of state sources 
indicates that, to date, about 35 states plan to adopt multimedia 
mitigation (MMM) programs and the alternative MCL of 4000 pCi/L. States 
have the flexibility to select either the MCL or the MMM/alternative 
MCL option, under the framework provided by the Safe Drinking Water Act 
and the radon proposal. EPA has encouraged states to seriously consider 
adopting the MMM option as the most effective approach to reducing 
radon public health risk.
    Question 11B: What happens if a majority of states don't adopt such 
multi-media plans?
    Answer 11B: According to the Safe Drinking Water Act's provision on 
radon and the proposed regulation, if a state chooses not to develop a 
multimedia mitigation (MMM) program, then individual water systems in 
that state would be required to either reduce radon in their system's 
drinking water to the maximum contaminant level (MCL) or could choose 
to develop individual, local MMM programs and reduce levels in drinking 
water to the alternative MCL. The proposed rule provides specific 
information and guidance for small systems that may choose to develop 
local MMM programs. However, as noted above, we believe it is far more 
cost effective to develop and implement state-wide MMM programs, in 
which case the utilities in the state would only be required to meet 
the less stringent alternative MCL.
    The Administration's statement concerning the Leaking Underground 
Storage Tank (LUST) program made no mention of methyl tertiary butyl 
ether (MTBE) contamination of drinking water supplies.
    Question 12: Please provide the Committee with a specific breakdown 
of all proposed safe drinking water research for Fiscal Year 2001. 
Please include a description of each research project, where such 
research is being conducted, the principal investigations for each 
research project, and the target date for completion of such research. 
Please provide the same data for Fiscal Years 1999 and 2000.
    Answer 12: Drinking water research projects conducted or supported 
by EPA with FY 1999 and FY 2000 funds are described in Table 12-1. This 
table includes the requested information on projects that are 
identified in the research plans for Microbials/Disinfection By-
Products (DBPs), Arsenic and the Contaminant Candidate List (draft). 
Drinking water research supported under the Agency's extramural 
research grant program is included in this table in instances where 
formal awards have been made to date.
    Detailed project-level information associated with FY 2001 drinking 
water research will be formulated later this year as part of the 
Agency's FY 2001 Operating Plan development. However, the areas of 
research that will be emphasized in FY 2001 can be described. 
Implementation of the research requirements in Sec. 1458(a-d) and Sec. 
109 of Safe Drinking Water Act (SDWA) will require a broad range of 
studies in the areas of health effects, exposure, risk assessment and 
risk management. This will include a special focus on chemicals and 
microbes on the Contaminant Candidate List (CCL), sensitive 
subpopulations, waterborne disease occurrence studies, treatment 
technologies and distribution systems, and remaining issues for DBPs 
and arsenic. Attachment12-1 provides a summary of these FY 2001 studies 
in the context of the SDWA research provisions.
    Question 13: The September 1999 GAO report which examined safe 
drinking water research programs made a number of recommendations. What 
has EPA done in the last six months to implement each recommendation? 
What specifically has EPA done to improve the transparency of the 
budget development process and the effectiveness of the system used to 
track safe drinking water research?
    Answer 13: The Agency has made considerable progress in the last 
six months to address the recommendations in the 1999 GAO report. The 
specific actions taken by EPA are described below:
1. Transparency of the Budget Development Process
    1-1. Identify the specific research that must be accomplished.
    EPA has completed an internal review of the draft Contaminant 
Candidate List (CCL) Research Plan that will soon be reviewed by the 
Science Advisory Board (SAB). We have initiated the development of a 
Comprehensive Drinking Water Research Strategy that will describe 
research needs and priorities to support near and long-term regulatory 
issues. Steps have also been taken to ensure that the drinking water 
community will have ample opportunity to become informed about and 
provide input into the CCL Research Plan and Comprehensive Research 
Strategy. EPA is in the process of establishing a research subcommittee 
under the National Drinking Water Advisory Council (NDWAC). In 
addition, the Office of Research and Development (ORD) has initiated a 
series of quarterly meetings with representatives from the drinking 
water community to discuss research plans, activities, and resource 
issues.
    1-2. Establish time frames that indicate when the results must be 
available.
    1-3. Estimate the resources that will be required to support the 
needed research.
    1-4. Use these data to develop budget requests and inform 
stakeholders of what research will be conducted.
    As part of the Agency's annual planning and budget process, ORD 
works with EPA's Program and Regional Offices to allocate funds across 
various research programs. The starting point in this process is input 
from many sources, including:

<bullet> EPA's Strategic Plan;
<bullet> ORD's Strategic Planning--ORD's Strategic Plan and peer-
        reviewed Research Plans;
<bullet> Customer and User Needs--Input from EPA's Program and Regional 
        Offices and Federal research partners; and
<bullet> Outside Peer Advice--e.g., the NAS National Research Council, 
        the EPA Science Advisory Board.
    This information is then used to develop annual research priorities 
through a process that involves Research Coordination Teams (RCT). The 
RCTs include ORD, Program, and Regional Office staff.
    In addition, ORD has been working closely with the Office of Water 
(OW) over the past six months to examine research needs, resource 
requirements and time frames for when results must be available to 
support future regulatory activities. These analyses have been 
conducted during recent research planning meetings for FY 2001 and in 
the development of the CCL research plan. An internal CCL research 
implementation workgroup is in the process of being formed to ensure 
that the actual time frames and sequencing of CCL research are 
appropriately established and reviewed periodically. This effort will 
provide a valuable source of information for stakeholders on EPA 
research activities, as will the upcoming meetings with the drinking 
water community during the development of the Comprehensive Research 
Strategy.
2. Tracking and Communication of Research
    2-1. Improve the tracking of ongoing research in relation to 
existing research plans.
    EPA is evaluating the feasibility of using a new information 
management system for tracking drinking water research in relation to 
existing research plans. This internet-based system will allow 
individuals from inside and outside the Agency to easily access 
information on drinking water research projects and products. A pilot 
of the drinking water tracking system will be available this summer. 
This pilot will be used as a basis for evaluating the utility and 
feasibility of developing an expanded version that includes all 
drinking water research.
    2-2. Improve the communication of the Agency's progress so that 
ORD's key customers, including the Office of Water and outside 
stakeholders, can obtain timely and accurate reports on the status, 
timing, and funding of individual research projects.
    ORD is committed to sharing information on its research activities 
with internal and external customers in a timely and accurate manner. 
Opportunities are being provided for stakeholders to be involved during 
the initial stages of the development of new research plans and 
strategies (e.g., through the formation of an NDWAC research 
subcommittee). Furthermore, this involvement is expected to continue 
through the research implementation phase as well. Information-sharing 
meetings are being held with the drinking water community on a regular 
basis, and improvements are being made to the research tracking system. 
Collectively, these efforts will allow stakeholders to become more 
informed about the status, timing and funding of ORD's research 
activities.
    Question 14: Last year, GAO testified that it could not determine 
whether EPA was or was not conducting adequate research to implement 
the 1996 Safe Drinking Water Amendments. What changes have been made by 
EPA to date which would change this assessment by GAO?
    Answer 14: The adequacy of the research to implement the 1996 SDWA 
Amendments can be assessed by a consideration of the comprehensiveness, 
responsiveness and timeliness of the drinking water research program 
(see response to Question #12), and by the steps that are being taken 
to improve the transparency of the planning and budget process and 
communicating the extent and detail of the research (see response to 
Question #13). As the new CCL Research Plan and the Comprehensive 
Drinking Water Research Strategy are developed, and as the improvements 
described above are fully implemented, an assessment of the adequacy of 
the research should be greatly facilitated.
    Question 15: For a number of years, EPA has routinely set aside 
portions of the funds Congress appropriates for state and local air 
grants (Section 105 of the Clean Air Act) for activities that should be 
funded through EPA's own budget. Examples of activities that have been 
paid for with Section 105 grants in recent years include: 1) training 
activities that are an EPA responsibility and that used to be funded 
from EPA's budget; 2) an ongoing project to improve emissions 
inventories (the Emissions Inventory Improvement Program); and, 3) from 
the current proposed budget, a study on heavy-duty truck and bus idling 
and hoteling. Does EPA believe it is appropriate to take money Congress 
has specifically earmarked for grants to State and local air pollution 
control agencies and use it to pay for other activities? Prior to this 
diversion, what analysis did EPA perform which indicated that such 
spending provided more protection of human health and the environment?
    Answer 15: It is EPA's policy to target STAG funds only for the 
direct benefit of the eligible agencies, to conduct essential 
activities at the most appropriate level of jurisdiction, and to 
minimize national set-asides. Each year EPA consults with state and 
local agencies on what STAG funds it targets for associated national 
program support. Associated program support includes those activities 
which directly benefit state and local agencies but for reasons of cost 
savings, administrative convenience, or more effective 
intergovernmental coordination, are centrally administered by the 
Agency. In FY 2000, these activities comprised about 6% of the total 
section 105 portion of the STAG appropriation.
    In FY 2000, associated program support activity included: Agency 
administration of an emissions allowance and trading system at the 
request of the states in the ozone transport region; a grant for the 
operation of the Secretariat which represents the national interests of 
the state and local air agency administrators at their request; support 
for the operation of the national visibility monitoring network which 
would otherwise have to be undertaken by individual states; cost-saving 
central procurement of monitoring equipment and accessories at the 
request of the states; delivery of a full range of air quality training 
for the direct benefit of state and local air agency professionals; 
and, under the joint direction of a joint State-EPA steering committee, 
conduct of an emission inventory improvement program providing 
information fundamental to the preparation, implementation and 
assessment of effective air pollution control strategies.
    In specific response to the examples cited:

--Grant funds continue to be targeted to support the Air Pollution 
        Training Institute since Congress first directed an earmark to 
        EPA's state grant funds in FY 1989 to underscore the importance 
        of providing centralized training to help implement the Clean 
        Air Act. A joint State-local/EPA steering committee helps 
        direct the activities of the APTI and each year registers 
        strong support for its continuation.
--A cornerstone of an effective air pollution control program is the 
        development and maintenance of a sound emission inventory. In 
        1993, EPA and the state and local air agencies (through STAPPA-
        ALAPCO) jointly agreed to initiate a multi-year, comprehensive 
        emission inventory improvement program designed to inform and 
        improve the work of all agencies, and to do so using STAG 
        resources. The first phase of this effort was recently 
        completed and EPA once again sought state and local input on 
        the merits of continuing this effort. At the winter 1999 
        STAPPA-ALAPCO meeting, state and local representatives again 
        voted to continue this joint effort with EPA using STAG 
        resources while focusing on a new generation of emerging 
        emission inventory issues (i.e., air toxics, fine 
        particulates).
--In a similar effort, for the last two years EPA has sought 
        competitive proposals from state and local air agencies to fund 
        projects which generate more reliable local emission factor 
        data from largely undefined mobile source categories. The 
        information is to be transferable to other state and local 
        agencies and provides valuable input for national emission 
        models used by all agencies in their plan implementation and 
        control strategy development.
    It is EPA's view that the use of these funds is consistent with 
Congress' intent that STAG funds be used solely for the benefit of 
state and local agencies. These activities are essential for the 
effective implementation of the Clean Air Act and the benefits these 
activities provide might not otherwise be achieved if the funds were 
directed differently.
    Question 16A: What is the current amount in the LUST Trust Fund?
    Answer 16A: As of September 30, 1999, the balance in the LUST Trust 
Fund was approximately $1.3 billion.
    Question 16B: Did EPA request the annual available amount in the 
LUST Trust Fund for FY 2001? If not, why not?
    Answer 16B: No. EPA did not request the available balance in the 
LUST Trust Fund. The President's budget request reflects the need to 
balance environmental priorities and to stay within budget targets.
    Question 16C: How much of the LUST funds actually get to the States 
for cleanup?
    Answer 16C: Approximately $58.1 million of EPA's LUST Appropriation 
goes directly to the states in the form of cooperative agreements. 
States use the LUST Trust Fund to pay for staff to oversee and enforce 
cleanups, to pay for cleanups where the owner/operator is unknown, 
unwilling or unable, and in emergency situations. About one-third of 
the LUST funds provided to states is used for site assessments and 
cleanups. Approximately 40 states have state UST cleanup funds which 
raise and expend over $1 billion annually. This is the major source of 
site assessment and cleanup funds nationwide.
    Question 16D: Please indicate how EPA currently prioritizes the 
expenditure of LUST funds.
    Answer 16D: Most (approximately 85%) of EPA's LUST Trust Fund is 
provided directly to states and for tribes. The remaining 15% of the 
LUST Trust Fund appropriation is used by EPA for a variety of 
activities. For example, EPA provides technical assistance and training 
to the states and tribes on many issues, including expedited site 
assessment, free product recovery, and innovative remediation 
technologies. EPA also uses its funding to fulfill its responsibility 
for implementing the LUST program in Indian Country.
    Question 17: In connection with a September 1990 GAO report 
requested by Rep. Dingell on the implications of the WEPCO rule, EPA 
told GAO that, ``WEPCO's life extension project is not typical of the 
majority of utilities' life extension projects, and concerns that the 
agency will broadly apply the ruling it applied to WEPCo's project are 
unfounded.'' Has EPA's policy changed toward these utility maintenance 
projects?
    Answer 17: EPA has not changed its policy with respect to NSR 
applicability and utilities. Moreover, the cited document does not 
support such a conclusion. By its terms, the Clean Air Act modification 
provision applies to any physical change or change in the method of 
operation at a source that results in an emissions increase. EPA 
regulations, however, have always excluded ``routine maintenance, 
repair, and replacement'' activities undertaken at an existing source 
from triggering the requirements of the major New Source Review 
(NSR)and New Source Performance Standards (NSPS) programs. In 
discerning whether a change is routine repair, maintenance or 
replacement, the source owner and permit reviewer should consider the 
nature, extent, and purpose of the change, the frequency with which 
such a change is performed, its cost, and other relevant factors. Both 
historically and currently EPA has consistently based its determination 
about whether a particular maintenance activity is routine on the 
factors described. These factors were confirmed by the court in 
Wisconsin Electric Power Co. v. Reilly, 893 F.2d 901, 908-09 (7th Cir. 
1990).
    The GAO report contains a number of statements that suggest that 
EPA did not expect many utilities to trigger the NSPS or NSR 
modification rules. These statements reflect EPA's understanding about 
whether NSR likely would be triggered by electric utilities based upon 
information provided by industry at that time. These statements do not 
reflect how broadly or narrowly the exclusion for routine activity 
would be interpreted. In addition, it is important to note that the NSR 
regulations provide broad leeway to avoid new source requirements for 
those sources undertaking even extensive, non-excluded physical or 
operational changes that, standing alone, would result in significant 
emissions increases. This is readily accomplished through appropriate 
permit conditions which ensure that the source's post-change emissions 
do not increase by a significant amount. In many circumstances, such 
``netting out'' of review is a more cost-effective strategy than 
obtaining an NSR permit, and this strategy has been widely used for the 
last two decades in many industries.
    It is the power plant undertaking a physical or operational change 
that is responsible for obtaining the necessary regulatory approvals 
from each agency that regulates it. State and Federal environmental 
agencies do not regularly review submissions to Public Utility 
Commissions, the Federal Energy Regulatory Commission, a pipeline 
authority or a local zoning board; nor are those agencies charged with 
the authority to require Clean Air Act permits. Unfortunately, it 
appears that few, if any, power plants informed their respective 
permitting authority that the types of physical or operational changes 
taking place at their facilities could increase emissions and therefore 
trigger NSR. Although EPA's statements were reasonable based on the 
information EPA had at the time, with more complete information, 
including information made available by facilities requesting 
applicability determinations, EPA's statements might have been 
different given the facts associated with a particular project.
    Question 18: EPA assumed a life span of 55 to 65 years (including 
refurbishment activities) for utilities in the analysis it used to 
justify the 1990 Acid Rain program to Congress. Does EPA agree or 
disagree with that statement?
    Answer 18: In July 1990, EPA prepared a draft document analyzing 
the House and Senate Clean Air Act legislation. This draft document, 
entitled ``Comparison of the Economic Impacts of the Acid Rain 
Provisions of Senate Bill (S.1630) and House Bill (S.1630),'' contains 
detailed base case assumptions that specify a fossil fuel fired power 
plant life of 55 to 65 years (45 years for plants smaller than 50 MW). 
The document does not indicate what assumptions, if any, were made 
regarding maintenance or refurbishment activities.
    Question 19: The Superfund appropriation for the current fiscal 
year (FY 2000) is $1.4 billion, which goes for response, enforcement, 
management and support and research. Using this obligational authority, 
the Agency has consistently indicated that it will meet its goal of 85 
construction completions for FY 2000. Is the Agency on track to meet 
that projection, if not, why not?
    Answer 19: The Agency remains firmly committed to meeting the 
target of 85 construction completions. However, Superfund construction 
project schedules can be affected by many factors including the 
following:

<bullet> Unforeseen Buried Hazardous Waste Discoveries
<bullet> Weather-Related Delays
<bullet> Property Access Issues
<bullet> Construction Contract Disputes
<bullet> Material Shipment Delays
    As EPA directly manages only those cleanups that are ``fund-lead'', 
there are approximately 70% of Superfund cleanups managed by 
potentially responsible parties (PRPs), as well as other Federal 
agencies and States which EPA has less control over project completion.
    Question 20: In 1993, EPA promulgated the Corrective Active 
Management (CAMU) rule to exempt certain hazardous waste site cleanups 
from provisions of the Resource Conservation and Recovery Act that 
would otherwise have imposed unreasonable requirements on them. Now, in 
response to a lawsuit from environmental groups challenging the 1993 
rule, EPA is proposing changes that would impose more burdensome 
procedures on cleanup projects.
    (A) Please describe any instances where the 1993 rule has been a 
problem for cleanups, or has hurt public health or the environment?
    Answer 20A: EPA has not conducted an analysis of instances where 
the 1993 CAMU rule has been a problem for cleanups or has hurt public 
health or the environment, but the Agency is not at this point aware of 
any such instances. EPA does, however, believe that the settlement 
approach is appropriate, given the circumstances of the lawsuit. It 
will reduce the litigation cloud over the CAMU rule, and should provide 
for approaches that are reasonable for the management of hazardous 
cleanup wastes in CAMUs and consistent with EPA's remedial programs.
    Question 20B: Chairman Oxley and Mr. Towns have introduced 
legislation to make RCRA more flexible for State and Brownfields 
cleanups. In addition more than 20 members of Congress wrote the Agency 
encouraging it not to reduce the flexibility of the CAMU rule. As I 
understand it, the State agencies and the cleanup contractors do not 
like this change. Has EPA done an assessment of how much this change 
will cost at state and Federal cleanups, and if so, please provide that 
analysis?
    Answer 20B: As part of the regulatory development process, EPA is 
currently developing an assessment of any incremental impacts that 
would be caused by the proposed amendments to the rule, including any 
estimated cost impacts to state and Federal cleanups. This assessment 
will be summarized in the proposal and will be available for public 
scrutiny in the rulemaking docket.
    Question 21A: In 1997, EPA awarded 23 BCRLF pilots for more than $8 
million ($350,000 each). In 1999, EPA awarded an additional 45 pilots, 
representing 65 communities for $30.6 million (each community was 
eligible for up to $500,000). Now, EPA want to expand this program by 
awarding an additional 70 pilots.
    Question 21A: How many loans have been made under the Brownfields 
Cleanup and Revolving Loan Fund Program that EPA created in 1997? 
Please identify the amount of each loan that has been made.
    Answer 21A: Three loans have now been made by BCRLF pilots. 
Stamford, CT, has made 2 loans using the BCRLF. The first Stamford loan 
was for $250,000. The second Stamford loan was for $160,000. Las Vegas, 
NV, made its first loan on November 17, 1999, for $50,000. The total of 
these three loans is $460,000.
    Question 21B: How much money has been spent by the pilots on 
administrative and other non-cleanup costs?
    Answer 21B: EPA places a non-cleanup related restriction on the use 
of BCRLF pilot funds that limits BCRLF pilots to the use of up to 15 
percent of the total award to cover a cooperative agreement recipient's 
administrative costs.
    Question 21C: How many properties have been cleaned up to date as a 
result of the Brownfields Cleanup and Revolving Loan Fund Program?
    Answer 21C: One property in Las Vegas has been cleaned up. Cleanup 
at the Pacific/Garden Street site in Stamford, Connecticut, is in 
progress. Cleanup under the other Stamford loan will start soon.
    Question 21D: Have any loans been made from the original 1997 
pilots? Please explain this number.
    Answer 21D: None of the original 1997 pilots have made loans. 
Although EPA awards the BCRLF through cooperative agreements, the day-
to-day operations and activities relating to loan applications are the 
responsibility of the BCRLF recipient. Prior to making a loan, pilots 
must develop the infrastructure necessary to ensure that loans will be 
in compliance with Comprehensive Environmental Response, Compensation 
and Liability Act (CERCLA); the National Contingency Plan (NCP); and 
cross-cutting Federal authorities. Many of the original 23 BCRLF pilots 
awarded at the end of FY 1997 cite turnover in key city personnel, 
combined with the newness of the program, as the basis for the delay. 
Additionally, the original 23 pilots were awarded prior to the 
development of EPA's BCRLF Administrative Manual, which details the 
appropriate infrastructure to sustain, account, and report on loans and 
cleanup.
    In addition, EPA headquarters has sent a memorandum and letter to 
each EPA Regional office. EPA has committed to working with BCRLF 
pilots to help them create viable programs in their communities. To 
that end, we have already held a BCRLF Pilot-to-Pilot Session in 
Dallas, TX, immediately preceding the Brownfields ``99 conference and 
are exploring options to make the program more flexible under the 
existing statute and regulations. In addition, we have prepared a 
letter which was sent by the regions to each of the 23 1997 pilots. The 
letter expresses EPA's concern with the apparent lack of progress that 
has been made in the initial round of BCRLF pilots. The letter 
encourages each pilot to take prompt action to carry out its 
responsibilities under cooperative agreement to operate a Brownfields 
Cleanup Revolving Loan Fund (BCRLF). The letter also informs pilots 
that under the terms of cooperative agreement, they are obligated to 
make loans within three years of the date of the award, and may be 
subject to actions to terminate the agreement, among other things, 
should the pilot fail to do so.
    Question 22: Dr. Coburn asked several questions at the hearing with 
respect to Tar Creek, a Superfund site of abandoned lead mines in a 40 
square mile area of Ottawa County, OK. EPA contracted with the Corps of 
Engineers, who then in turn contracted with Morrison Knudsen (MK) to 
remediate Tar Creek. Over the course of the project, this work caused 
significant new flooding, molding, and drainage problems for some of 
the homes. In addition, I understand that a fraud investigation by the 
Defense Criminal Investigative Service has been initiated.
    Question 22A: Does EPA plan to fix the flooding and drainage 
problems that are now damaging area homes?
    Answer 22A: Yes, EPA has addressed and is continuing to address 
drainage problems incidental to the remedial action. The site has 
historically had flooding and drainage problems. The communities 
surrounding the site are located in a flood plain and have been, and 
continue to be, severely impacted during periods of heavy rainfall (as 
was the case during record rainfalls in May and June 1999).
    EPA has instituted several special actions because of the 
conditions that exist at the site, such as a unique policy that deals 
with larger properties greater than 20,000 square feet that have 
complicated drainage patterns, a set of contingency plans to deal with 
seasonal weather changes, and procedures to reduce damage to 
homeowner's utility connections.
    EPA has also modified the composition of the backfill from topsoil 
only to a clay-topsoil mix that, according the Corps of Engineers, 
would minimize uneven compaction, settling and drainage problems.
    Flooding and drainage issues are also being addressed and studied 
from a regional perspective by the Governor's Tar Creek Superfund Task 
Force's ``Drainage/Flooding Subcommittee,'' which was formed in January 
2000. Flooding and drainage is recognized as a regional problem for 
Ottawa County and the task force will make recommendations to the 
Governor on these issues.
    Question 22B: Does the Agency plan to expand the project using the 
contractor that has been doing work to date?
    Answer 22B: No. EPA's prime contractor, the U.S. Army Corps of 
Engineers (USACE), will complete their current contractual obligations 
(the remediation of 1,300 residential properties) with the EPA in June 
2000. USACE has decided not to extend the current contract to remediate 
600 to 800 additional properties discovered after issuance of the 
Record of Decision for the Site.
    EPA is currently preparing a Remedial Design Statement of Work (RD 
SOW) to be issued to one of two contractors as part of the Response 
Action Contracts program. The RD SOW will enable the contractor to 
solicit new subcontractors to perform the remedial action work. Once 
funding is secured, EPA will issue a SOW for the Remedial Action to 
complete the remaining residential soil cleanup.
    Question 22C: Please describe any changes to its management and 
oversight of this project that EPA intends to implement as a result of 
concerns that have been identified.
    Answer 22C: Since the Criminal Investigation, EPA has taken several 
management steps. EPA asked the Corps of Engineers to conduct an 
internal audit. The results of the audit showed that the Corps of 
Engineers should closely monitor the labor and equipment uses of its 
contractors. In response, the Corps of Engineers provided a 
``contracting expert'' in the field to minimize contractual ``red 
tape'' at the site.
    In addition, EPA conducted an ``internal efficiency review'' to 
reevaluate overall project management. Two Remedial Project Managers 
(RPMs) have been assigned responsibility for the management of the 
Site. One RPM is responsible for the residential lead cleanup (e.g., 
excavation of lead-contaminated soils and backfilling with clean soils) 
and the other is responsible for all other activities associated with 
the Site. This change will provide continuity to the construction phase 
of the project. Prior to the internal review, three RPMs were rotating 
assignments on a weekly basis to the site.
    The RPMs from EPA Region 6 also met with RPMs from EPA Region 7 
because of their cleanup experience in Joplin, MO. Although many 
differences exist between these sites, discussions were held regarding 
site procedures, equipment, and contractor personnel. One improvement 
at Tar Creek resulting from these discussions was a better use of site 
equipment.
    RPMs and EPA managers are also participating in quarterly 
stakeholder meetings and monthly meetings of the Governor's Tar Creek 
Superfund Task Force in order to stay informed of the issues of concern 
at the site.
    EPA has also made several management changes in response to 
specific resident concerns. Some of these concerns are summarized as 
follows:

<bullet> EPA met with the Ottawa County Commissioner to develop an 
        agreement to repair county roads damaged by trucks hauling for 
        the project; and
<bullet> EPA managers from several offices met to review the progress 
        of the performance based contracting approach being used in the 
        residential areas and suggested ways to reduce contracting 
        disagreements quickly.
    Question 23A: Registration of new pesticides is important to ensure 
that farmers and other users can continue to effectively control pests 
that threaten crops and public health, especially since FQPA reviews 
have resulted in cancellations of uses for several widely-used pest 
products. I understand that EPA plans to make registration decisions on 
19 new pesticides this year, compared to 26 in 1999 and 27 in 1998, 
despite an 11% increase in the Registration Division's budget as 
requested by the Administration for FY 2000. (A) Why is productivity 
going down when funding is going up?
    Answer 23A: Because the new chemical review process is 18 to 24 
months, resource levels in one year affect the next year's outputs. 
Therefore, increases in resources for pesticide registration activities 
can take up to two years to result in increased outputs.
    However, it is important to note that productivity is dependent 
upon factors other than funding. The additional human health and 
environmental protections mandated by FQPA has generally increased the 
time it takes to register new pesticides. For example, case-by-case 
application of new, cutting-edge science policies, and increased 
outreach efforts to stakeholders, are factors that are challenging the 
Agency as it attempts to process pesticide application expeditiously.
    In addition, increased regulatory scrutiny of inert ingredients, 
and the requirement that EPA set tolerances for pesticides used under 
Section 18 (emergency exemption) of the Federal Insecticide, Fungicide 
and Rodenticide Act, have impacted the registration program. EPA 
typically processes hundreds of Sections 18s per year, with a 
turnaround time of two months or so.
    Also, the number of some outputs are not within the Agency's 
control. For example, the number of Section 18s processed are dependent 
on field conditions, which change from year to year. Also, EPA's 
Registration Division and Antimicrobials Division eliminated the 
amendments backlog in 1999. Now, those Divisions process the number of 
amendments that come in each year. The amendment submission rate has 
declined. As the backlog has been eliminated, fewer amendments are 
pending in queue for decision-making.
    EPA agrees that the registration of new pesticides is important to 
ensure that farmers and other users can effectively control pests and 
protect public health, and will continue to work hard to ensure that 
new, alternative pesticides are readily available.
    Question 23B: EPA's FY 2001 Budget Request contains a 14% increase 
for EPA's pesticide registration program. How many new pesticide 
registration decisions does EPA expect to complete in FY 2001, and how 
many of those are for conventional pesticides meeting EPA's safety 
standards?
    Answer 23B: EPA expects to complete registration decisions for a 
total of 24 pesticide products in 2001: 17 reduced-risk and biological 
pesticides, and 7 non-reduced-risk and antimicrobial pesticides.
    Question 24: EPA's August 1999 action resulting in the cancellation 
of certain uses of azinphos methyl and methyl parathion, two products 
widely used as an insecticide by apple growers, has resulted in the 
creation of a significant quantity of food in the food pipeline that 
contains residues from the canceled uses of those two products. The 
continued presence of an official tolerance on those food crops 
provides protection to those foods from being designated as 
``adulterated.'' Does the Agency intend to leave these tolerances in 
place until the food pipeline clears of these foods that contained 
legal residues prior to the EPA decision? How does EPA intend to handle 
this matter and when does it anticipate making a decision?
    Answer 24: FQPA requires that EPA revoke the tolerances on those 
crops with canceled uses 180 days after the last day of legal use. EPA 
would take such action only through notice and comment rulemaking, 
giving commenters an opportunity to demonstrate a continuing need for 
the tolerance to cover imports.
    After a tolerance has been revoked, legally treated food may 
continue to move through the channels of trade under the so-called 
``safe harbor'' provision. Section 408(l)(5) of FFDCA, established by 
FQPA, generally allows commodities bearing residues of a canceled 
pesticide to move through commerce, provided that the commodities were 
lawfully treated with the pesticide while the tolerance was still in 
effect and the residue level on the commodity is no greater than that 
allowed under the tolerance.
    Consistent with our belief that Congress did not intend that the 
safe harbor provision provide market advantage to either foreign or 
domestic growers, EPA reads FFDCA Section 408(l)(5) such that foreign 
growers must cease application at the same time as domestic growers in 
order to qualify for safe harbor.
    The Agency will shortly propose to revoke or amend the existing 
tolerances for methyl parathion, and will seek comment on this 
proposal. The guidance supports the general safe harbor position that 
if the food was legally treated, the food remains safe for its 
lifetime. The Food and Drug Administration (FDA) in a related notice in 
the Federal Register will be announcing the availability of a proposed 
guidance document presenting FDA's policy on its planned enforcement 
approach for foods containing methyl parathion residues. This guidance 
will assist firms in understanding the types of showing under 408(1)(5) 
of the FFDCA (hereinafter referred to as the ``channels of trade 
provision'') that FDA may find satisfactory in accordance with its 
planned enforcement approach for such section.
    Monitoring and enforcement of pesticide tolerances and exemptions 
are carried out by the FDA and the USDA. This includes monitoring for 
pesticide residues in or on commodities imported into the United 
States. We have worked closely with both FDA and USDA in developing the 
proposed tolerance revocation notice.
    Also, the Agency will publish a final rule very shortly revoking 
and lowering certain tolerances for azinphos methyl, including those 
for which there are no longer registered uses, one for a crop that is 
no longer a significant animal feed item, and one for which studies 
show no concentration in the processed commodity.
    Question 25: One of the more significant issues EPA faces as it 
restricts uses of widely used products based on the FQPA tolerance 
reassessment process is the extent to which there are available 
substitute products that provide equivalent or better efficacy, while 
presenting reduced health concerns. Because of the current backlog on 
pending registration requests, many new products may be years away from 
being approved by EPA as substitute products. What is the Agency doing 
to address the problem of the backlog?
    Answer 25: To address the availability of substitutes needed as a 
result of tolerance reassessment decisions, EPA has made the review of 
reduced-risk and OP alternative pesticides one of its top registration 
priorities. Once received and classified, applications for these 
chemicals to the top of the registration queue. Based on recent 
statistics, these reviews and decisions are completed in about half the 
time they would have taken had the Agency not expedited the review.
    We currently have about 45 new chemicals pending in-house. We 
expect to complete registration decisions on approximately 10 more of 
these chemicals this fiscal year, leaving 35 for review. Another 13 to 
14 should be completed during FY 2001, leaving approximately 21 in-
house. Of these, however, 2 are organophosphates and one is a 
carbamate, and, therefore, they are unlikely to be registered in the 
near term because of risk concerns for these chemical classes. Thus, 
only 18 new chemicals remain in backlog. A recent industry evaluation 
showed that over the past 15 years, the average review time for new 
active ingredient registrations has decreased by over 80 percent since 
1984.
    The Registration Division's FY 2000 Workplan, which shows the new 
chemical, new uses, and inert ingredient decisions, can be found on the 
EPA internet site at: http://www.epa.gov/opprd001/workplan/
    Question 26: I understand that EPA is currently preparing to issue 
a revised risk assessment under the FQPA tolerance reassessment process 
for a widely used termite control product--chlorpyrifos--that may 
result in the Agency taking action to restrict its residential use. 
What is the status of EPA's review of this termiticide and when does 
the Agency expect to take action? What impact does EPA believe this 
will have on the availability of effective products to combat termites 
in the residential markets?
    Answer 26: EPA released the preliminary risk assessment for public 
comment for chlorpyrifos on October 27, 1999. This preliminary 
assessment identified risks of concern for residential uses. Over 4,000 
comments were received. On June 8, 2000, EPA released the revised risk 
assessment and announced an agreement with registrants to phase out/
eliminate certain uses of chlorpyrifos. These actions are in accordance 
with the organophosphate pilot public participation process. EPA is 
soliciting public comments on further risk management options for this 
widely used pesticide.
    The agreement will expeditiously address food uses posing the 
greatest risks to children. It decreases the use of chlorpyrifos on 
apples, cancels the use on tomatoes, and lowers allowable tolerance 
levels for apples and grapes. These actions will reduce acute dietary 
risk by 75 percent, effectively eliminating dietary risk concerns for 
children and others.
    The agreement will also cancel and phase out nearly all indoor and 
outdoor residential uses. It effectively eliminates the use of 
chlorpyrifos by homeowners, limiting use to certified, professional, or 
agricultural applicators. Those uses that pose the most immediate risks 
to children, including home lawn, indoor crack and crevice treatments, 
and whole house ``post-construction'' termiticide treatments, will be 
canceled first. Spot and local post-construction and pre-construction 
termiticide uses will be phased out over the next several years. 
Besides chlorpyrifos, many other pesticides are available for 
termiticide use, including: permethrin, cypermethrin, imidacloprid, 
fipronil, bifenthrin, esfenvalerate, deltamethrin, and cyfluthrin. 
These can be used to prevent termite infestation and to rid structures 
of existing termite infestations. Cost and efficacy may vary by 
structure type, soil type, and other environmental factors. In 
addition, several bait systems have been introduced in recent years. 
The pesticides used in these baits include: sulfluramid, hexaflumeron, 
diflubenzuron, and hydramethylnon. These systems can reduce overall 
insecticide use and environmental impact as well as increase worker and 
homeowner safety.
    Further, chlorpyrifos use in schools, parks, and other settings 
where children may be exposed will be canceled. Only use in some 
limited commercial settings, like warehouses, ship holds and railroad 
boxcars, may it continue. The agreement allows several other non-
agricultural uses to continue, with appropriate risk mitigation. Golf 
course applications, for example, may continue with application rates 
reduced by 75 percent. Low risk uses like containerized baits in child-
resistant packaging, and non-structural wood treatments such as 
treatments of utility poles and fenceposts, will not be affected by the 
agreement. It should be noted that one of EPA's top priorities is the 
expedited registration of substitutes to organophosphate pesticides.
    Question 27A: Over the next five years over 200 companies, through 
a voluntary commitment with EPA under the High Production Volume (HPV) 
Challenge program will be providing unprecedented amounts of data and 
health information to the Agency on over 2000 chemicals. This program 
has the potential to inundate EPA with more information than it has 
staff and resources to adequately manage.
    (A) Given the longstanding information management concerns 
identified by GAO over the past ten years at EPA, how does EPA plan to 
deal with the anticipated flood of data, and given how long it has 
traditionally taken the Agency to analyze such data, how does the 
Agency plan to analyze and make use of the information?
    Answer 27A: Resources for the information management systems needed 
to handle the HPV data have been included in both the FY 2000 operating 
plan and the President's FY 2001 Budget Request. Assuming that the 
requested resources are made available, we anticipate no problems in 
designing or modifying our data systems and data processing procedures 
to handle the increased workload.
    The screening level human health and environmental effects 
information being developed by industry sponsors under the High 
Production Volume (HPV) Challenge Program will be provided to the 
Agency in robust summary format, a format developed for the HPV 
Challenge Program and accepted for international data sharing by the 
Organization for Economic Cooperation and Development (OECD) in its HPV 
Screening Information Data Set (SIDS) Program. This information will be 
posted to the Internet for review and assessment by both Agency 
personnel and outside interested parties.
    Once this basic hazard information is available on a chemical, it 
may be used to provide a platform to begin to address the question, 
``how safe is this chemical?'' EPA has existing risk assessment 
guidelines to prepare profiles on and prioritize chemicals for risk 
assessment. It must be noted that the hazard information being provided 
through the HPV Challenge Program is screening level data intended only 
to support the initial stage of assessing chemical hazards. HPV data 
would not be sufficient on its own for the preparation of formal risk 
assessments; additional hazard data (e.g., carcinogenicity; neuro-
toxicity; etc.) and exposure data would be needed to conduct risk 
assessments. The resources requested for of the Chemical Right-to-Know 
Initiative will be fully encumbered in collecting, managing, and 
disseminating the limited hazard screening data and will not be used to 
develop formal risk assessments on any HPV chemicals.
    Using established risk assessment guidelines, EPA plans to use the 
toxicity data to produce plain English chemical information profiles, 
Chemical Advisory notices, website enhancements, and other information 
tools as appropriate on individual chemicals of concern. EPA will work 
with the Consumer Product Safety Commission, the Occupational Safety 
and Health Administration, and other agencies to distribute this 
information to workers, consumers, parents, teachers, community 
leaders, public interest groups, companies, and others. EPA intends to 
use the information and experience it has gained in other public safety 
and education projects to create and distribute simple and 
understandable messages to the public.
    In addition, by classifying chemicals as presenting high, medium, 
or low hazard concerns, the Agency may be able to explain to the public 
the hazards of a chemical in simple and practical terms. In the future, 
this could then be combined with exposure information (e.g., chemical 
use profiles and exposure scenarios relevant to the specifics of 
individual chemicals) to assess, at a screening level, the potential 
risks presented by the chemical to people or the environment in various 
defined circumstances--for example, to workers, to users of consumer 
products, or to the environment. The hazard of a chemical is generally 
seen as an ``intrinsic'' aspect of the chemical, whereas uses and 
exposures can change and be ``situational'' depending on the 
particulars of a given commercial application. For this reason, clear 
and concise hazard information may be useful outputs of HPV screening 
to the public.
    Question 27B: What additional resources does the Agency anticipate 
setting aside to conduct the data evaluations?
    Answer 27B: EPA realigned $1.3 million of its FY 1999 Enacted 
Operating Plan to initiate the Chemical Right-to-Know Initiative 
(CRtK). In FY 2000, the Operating Plan for the CRtK Initiative is $11.1 
million, with approximately $10 million directed at HPV chemicals and 
$1.1 million supporting the start-up of the program to address 
chemicals of special concern to children. EPA's FY 2001 President's 
Budget Request contains a $12.6 million request for the CRtK-HPV 
program. During the initial data collection phase of the HPV program, 
the bulk of these resources must be dedicated to managing and reviewing 
the incoming data. Public outreach efforts will include a dialogue with 
stakeholders to determine how they will use the data in order to 
identify the most appropriate formats, tools, and vehicles for 
effective public hazard communication.
    Question 28: For the public to have confidence in the results of 
the Endocrine Disruptor Screening Program (EDSP), mandated by the Food 
Quality Protection Act and the Safe Drinking Water Act, the screens and 
tests must be fully standardized and validated. Last year, Congress 
approved $12.7 million for endocrine research. EPA made some budget 
shifts, and the research account was reduced by about $5 million for FY 
2000. What is EPA's schedule for completing the validation and 
standardization of the screens and tests in the proposed Endocrine 
Disruptor Screening and Program? Is the Agency planning to propose a 
rule for the EDSP?
    Answer 28: The scientific screens and tests proposed for the 
Endocrine Disruptor Screening Program vary considerably in terms of 
their readiness for routine use in regulatory programs. Because many of 
the endocrine disruptor screens and tests involve cutting-edge science, 
few of them have actually undergone the standardization and validation 
requirements necessary for pesticide and chemical regulation. Many of 
the tests proposed for the screening program have been used in 
research, but have never been formally standardized or validated 
through inter-laboratory comparisons. Standardization and validation is 
essential to establish the relevance, reliability, and reproducibility 
of methods. Therefore, EPA will validate all test systems to ensure 
that the tests are reliable and reproducible before implementing the 
testing phase of the program.
    EPA formed a technical committee called the Endocrine Disruptor 
Standardization and Validation Task Force to provide the technical 
advice needed to develop, standardize, and validate the screens and 
tests proposed for the Endocrine Disruptor Screening Program. EPA is 
currently reconstituting the Task Force as an advisory committee under 
the Federal Advisory Committee Act. This does not affect the progress 
of the technical work, which is ongoing. EPA expects the advisory 
committee to resume its technical advisory functions in late Fall 2000.
    Several years will be required to complete standardization and 
validation of the entire Tier 1 Screening and Tier 2 Testing batteries. 
However, EPA is moving as quickly as possible and anticipates 
implementing the screening program in phases, with initial emphasis on 
the legislatively mandated components of the Tier 1 Screening battery. 
Several screening tests have already entered the validation process, 
and we expect all the Tier 1 screens and one of the Tier 2 tests to be 
validated by 2003. The four remaining ecological tests require 
substantial development. One will be validated by 2003, two by 2004, 
and the last by 2005.
    The standardization and validation process is being conducted using 
the general principles developed by the Interagency Coordinating 
Committee on the Validation of Alternative Methods (ICCVAM), as 
described in Validation and Regulatory Acceptance of Toxicological Test 
Methods (NIEHS 1997). However, there are also separate international 
standardization and validation efforts being conducted by the 
Organization for Economic Cooperation and Development (OECD). As these 
future tests are developed, EPA will examine their suitability for use 
and possible replacement of tests currently proposed for use in the 
screening and testing batteries.
    Yes, the Agency is planning to propose a procedural rule for the 
EDSP. The rule will address procedural issues as well as provide 
technical guidance associated with screening. We anticipate proposing 
the rule and requesting public comments at least one year prior to 
issuing orders for screening.
    Question 29: The Paperwork Reduction Act of 1995 required federal 
agencies to reduce paperwork burdens on regulated businesses by 25% by 
1998 from the 1995 baseline. EPA has long been a serious generator of 
massive paperwork burdens on regulated businesses, so the PRA mandates 
were a strong Congressional signal that the government needed to 
address excessive and unneeded paperwork requirements. However, a March 
2000 GAO audit concludes that EPA not only failed to meet the 1998 
reduction goal, but over that period of time actually increased 
paperwork burden on businesses by 10 million burden hours to an annual 
total of 119 million burden hours of paperwork on American companies. 
What steps is EPA taking to come into compliance with this law and when 
does EPA anticipate achieving compliance?
    Answer 29: The Agency's current burden reduction effort began 
January 1995, with the goal of reducing burdens on the public by 25%. 
EPA's burden at that time was 104 million burden hours. The Paperwork 
Reduction Act (PRA) amendments, enacted October 1, 1995, superceded 
this effort by requiring a government-wide reduction effort of 10% for 
FY 1996 and 1997, and 5% for years 1998 through 2001, rather than 
Agency-specific reductions. Since the beginning of the burden reduction 
effort on January 1, 1995, EPA has reduced burden about 32.0 million 
hours. However, these reductions were offset by 49 million hours of 
burden increases due to recalculations and new regulations and 
programs, including Right to Know efforts. To put these figures into 
perspective, the total government burden is 7 billion hours. EPA's FY 
2000 paperwork burden projection is 125 million hours, or about 1.6% of 
the government total.
    The creation of EPA's Office of Environmental Information has 
afforded opportunities for understanding and realizing burden 
reductions in the future. More specifically, we expect reductions from 
the various Electronic Reporting initiatives and the Information 
Integration Initiative and most certainly from EPA's Office of Solid 
Waste's burden reduction effort, where reductions of 3 million hours 
may be possible by late 2001.
    Question 30: Last year EPA issued its ``Risk Screening 
Environmental Indicators'' model, which ranks facilities in a relative, 
``risk-related'' way, but which does not attempt to estimate the actual 
risk that a facility poses. EPA says: ``The result is not a detailed or 
quantitative risk assessment.'' In looking at this model, EPA's Science 
Advisory Board said ``[the Agency has wisely recognized that the TRI 
indicators are ripe for intentional and unintentional misuse.'' This 
recognition has resulted in the repeated declarations by EPA that the 
indicators are relative and should not be used to measure risk. Now, 
however, Environmental Defense, has taken the model and applied it so 
that it generates purported absolute estimates of increased cancer 
risks from facilities. Why hasn't EPA spoken out about this misuse of 
its model, and what does the Agency intend to do to make the public 
aware of this misuse?
    Answer 30: As a federal government agency, EPA neither publicly 
endorses nor criticizes the analyses of our data and development of 
mathematical models, or subsequent reporting of our data and adaptation 
of EPA models by other organizations. EPA's version and release of the 
``Risk Screening Environmental Indicators'' model was accompanied by a 
description of the model's limitations, consistent with our peer-review 
protocols and strategic data quality goal to clearly and adequately 
describe the origins, quality, and limitations of the Agency's data and 
analytical models whenever they are made publicly available. When EPA 
receives inquiries regarding other organizations' use of our data, our 
policy is to refer them first to our description of the model and then 
to the appropriate organization to obtain their response on this issue.
    Question 31: What is the status of the new Office of Environmental 
Information? Can you please describe the principle role of the new 
office and how it will interface with the traditional program offices?
    Answer 31: In October 1999, EPA Administrator Carol M. Browner 
announced the formation of the Office of Environmental Information 
(OEI). OEI was established to meet the changing information needs of 
the public through the establishment of a central program office which 
is responsible for information management, information policy 
development and technology stewardship. OEI plays a key role in 
supporting EPA's mission to protect human health and the environment by 
integrating quality environmental information to make it useful for 
informing decisions, improving information management, documenting 
performance, and measuring success.
    In addition to working internally to improve the quality of 
information and developing the infrastructure to support it, OEI also 
works closely with external stakeholders and partners to establish and 
oversee information-related policies and procedures. Such groups 
include representatives from state, local and federal agencies, tribes, 
the regulated community, interest groups, educators and the general 
public.
    In order to accomplish the above objectives, OEI has set its FY 
2000 priorities including a focus on these six areas: information 
integration; environmental information quality; fostering information 
based decisions; reducing burden; expanding Americans' right-to-know 
about their environment; and securing EPA's information infrastructure.
    OEI will interface with the program offices through both workgroups 
and the Quality Information Council (an internal planning and 
management body formed to help EPA's National Program Manager for 
Environmental Information) to plan, develop, and implement information 
policies.
    Question 31(A): Will the new office (OEI) oversee the quality of 
data used by the EPA programs in their regulatory and public right to 
know programs?
    Answer 31(A): OEI has a number of responsibilities relating to data 
quality, including serving as the Agency lead for promoting quality 
assurance in the environmental programs. In this leadership role, OEI 
establishes the Agency policies for planning, implementing, and 
assessing the environmental data used to support the Agency's programs 
and decisions. However, each EPA organization (there are more than 40, 
including program offices, Regional offices, and research laboratories 
and centers) is responsible for developing a system of documentation 
and controls for documenting and evaluating the quality of the 
environmental data generated and used to support its decisions. Each 
organization develops a plan that defines the decisions that will be 
supported by environmental data and the processes that will be used to 
ensure that the data used are of the quality specified. OEI, through 
the Quality Staff, reviews the organizations' plans against the 
established policies to ensure that the policies are complete and 
consistent, and also evaluates the implementation of the policies and 
their effectiveness in providing environmental data of documented and 
appropriate quality.
    OEI is also leading quality improvements in program data systems by 
using error prevention and error correction mechanisms. Central 
Exchange, Electronic Reporting, the Facility Registry System, and the 
development of data standards, are all ongoing activities that will 
directly impact the quality of EPA's data. Central Exchange will 
provide electronic data exchange between the states, facilities, and 
EPA, reducing errors from manual data entry and data transfer. The 
Facility Registry System is a centrally managed database that will use 
rigorous verification procedures to produce high quality, accurate, and 
authoritative facility identification records. Data standards simplify 
the use and analysis of data and help data managers identify incomplete 
or erroneous data fields. Additionally, under the direction of the 
Quality Subcommittee of the Quality and Information Council, OEI is 
developing a Quality Strategic Plan that will define roles and 
responsibilities, establish priorities, and outline implementation 
procedures for an Agency quality program.
    Question 31(B): Will the program offices have to seek approval from 
the Office of Environmental Information prior to putting up new data 
bases and information resources on the Internet website?
    Answer 31(B): EPA's program offices are not required to seek OEI 
approval for posting information resources and data bases on the 
Agency's Internet website. Recognizing that the appropriateness of the 
material and resources to be posted is best judged by the originating 
program office, each EPA Program Office Director (and regional 
equivalent) is responsible for conducting their own internal review and 
quality assurance process to assure that materials destined for website 
transmittal are timely, accurate, useful, and of appropriate content 
for posting on the Agency's public access Web site.
    At the same time, EPA recognizes the need for Agency-wide policies 
and procedures that guide the development and dissemination of new 
information products in a consistent manner. These procedures may 
include formalized notification and participation by stakeholders (i.e. 
state and local governments; tribal, community, and environmental 
groups; industry trade associations, etc.) at different stages in the 
development process. This issue of stakeholder involvement in the 
development of significant Agency information products was a main topic 
of interest at the EPA/State Stakeholders Forum on Public Information 
Policies, held last Fall. As a result, to enhance our stakeholder 
outreach and feedback processes, the Office of Information Analysis and 
Access will develop and publish a periodic ``Information Products 
Bulletin.'' This Bulletin is designed to inform interested stakeholders 
and the public of upcoming significant information products and provide 
some opportunity for feedback into their development. A joint State/EPA 
Workgroup has been established to define criteria for what information 
products will be included in the Bulletin as well as determining the 
descriptive elements and timing frequency for publication of the 
Bulletin which is expected to begin in March 2001. An ``Interim 
Products Bulletin'' of more limited scope and design will be released 
in August 2000 to provide some preliminary assessment of upcoming 
product development.
    Question 31C: Does the new office intend to establish an Agency-
wide error correction process that will enable regulated parties and 
users that identify errors to ensure that those errors are readily 
corrected across the Agency's information systems in which they appear?
    Answer 31C: The Office of Information Collection, within OEI, has 
established an Integrated Error Correction Process for information in 
EPA data collections. The Integrated Error Correction Process is built 
upon established processes and networks for the reporting and 
correction of data errors.
    It consists of a Web-screen for error-reporting, an on-line 
tracking and reporting system, an information flag to indicate a 
reported error, and extensive customer support. Reported errors will be 
researched and corrected by data owners, whether those data owners are 
from EPA Headquarters, Regions or states. Corrections will appear in 
individual systems as these systems are refreshed. In the meantime, an 
information flag will contain detailed information on the errors, and 
what the corrected value should be. On May 10, 2000 OIC initiated the 
IECP with the Facility Information system in Envirofacts. OIC will 
continue to implement the system for EPA's other publically accessible 
systems throughout the summer and fall of this year.
    Question 32A: What types of data will EPA place in this new system 
(facility identifiers, geo-spatial data, compliance data, regulatory 
data, environmental quality data)?
    Answer 32A: One of the first steps in EPA's integration efforts is 
to support a state/EPA data exchange Network that will include all of 
the above-mentioned data. As EPA, and its state partners, define the 
larger exchange Network, it is expected that new, individual data 
systems, as well as those listed above, will gradually be folded into 
the larger Network, in whatever form is most logical for the exchange 
Networks' architecture and goals.
    Question 32B: What are the respective roles of the States and EPA 
in this new system? Who will be principally responsible for data 
quality in I-3?
    Answer 32B: EPA and its state partners will define and participate 
in the development and use of the national Network for environmental 
information exchange, build and support the infrastructure needed to 
sustain the Network, and position EPA and its partners to participate 
in the Network and the data exchange it will facilitate.
    The states and EPA are developing the national Network's design and 
operation principles and have included the following;

<bullet> An Agency is, by mutual consent between a state and EPA, 
        explicitly recognized as the steward for specific environmental 
        information that will become part of the Network.
<bullet> The steward agency manages its data, provides access to that 
        data via the Network (together with an accurate description of 
        the data and its context), and is accountable for the data's 
        quality.
<bullet> Recognized aggregators and re-distributors of stewarded data 
        are accountable for ensuring the faithfulness and currency of 
        their local copies, using the steward agencies official Network 
        source data.
<bullet> The Network employs a single set of common, negotiated, data 
        exchange standards, and Internet protocols; it does not dictate 
        or constrain internal agency systems, software, and other 
        tools.
    Question 32C: Will EPA be replicating data already held in States 
databases or will I-3 link federal Web pages back to the original 
state-based sources for most environmental data? If so, what is the 
``value-added'' of I-3, over an approach that does not replicate state 
efforts but instead links EPA's existing site to the States site?
    Answer 32C: State interest in defining the elements of streamlined 
environmental reporting and in working within multi-state institutions 
(i.e. ECOS, the National Governors Association) is already apparent, as 
states explore areas where they can consolidate and re-engineer data 
systems in order to streamline their business activities and share 
planning and regulatory information electronically. The Network, and 
the technical and organizational detail of its operation will be 
defined by states and EPA. What is envisioned is to use the 
technologies of the Internet by making a small but critical set of 
technology decisions together and, second, to develop and negotiate, 
through the partnership, the programmatic and operational agreements 
needed to begin the Network.
    It should be noted that EPA also must be capable of acting as an 
Information Node on the National Exchange Network, both as an 
information receiver and an information provider. A key element of this 
goal is the establishment of an enterprise portal to securely accept 
data from its partners without their having to directly interface with 
EPA program systems. From this portal, EPA must be capable of 
transferring and transforming the information in its information 
systems. As an information provider, EPA must be capable of sharing its 
vast information holdings with others in a secure, responsible, and 
efficient manner, and thus will establish other portals for the 
distribution of data to its partners and to the public, as well as to 
internal EPA users
    The ``value-added'' components of a national network will be 
standards-based, highly interconnected, dynamic, flexible and secure, 
and operating with broad-based voluntary participation of the 
individual states and EPA. The network will become both a source of and 
pressure for more integrated and less burdensome programs at all 
governmental levels and a vehicle to facilitate the streamlining of 
those programs.
    Question 33A: How many States have adopted the set of data 
standards developed under the Reinventing Environmental Information 
(REI) initiative?
    Answer 33A: Under REI, EPA committed to establishing six key data 
standards to improve the value of environmental information, in 
collaboration with our state partners. The six key data standards were 
calendar representation of date, Standard Industrial Classification 
(SIC) and North American Industry Classification System (NAICS) codes, 
Facility Identification, Latitude/Longitude, Chemical Identification, 
and Biological Taxonomy. Of the six standards, four have been approved 
by the Agency; Chemical Identification and Biological Taxonomy are 
scheduled to be completed by September 30, 2000. Of the four approved 
standards, EPA is comfortable that all of the states are fully 
compliant with the standard for calendar representation of date. We are 
also comfortable that EPA and the states have conformed to the standard 
representations for SIC and NAICS codes. Efforts to ensure that mapping 
between the two industrial classification codes is completed. On the 
Facility Identification Data Standard, EPA has worked very closely with 
states on the Data Standard model. The EPA standard is a federal 
implementation of the Facility Identification Template for States 
(FITS) developed through the support, cooperation, and analytic 
cooperation of 16 state agencies and EPA. FITS represents a set of 
guidelines for managing facility based information. It reflects a 
fundamental change in how states and EPA solve their information 
problems and a new recognition for the value of collaboration. The FITS 
guidelines do not specify a deadline, but are intended to help states 
succeed at integrating Facility Site information and, at the same time, 
align themselves to be compatible with the state/EPA facility 
identification standard. EPA is just beginning to work with states on 
implementation of the Latitude/Longitude standard. After the Chemical 
Identification and Biological Taxonomy standards are approved, EPA will 
work with the states on implementation.
    Question 33B: What, if any, reporting burden has EPA reduced for 
states or the private sector as a result of its data integration?
    Answer 33B: Burden hour reductions have not been quantified at this 
early stage of implementation, since the effort thus far has been to 
establish an infrastructure. Implementation focuses on developing and 
incorporating data standards and electronic reporting into 13 of EPA's 
national information systems. Promulgation of all necessary standards, 
policies, and protocols are projected to occur by the end of FY 2001. 
As each new data and reporting standard becomes ready for 
implementation, each national system is projected to incorporate it by 
the end of FY 2003, either through retrofitting existing systems or 
including the standard in system re-engineering efforts.
    Question 33C: Last year the Agency looked very favorably on another 
initiative--one to create an Environmental Data Registry. But what has 
happened to the effort and the spending that we allocated towards its 
completion? Has EPA ever developed a compendium of the data it already 
collects?
    Answer 33C: The EPA has developed a web-based metadata registry, 
based on an ISO 11179 standard, called the Environmental Data Registry. 
The Environmental Data Registry is designed to be the single, 
comprehensive source of information about EPA data. This metadata 
registry serves two purposes: (1) as a reference tool, it catalogues 
existing Agency data resources and provides the information needed to 
interpret the data; and (2) as a repository of standard data elements, 
it promotes the development and use of standard data elements in Agency 
systems to enable effective data sharing. The Environmental Data 
Registry serves to document the diversity of data formats across Agency 
systems through central storage of application metadata, while 
converging on consistency through the availability of standard formats 
for data elements and commonly used domain values. The registry serves 
as the foundation to the Agency's standard setting process and an 
analytical tool to identify standardization opportunities.
    Currently, the EDR contains 5,155 data element records. Of these, 
more than 4,600 are ``application'' data elements that document 
attributes of data elements in existing EPA information systems. 
Metadata documenting Agency information systems is being loaded on an 
ongoing basis. The application supports the efforts of several Agency 
work groups that are developing standardized representations for data 
elements used across the enterprise. The data registry is available 
through the Agency's website at www.epa.gov/edr.
    Question 34A: Where is EPA's report to Congress on how its policies 
affect the viability of confidential business information claims as 
directed in the Senate report?
    Answer 34A: EPA is currently in the process of examining its 
statutes, regulations, and policies to determine the extent to which 
they may affect the viability of confidential business information 
(CBI) claims. We also plan to publish an advance notice of proposed 
rulemaking in late spring that will seek public comment on possible CBI 
revisions. Subsequent to publication, the Agency will convene a public 
meeting in early summer to solicit further stakeholder comment on its 
CBI regulations. As cited in Margaret Schneider's letter to Chairman 
Bond (R-MO) and the March quarterly appropriations report, we will be 
pleased to provide you with a report of our review of our existing 
statutes, regulations, and policies by June 1, 2000.
    Question 34B: What actions has EPA taken to work with other 
agencies to develop a decision-making process inside the government for 
resolving disagreements about the balance between information 
disclosure and national security interests?
    Answer 34B: EPA and the Department of Justice (DOJ) have recently 
(April 27, 2000) published a joint proposed rule-making. This proposal 
was the result of many months of intense effort among DOJ, the Office 
of Management and Budget, and EPA. This was a response to the August 
1999 statute, the Chemical Safety Information, Site Security, and Fuels 
Regulatory Relief Act, which called for DOJ-EPA cooperation for setting 
requirements under Section 112(r) of the Clean Air Act; specifically 
the handling of risk management plans and off-site consequence analysis 
information under 112(r).
    As part of EPA's effort to improve security, EPA's Office of 
Environmental Information is conducting an assessment through September 
2000 to determine how EPA offices are handling different types of 
sensitive information and to provide guidance on the general level of 
protection that should be provided for each type of information. This 
analysis will provide a good foundation for internal and external 
discussions on whether and how to disclose particular types of 
information. The issue of balancing information disclosure with the 
protection of public safety is not limited to EPA, and could 
potentially affect a number of Federal agencies. EPA would be 
interested in participating in an interagency process to discuss a 
government-wide decision making process and criteria for addressing 
this issue.
    Question 34C: What is the status of EPA's efforts to work with 
experts to address information accountability issues and assess the 
Administrative Procedures Act implications of EPA publication of 
environmental information?
    Answer 34C: EPA is currently evaluating the appropriate approach 
to, and scope of, a review of these issues, and will keep the Committee 
informed of our ongoing efforts. In addition, there are numerous ways 
in which the Agency is focusing additional attention on the issue of 
stakeholder input to important information products. EPA currently has 
established a joint workgroup with state partners to create a system 
for informing stakeholders about significant information products under 
development, including a means for stakeholders to review and comment 
on these. EPA will include in this work an opportunity for expert and 
stakeholder comment on the process and definitions. We expect to 
publish the first bulletin for comment under this process in the second 
quarter of the next fiscal year.
    The new Office of Environmental Information (OEI) was created to 
provide leadership across the Agency on major information policies. A 
key consideration about the effectiveness of OEI is how it will guide 
other program offices.
    Question 35A: The Office of Enforcement (OECA) has indicated that 
it may expand the Sector Facility Indexing Project. What role will OEI 
play in this decision?
    Answer 35A: EPA announced earlier this Spring that Sector Facility 
Indexing Project (SFIP) will be expanded to include a subset of federal 
facilities. This expansion will encourage greater accountability on the 
part of federal facilities, and will allow the public to obtain 
important compliance and inspection information about these facilities 
located in their communities.
    EPA's decision to expand SFIP is consistent with results of its 
evaluation of the first year of SFIP operation. For the evaluation, 
which was completed in December 1999, the Office of Enforcement and 
Compliance Assurance (OECA) obtained input from user groups both inside 
and outside the Agency, including staff of what is now the Office of 
Environmental Information (OEI). In addition to OEI, OECA obtained 
feedback from other Headquarters' offices, EPA's Regions, the States, 
industry, environmental groups, and trade associations.
    The evaluation's results were positive. Extensively used, SFIP has 
enhanced public access to and knowledge of facilities' environmental 
performance. The project is cited for improving multimedia facility 
profiling; providing useful data in a ``user-friendly'' website; 
improving data quality in underlying databases; and serving as an 
incentive to achieve and maintain compliance. Moreover, the evaluation 
identified widespread interest for an expansion of SFIP to build upon 
the project's success and make it an even more valuable analytical 
tool. Many of the stakeholders contacted during the evaluation 
indicated that federal facilities would be an useful addition to the 
SFIP. As we move forward with SFIP, we will continue to consult with 
and coordinate our efforts with all relevant stakeholders, including 
OEI.
    Question 36A: What is the status of the CEIS, and how was the 
funding that was poured into developing the Center in the past three 
years expended. Please describe in detail how these expenditures were 
used and what results were produced from this project?
    Answer 36A: CEIS functions were merged with the new Office of 
Environmental Information when OEI was officially launched in October, 
1999. The CEIS expended its funding to produce:

<bullet> Reports on each of the public meetings, focus groups, and 
        surveys (including the National Telephone Survey) that were 
        conducted to evaluate the public's needs for environmental 
        information; research on existing EPA data users, regional 
        stakeholders and the American public's interest in seeking and 
        using data and information; the questions that the American 
        public want EPA to answer about their health and the 
        environmental interests; and research and analysis of data and 
        information to be compiled and made accessible as 
        ``Environmental Profiles'' via the CEIS web site.
<bullet> A nationally-recognized web site (with customer service) 
        providing one-stop, public access to EPA air, water, waste 
        management, drinking water safety, toxic release, and related 
        data at the county, state and national levels (both in English 
        and Spanish).
<bullet> An on-line ``Environmental Atlas'' containing over 250 maps 
        and spatial data sets of national, state and local 
        environmental quality, status and trends.
<bullet> Internet linkages to other peer-reviewed and publicly 
        available federal agency reports and publications covering 
        environmental quality topics.
<bullet> Downloadable, search, and analytical tools to explore EPA data 
        sets (e.g., TRI Explorer).
<bullet> Working to partner with states, tribes, community-based, and 
        local governmental organizations to develop background reports 
        and issue papers leading to last November's ``Information 
        Management Forum'' in Chicago.
<bullet> Assessments of the suitability of using data from various EPA 
        databases for additional applications.
<bullet> Assessments of the suitability of using data from more than a 
        dozen EPA databases for purposes other than which they were 
        originally intended, but which might provide the basis for 
        decision-making.
<bullet> Coordinating outreach to both English and Spanish-speaking 
        Americans with EPA's National Service Center for Environmental 
        Publications, the federal depository library system, the 
        Government Printing Office, public libraries, and other 
        educational organizations.
<bullet> An early assessment of data gaps to identify Agency needs to 
        obtain additional data and information (from the perspective of 
        our state partners, stakeholders, advisory groups and internal 
        information resources managers).
    Question 36B: When will EPA release the results from the CEIS 
survey on public needs as well as similar work conducted under the 
EMPACT program?
    Answer 36B: Peer-reviewed, technical reports of the results of the 
CEIS survey and similar work conducted by the EMPACT program are 
available for review. We do not plan to release these publicly because 
they are intended to be internal Agency planning documents. We do 
intend to incorporate the findings of these surveys and related EMPACT 
work in our program planning and the Agency's public access strategy, 
which will be drafted in consultation with our stakeholders and 
released for public comment this fall.
    Question 36C: That analysis, if any, does EPA conduct on how the 
public uses the large number of offerings on the EPA Web site?
    Answer 36C: Public usage of EPA's Internet Web site has increased 
dramatically in the last year, from an average of 60 million hits in 
December 1999 to more than 93 million hits in April 2000. Our Web sites 
include more than 300,000 individual pages of materials--covering the 
spectrum of information from regulatory guidance to compliance 
assistance; consumer tips to children's issues. Our analysis show us 
that information about the Agency's regulations and their impact on the 
regulated community are among the most frequently requested items. 
Content that explains regulatory requirements accompanied by technical 
or compliance assistance information is by far the most popular. While 
we cannot be certain exactly how this information is utilized, one can 
infer that the regulated community is using this information to better 
understand, and to more effectively comply, with our environmental 
regulations.
    Beyond the regulated community there is a significant number of 
users who are seeking information about a wide array of general 
environmental interests. Our Internet Web site offers a feedback 
mechanism that allows users to ask questions or offer comments about 
their needs and concerns. We rely on the comments that they voluntarily 
send to us as a source of data on how they use our resources. Parents, 
teachers, and students say that they use our resources for school 
projects and to protect their families when they are concerned that 
environmental conditions might pose health risks in their communities--
examples include joggers seeking information on ozone alerts; 
prospective home buyers seeking information on radon testing; and 
homeowners looking for information on proper disposal of lead-based 
paint. Researchers and educators use our Web site to stay on top of the 
latest scientific and technological advances. Many visitors comment on 
how they rely on our Web site to find jobs, internships, technical 
assistance, policy guidance ,and funding for their programs and 
projects. As the use of the Internet expands, we are also receiving 
comments from retirees who want information to help them decide where 
to relocate; and from the financial community seeking information to 
rate a company's environmental performance.
    Question 37: Pursuant to the FY1999 Omnibus Appropriations Act, OMB 
has amended Circular A-110 to provide public access to federally funded 
data through FOIA requests. In March, a joint interim final rule was 
published in the Federal Register codifying these changes in the 
agencies regulations. What progress has EPA made in implementing these 
data access provisions, including the cost reimbursement mechanism to 
the grantees?
    Answer 37: A Workgroup was established to develop the procedures to 
provide public access to federally funded data. The Workgroup has 
developed a draft Notice and Guidance for EPA Grantees and Applicants, 
including an Overview of the Freedom of Information Act (FOIA) process, 
and a list of Frequently Asked Questions. The Notice explains how 
access would be achieved when a request is made under the Amendment to 
OMB Circular A-110. The Notice will be posted on the EPA Grants 
Information Home Page of the EPA Office of Administration and Resources 
Management web site. The web site will be used to update information as 
we gain experience with the implementation process. (See http://
www.epa.gov/ogd/)
    The FOIA Overview portion of the Notice and Guidance for EPA 
Grantees and Applicants includes a discussion on both the costs to the 
EPA and the costs incurred by the grantee institution, which will be 
accounted for separately. The grantee institution will provide the data 
and the cost of providing the data to EPA. EPA will prepare and send 
the FOIA response and an invoice for charges incurred by EPA and the 
grantee institution. The FOIA requester will be instructed to make 
separate payments to EPA and the grantee institution.
    Currently, the final draft Notice and Guidance for EPA Grantees and 
Applicants is under review. We expect to complete the Notice and post 
it on the EPA web site by the end of August, 2000.
    Question 38: What is the status of the Agency's ongoing and 
extensive review of the Cancer Risk Assessment Guidelines? When does 
the Agency anticipate putting out the revised guidelines, and what are 
the principal issues that have resulted in the extensive review period?
    Answer 38: Revisions to EPA's 1986 Guidelines for Carcinogen Risk 
Assessment were proposed for comment on April 23, 1996 and initially 
reviewed by the Agency's Science Advisory Board (SAB) in February 1997. 
The SAB provided their initial comments to the Agency in September 
1997.
    In January 1999, the SAB conducted a second review of several key 
sections of the Proposed Guidelines which had been revised by the 
Agency to address the comments from the earlier SAB review and the 
public comments. On July 29, 1999, EPA received the SAB's 
recommendations on these revised sections.
    Although the 1996 Guidelines generally addressed the issue of 
sensitive populations, specific guidance was not provided on assessing 
risks to children. The initial SAB review and several public comments 
urged the Agency to provide more specific guidance in this area. When 
the Guidelines were proposed in 1996, Executive Order 13045 had not 
been issued. In order to address the recommendations of the SAB and the 
requirements of the Executive Order, the Guidelines have been revised 
to provide specific guidance on assessing children's risk. A third 
review by the SAB was conducted in July 1999 which dealt with this new 
material. Final recommendations from the SAB are expected next month.
    Currently, the Agency is revising the Proposed Guidelines to 
reflect the SAB recommendations from the January 1999 review and 
awaiting the recommendations from the July 1999 review. It is 
anticipated that final revisions will be completed this summer and the 
Guidelines will undergo interagency review and final Agency clearance 
later this year.
    Question 39: The Office of Research and Development conducted 
research in support of EPA rule-making activities and other activities 
relating to the implementation of various environmental laws. For 
example, ORD conducts research that is necessary to promulgate new 
drinking water and clean air standards. Please provide a breakdown of 
the research activities conducted by ORD under the Science and 
Technology Account which relate to statutory obligations of the EPA 
program offices regarding their regulatory activity or other activity 
to implement environmental laws? Please include all activities whether 
they are specifically related to pending regulations, guidance or any 
other work product relating to implementation of the standard setting 
provisions of the Clean Air Act, the Safe Drinking Water Act, the Toxic 
Substances Control Act, the Compensation and Liability Act, the 
Resource Conservation and Recovery Act, the Food Quality Protection 
Act, the Emergency Planning and Community Right to Know Act and the 
Pollution Prevention Act.
    Answer 39: As the question indicates, authority for EPA to conduct 
environmental research, development, and demonstration activities is 
provided for in multiple statutes. Primary authority is provided in the 
Environmental Research, Development, and Demonstration Authorization 
(ERDDA) Act. Although there have been efforts to reauthorize ERDDA, the 
most recent version of the statute was passed in 1980 (Public Law 96-
569). This version authorized resources to be appropriated for EPA to 
conduct environmental research, development, and demonstration 
activities in the following areas: air quality, water quality, water 
supply, solid waste, pesticides, radiation, toxic substances, and 
interdisciplinary programs (e.g., health and ecological effects, 
monitoring and technical support). In addition, resources were 
authorized to be appropriated for program management of the Office of 
Research and Development.
    ERDDA (1980) referred to other environmental statutes that 
authorize EPA to conduct environmental research, development, 
demonstration, and related activities. These included the Clean Air 
Act, the Clean Water Act, the Safe Drinking Water Act, the Solid Waste 
Disposal Act, the Federal Insecticide, Fungicide, and Rodenticide Act, 
the Public Health Services Act, and the Toxic Substances Control Act. 
In addition, the Comprehensive Environmental Response, Compensation, 
and Liability Act (CERCLA) of 1980 (Superfund) authorized EPA to 
conduct research, development, and demonstration activities on 
hazardous wastes. Since 1980, many of these environmental statutes have 
been either reauthorized and/or related legislation passed, e.g., the 
Safe Drinking Water Act of 1996 and the Food Quality Protection Act of 
1996.
    The table below indicates for each GPRA goal authorizing 
legislation for ORD's research activities in that goal. As described 
above, these authorities complement those provided by ERDDA.
    In addition, EPA provides very specific descriptions of its 
research by Goal as part of its President's Request to Congress.
Goal 1: Clean Air Research
<bullet> Clean Air Act (CAA) (42 U.S.C. 7401-7671q)
Goal 2: Clean and Safe Water Research
<bullet> Safe Drinking Water Act (SDWA)
<bullet> Clean Water Act (CWA)
<bullet> Federal Insecticide, Fungicide and Rodenticide Act (FIFRA)
<bullet> Toxic Substances Control Act (TSCA)
<bullet> Resource Conservation and Recovery Act (RCRA)
<bullet> Clean Air Act Amendments (CAA)
<bullet> Pollution Prevention Act (PPA)
Goal 3: Safe Food Research
<bullet> Food Quality Protection Act (FQPA) of 1996
<bullet> Federal Insecticide, Fungicide and Rodenticide Act (FIFRA)
<bullet> Toxic Substances Control Act (TSCA)
<bullet> Federal Food, Drug, and Cosmetic Act (FFDCA)
Goal 4: Safe Communities Research
<bullet> Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA)
<bullet> Toxic Substances Control Act (TSCA)
<bullet> Federal Food, Drug, and Cosmetic Act (FFDCA)
Goal 5: Better Waste Management Research
<bullet> Resource Conservation and Recovery Act (RCRA)
<bullet> Oil Pollution Act (OPA)
<bullet> Solid Waste Disposal Act (SWDA)
<bullet> Hazardous and Solid Waste Amendments (HSWA)
<bullet> Clean Air Act Amendments (CAA)
Goal 6: Global Change Research
<bullet> U.S. Global Change Research Program Act of 1990
<bullet> United Nations Framework Convention on Climate Change
<bullet> National Climate Program Act (1997)
Goal 7: Right to Know Research
<bullet> Clean Air Act (CAA) and amendments
<bullet> Clean Water Act (CWA) and amendments
<bullet> Environmental Research, Development, and Demonstration Act 
        (ERDDA) of 1981
<bullet> Toxic Substance Control Act (TSCA)
<bullet> Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA)
<bullet> Food Quality Protection Act (FQPA)
<bullet> Safe Drinking Water Act (SDWA) and amendments
<bullet> Federal Food, Drug and Cosmetic Act (FFDCA)
<bullet> Emergency Planning and Community Right-to-Know Act (EPCRKA) of 
        1986
Goal 8: Sound Science
<bullet> Environmental Research, Development, and Demonstration Act 
        (ERDDA) of 1981
<bullet> Clean Water Act (CWA) Title I (33 U.S.C 1251-1271)
<bullet> Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA) of 
        1988
<bullet> Federal Food, Drug, and Cosmetic Act (FFDCA) of 1988
<bullet> Food Quality Protection Act (FQPA) of 1996
<bullet> Toxic Substances Control Act (TSCA) of 1976
<bullet> Clean Air Act (CAA) and amendments
<bullet> Environmental Research, Development and Demonstration Act 
        (ERDDA)
<bullet> Federal Insecticide, Fungicide and Rodenticide Act (FIFRA)
<bullet> Toxic Substances Control Act (TSCA)
<bullet> Food Quality Protection Act (FQPA) of 1996
<bullet> Safe Drinking Water Act (SDWA) and amendments
<bullet> Resources Conservation and Recovery Act
<bullet> Pollution Prevention Act of 1990
    Question 40: Many Federal and State environmental programs rely on 
EPA's IRIS (Integrated Risk Information System) database for making 
decisions. IRIS contains summarized information about the risks posed 
by the various substances, including safe levels of exposure. There are 
substantial problems with the currency and adequacy of the information 
in the database, and Congress directed the Agency to study the problem 
in last year's budget Report language.
    Question 40A: What is the status of the Agency's study of IRIS 
pursuant to the Report language?
    Answer 40A: In its FY 2000 Appropriations Committee Report Congress 
directed EPA to ``consult with the Science Advisory Board (SAB) on the 
design of a study that will a) examine a representative sample of IRIS 
health assessments completed before the IRIS Pilot Project, as well as 
a representative sample of assessments completed under the project and 
b) assess the extent to which these assessments document the range of 
uncertainty and variability of the data. The results of that study will 
be reviewed by the SAB and a copy of the study and the SAB's report on 
the study sent to the Congress within one year of enactment of this 
Act.'' EPA consulted with the SAB Nov. 29, 1999 and again on March 7, 
2000 on an approach to this study. The study is now underway. Selected 
experts from outside of the Agency are reviewing a representative 
sample of IRIS assessments in depth, and will provide the Agency with 
their evaluation this summer. Though not specifically addressing 
currency or accuracy, the study will determine whether IRIS assessments 
developed using a new process adequately presented and discussed the 
range of uncertainty and variability in the data used to develop the 
assessments.
    Question 40B: What is the Agency doing to ensure that the IRIS 
database contains the best available scientific information about the 
substances contained in the database? What resources has the Agency 
allocated to improving the IRIS database?
    Answer 40B: Since 1995, EPA has taken several steps to ensure that 
the best available scientific information is included in IRIS 
assessments. On an annual basis, EPA announces the next set of 
chemicals to be considered in the IRIS program, either to update an 
older assessment, or to be added to the database. This announcement 
includes a request for all relevant information to be submitted to EPA 
for consideration in the assessments. In addition, all IRIS assessments 
go through an external peer review, which can include a public meeting 
permitting more notice of relevant information. All scientific 
questions and responses generated through the external reviews are 
available to the general public.
    For the FY 2001 President's Budget Request, EPA requested a total 
of $1.7 million under the R&D program to support the IRIS database. 
Some key areas of effort in 2001 will include producing, updating, and 
maintaining health assessments on IRIS, ensuring appropriate external 
peer review of IRIS summaries and support documents, facilitating 
Agency consensus and resolving issues in a timely manner, and 
maintaining a widely-accessible Internet version of IRIS, available at 
the local level to support community-based environmental protection.
    Question 41: EPA has requested $403.8 million for FY 2001, an 8% 
increase in the enforcement budget than this year. This includes 
increases in compliance monitoring, and civil and criminal enforcement. 
For what specific programs is the Agency seeking the increase, and how 
would the Agency intend to allocate such additional funding? Can you 
further elaborate on the Agency's enforcement priorities for FY 2001?
    Answer 41: In FY 2001, the Agency is seeking an increase of $31.0 
million for the Deterrence Goal (Goal 9) over FY 2000. There are six 
EPA program offices requesting funds under the Credible Deterrence 
Goal. The Office of Enforcement and Compliance Assurance (OECA) is 
requesting an increase of $24.6 million; the Office of Administration 
and Resources Management (OARM) is requesting an increase of $6.0 
million; and, the remaining $0.4 million is requested by the other four 
program offices, including: Office of Solid Waste and Emergency 
Response (OSWER), Office of the Chief Financial Officer (OCFO), Office 
of General Counsel (OGC), and Office of Environmental Information 
(OEI).
OECA, +$24.6 Million ($21.1M in EPM, $0.9M in S&T, and $2.6M in 
        Superfund)
    Background Statement on EPM appropriation: From 1996 to 2001 OECA's 
EPM payroll needs have increased from $158 Million to $203 Million, an 
increase of $45 Million, while at the same time FTE's have slightly 
decreased. While there has been a minor decrease in workyears, there 
has been a significant decrease in the EPM extramural resources needed 
to support the work of the Federal workforce. In addition, there have 
been new statutory mandates as well as a significant increase in the 
size of the regulated universe during these years of economic 
prosperity for the nation.
    Because OECA has not received sufficient increases to cover EPM 
payroll needs to maintain the enforcement workforce, the EPM extramural 
budget during this same period has decreased by $25 Million from $51 
Million in 1996 to $26 Million in 2000, a decrease of nearly 50%. These 
extramural dollars provide the technical support for inspections and 
investigations, data management, and litigation support, including 
expert witnesses. It also includes the contract support providing 
technical expertise for review of the Environmental Impact Statements 
and Environmental Assessments required by NEPA and section 309 of the 
Clean Air Act.
    What the FY 2001 request does, is provide adequate payroll funding 
for the existing workforce, restores some of the badly needed 
extramural resources, and provides funding for some critical areas.
EPM increases of $21.1 Million from FY 2000 to FY 2001
    +$11 million payroll for the existing workforce less our FTE 
reductions for next year. This is needed to cover payroll increase and 
enrichment for OECA's EPM workforce of 2,203 FTE. Because we are an 
enforcement and compliance assurance office involved in inspections and 
monitoring, civil and criminal investigations and litigation, 
developing and implementing enforcement and compliance policy and 
guidance, e.g., the self-audit policy, NEPA, much of what we do is 
inherently governmental and cannot be contracted out. Therefore, we 
have a large payroll increase each year just to maintain our existing 
workforce.
    +$2.5M lead based paint for hiring approximately 35 Senior 
Environmental Employment (SEE) inspectors for the EPA Regions to 
inspect housing units for compliance with lead-based paint rules. This 
is part of the Agency's children's health initiative.
    +$2.6M Integrated Information Initiative (formerly GEMS) 
development, a consolidated enforcement and compliance information 
management system to support core program needs and provide integrated 
data necessary for risk-based strategies. This is part of the Agency's 
system needs and modernization efforts.
    +$5 M Critical Base Funding restoration of extramural resources is 
needed to continue a healthy Federal environmental enforcement and 
compliance assurance program. Under our current funding levels not all 
necessary inspections will be done, some significant violations will 
not be addressed, access to data necessary for targeting and evaluation 
is not available because of funding shortfalls, needed data and 
information system enhancements are not being developed or implemented 
, and support for the environmental justice program and NEPA 
implementation efforts has been restricted. This increase will allow 
for restoration of some funding to these critical areas.
Science and Technology (S&T) increases of $0.9 Million from FY 2000 to 
        FY 2001
    Increase covers payroll increases and enrichment for OECA's S&T 
workforce of 78 FTE under Goal 9. In addition, dollars support the 
National Enforcement Investigations Center (NEIC), including $0.8 
million which will help to complete the New Facility for NEIC to 
accreditable specifications and the move into it. This laboratory is 
also supported by the Superfund appropriation.
Superfund increase of $2.6 Million from FY 2000 to FY 2001
    Increase covers payroll increases and enrichment for OECA's 
Superfund workforce of 101 FTE under Goal 9. In addition, dollars 
support the criminal and civil enforcement efforts, including $0.2 
million which will help to complete New Facility for the National 
Enforcement Investigations Center (NEIC) to accreditable specifications 
and the move into it. This laboratory is also supported by the Science 
and Technology appropriation.
OARM, +$6.0 Million
    Most of this increase supports the Agency's mandatory rental and 
lease agreements.
FY 2001 Priorities for the Enforcement and Compliance Assurance Program
    In April, 1999 the Office of Enforcement and Compliance Assurance 
(OECA) issued the FY 2000/2001 Memorandum of Agreement (MOA Guidance 
which set forth the goals, priorities, and major activities for the 
national enforcement and compliance program over this two-year period. 
These priorities include: Clean Water Act--Wet Weather; Safe Drinking 
Water Act--Microbial Rules; Clean Air Act--New Source Review/Prevention 
of Significant Deterioration (NSR/PSD and Air Toxics; Resource 
Conservation and Recovery Act--Permit Evaders; Petroleum Refinery 
Sector; and, Metal Services (Electroplating and Coating) Sector. These 
priorities are described in greater detail in the FY 2000/2001 MOA 
guidance, which can be found at: http
    Question 42A: What resources is the enforcement office requesting 
for EPA efforts on compliance assistance and incentives for the 
regulated community?
    Answer 42A: The Office of Enforcement and Compliance Assurance 
(OECA) is requesting a total of $24.4 million for compliance assistance 
and centers; $5.7 million for key program compliance incentive efforts; 
and a total of $3.3 million for Project XL and the Common Sense 
Initiative.
    Question 42B: What are the new targeted sector initiatives for 
voluntary self-disclosure and violation correction?
    Answer 42B: The three attachments describe new initiatives 
developed under EPA's voluntary disclosure program. EPA develops some 
of its initiatives based on trends if identifies during inspections, 
disclosures made under the Audit Policy, or other opportunities that 
arise outside the context of long-term planning. Because of that, it is 
possible that other initiatives may be developed in the short-term.
    Question 43: In February 2000, EPA's Inspector General completed an 
audit of EPA's Financial Statements for FY 1999. That means it reviewed 
the EPA Budget and related financial statements, like the one before us 
today for FY 2001, and the IG concluded that for FY 1999, the EPA 
financial statement contained ``weaknesses that resulted in the Agency 
being unable to provide complete, accurate and reliable statements, 
footnotes and supplemental information by the agreed upon dates.'' The 
IG found that ``the financial statements provided to us for the purpose 
of expressing an opinion were incomplete and contained significant 
errors.'' What is EPA doing to rectify this unclean bill of financial 
health in order to ensure that these accounting errors won't persist?
    Answer 43: We intend to continue to work closely with the EPA OIG 
to obtain a clean opinion on EPA's Financial Statements. Toward the end 
of the audit, the IG raised questions regarding single line items in 
two of our six financial statements. One of the questioned amounts was 
reflected in a footnote to our Statement of Changes in Net Position and 
the other in our Statement of Financing. Because these questions could 
not be resolved and audited before the March 1 statutory due date for 
issuing the financial statement, the Agency received a qualified 
opinion.
    There was no issue concerning losses or misappropriation of funds. 
Rather, the issue was the sufficiency of documentary support for the 
two line items in question. We have taken steps to address the 
questions raised by the IG. We worked with our contractor to develop 
documentation to address IG's questions on the Statement of Net 
Position and engaged a general ledger expert from the Department of the 
Treasury who confirmed our analysis of the amount questioned in our 
Statement of Financing.
    Finally, EPA recognizes that we need to improve our process for 
preparing the financial statements and we are taking appropriate 
actions. We have engaged experts from the Treasury Department to review 
our books and provide additional training to our staff on analytical 
techniques. Furthermore, we are taking steps to improve our quality 
controls as well as strengthen our planning and coordination with the 
auditors.
                                 ______
                                 
              United States Environmental Protection Agency
                                                    August 29, 2000
The Honorable Sherrod Brown
Ranking Minority Member
Subcommittee on Health and Environment
Committee on Commerce
U.S. House of Representatives
Washington, D.C. 20515
    Dear Congressman Brown: Enclosed please find a complete set of our 
responses to the follow-up questions, for the record, following the 
March 30, 2000 hearing on the Environmental Protection Agency's FY 2001 
Budget, which were received on April 18, 2000. As you know, we have 
already provided responses to thirteen questions previously sent to you 
on June 14, 2000.
    Thank you for the opportunity to respond, to your request. I hope 
that EPA's input will prove valuable to the Committee.
            Sincerely,
                                          Diane E. Thompson
                                            Associate Administrator
Enclosures
Committee on Commerce; Subcommittees on Finance and Hazardous Materials 
               and Health and Environment 3/30/00 Hearing
    Question 1. Scientists from the EPA, other Federal agencies, and 
the general scientific community have been conducting a comprehensive 
reassessment of dioxin exposure and human health effects since 1991. 
Assistant Administrator Noonan has informed the Committee staff that 
the final three chapters of this important report relating to Toxic 
Equivalence, Dose Response, and Risk Characterization will be released 
to the public during the first week of May 2000. Please confirm that 
this is the release date for the remaining chapters of the dioxin 
reassessment and indicate the nature and timing of the public review 
process.
    The U.S. Environmental Protection Agency's (EPA) is processing 
toward completion of its reassessment of dioxin exposure and human 
health effects entitled, ``Exposure and Human Health Reassessment of 
2,3,7,8-Tetrachlorodibenzo-p-Dioxin (TCDD) and Related Compounds'' and 
the Agency expects that the completed reassessment will be publicly 
available by the end of the year. The following paragraphs provide 
information on the processes and schedule to complete the dioxin 
reassessment including Federal interagency review, public review and 
comment, and external scientific peer review.
    In May, preliminary drafts of the chapters needing further external 
review were distributed to other Federal agencies for their review and 
comment. As part of this interagency review, an interagency Working 
Group (WG) on Dioxin has been convened under the auspices of the 
National Science and Technology Council (NSTC).
    On June 12, the Integrated Summary and Risk Characterization and 
the Toxic Equivalence Factors (TEF) chapters were submitted to an 
external peer review and the two draft documents were made available to 
the public for review and comment. The Junel2 Federal Register notice 
announced: 1) a two-day peer review meeting on July 25-26, which is 
open to the public as observers, 2) the availability of the external 
review drafts, and 3) the beginning of the public comment period. This 
will be a ``rolling'' public comment period; that is, the Agency will 
continue to take public comments through the final step in the review 
process, the review by the Science Advisory Board (SAB). This means one 
continuous comment period will be used to cover both the peer review 
drafts and the later drafts to be submitted to the SAB. The external 
review drafts will be available on the Internet (down-loadable file), 
on CD ROM along with the previously reviewed and approved chapters, and 
in a limited number of paper copies.
    Based on comments received from the interagency review, the peer 
review panel and the rolling public comment period, the Integrated 
Summary and Risk Characterization and the TEF chapter, will be revised, 
as appropriate, and formally submitted to the SAIB for review. Also 
submitted to the SAB for review will be the revised Dose-Response 
Modeling chapter.\1\
---------------------------------------------------------------------------
    \1\ The dose-response chapter mentioned in Question 1, has already 
undergone external peer review as well as public review and comment. An 
external review draft has been prepared, incorporating peer review and 
public comments, as appropriate, for re-review by the SAB. This draft 
dose-response chapter will be provided as background information for 
the peer reviewers and the public in preparation for the upcoming July 
peer review meeting.
---------------------------------------------------------------------------
    The SAB meeting to review these three sections of the dioxin 
reassessment is being planned for October. SAB meeting are open to the 
public and the SAB also solicits public comment on the draft documents. 
Final SAB approval is needed to produce a final EPA dioxin reassessment 
document for public release.
    Question 2: In 1998, the EPA initiated a new program to assure that 
basic toxicity data are publicly available for widely used industrial 
chemicals. One key component of the High Production Volume (HPV) 
Chemical Data Initiative was the EPA's commitment that it would issue 
mandatory test rules to close the gaps on chemicals that were not 
voluntarily sponsored. Is it correct that the EPA rules were scheduled 
to be finalized in December 1999, but the proposed rules are now at the 
Office of Management and Budget? If so, please specify when the 
proposed rules were submitted to OMB and the date when you expect to 
issue the proposed rules.
    Created in cooperation with industry, environmental groups, and 
other interested parties, the primary component of the HPV Initiative 
that was initiated in 1998 is the voluntary HPV Challenge Program. This 
voluntary program challenges industry to make publicly available a 
complete set of baseline health and environmental effects data on U.S. 
HPV chemicals.
    EPA has indicated that any data gaps not addressed as part of the 
voluntary HPV Challenge Program, may be addressed by international 
efforts coordinated by the Organization for Economic Cooperation and 
Development (OECD) to secure basic toxicity information on HPV 
chemicals in use worldwide, including some of those on the U.S. HPV 
chemicals list, or by rulemakings issued under the Toxic Substances 
Control Act (TSCA).
    Under the voluntary HPV Challenge Program, based on the industry 
commitments received by December 1, 1999, 2,080 chemicals--of the 2,800 
U.S. HPV chemicals originally identified--have been sponsored by 437 
Companies and 155 Consortia either directly through the EPA voluntary 
HPV Challenge Program or indirectly through the International Council 
of Chemical Associations (ICCA)'s HPV Initiative.
    A proposed TSCA test rule covering certain HPV chemicals was 
submitted to the Office of Management and Budget (OMB) for review under 
Executive Order 12866 on September 7, 1999. Final revisions are 
expected to be completed shortly.
    Question 3: With the economic prosperity of the country many states 
are operating with a budget surplus. Please provide any information or 
knowledge in the possession of the EPA headquarters or regional offices 
that indicate whether the state environmental budgets and personnel 
resources (i.e., FTEs) for the RCRA program, toxic waste cleanup 
program (i.e., state Superfund programs), and state voluntary cleanup 
programs have increased, remain relatively constant, or have decreased 
over the past four years (FY 1997-FY 2000). Where possible, please 
provide specific funding levels and personnel levels for the above 
programs on a state-by-state basis.
    EPA does not have specific information or data on state 
environmental budgets and personnel. EPA does, however, give money to 
states through our core grants programs. EPA's funding of the state 
programs has remained relatively constant over the past few years.
    Question 4: Questions were raised at the hearing about the EPA 
Inspector General's actions at the Tar Creek, Oklahoma site and alleged 
fraudulent activities by the cleanup contractor at the site. Please 
provide the following information relating to the history of the site, 
the status of cleanup actions, and the status of any investigation at 
the site.
    Question 4a. Identify the major potentially responsible parties at 
the site and indicate their financial contribution to the cost of 
response actions at the site. Has a judicial consent decree been 
entered or an administrative order issued for response actions at the 
site?
    The major potentially responsible parties (PRPs) at the site are: 
Asarco Incorporated, Blue Tee Corporation, Childress Royalty Company, 
Gold Fields Mining Corporation, NL Industries Inc., and the St. Joe 
Minerals Corporation. A judicial consent decree regarding the first 
operable unit (ground water, surface water) was entered June 11, 1991. 
Under the consent decree, the PRPs listed above committed to providing 
$1,273,00 towards the cost of response.
    Another PRP, Eagle Pitcher Corp., settled with EPA regarding its 
Tar Creek costs in a Chapter 11 bankruptcy reorganization.
    The United States Department of the Interior (DOI) is also a PRP, 
based on the control that it exerted over the mineral leases, acting on 
behalf of the Indian owners. DOI required that the waste rock 
(``chat'') remain on the leases. That is, the lessees were not allowed 
to remove it. It was treated as a valuable commodity at the site. DOI 
has not settled with EPA.
    For the second operable unit (residential soil lead cleanup), no 
PRPs other than DOI have been identified.
    Question 4b. Have any of the major responsible parties at the site 
brought litigation against the EPA at the site? If so, please identify 
the major issues involved and the outcome of the litigation.
    There has been no litigation initiated against EPA by the PRPs at 
this site.
    Question 4c: Identify the records of decision (RODS) that have been 
issued at the site and the nature and scope of work covered by each 
ROD. Have all final RODs been issued at the Tar Creek site? If not, 
please indicate when the final ROD will be issued.
    The first ROD to address operable unit (OU) #1 was issued on June 
6, 1984, to address surface water degradation of Tar Creek by the 
discharge of acid mine water and the threat of contamination of the 
Roubidoux Aquifer which is the regional water supply, by the downward 
migration of acid mine water from the overlying Boone Aquifer through 
abandoned wells connecting the two aquifers. The OUI remedy included 
the following: diversion and diking of several major inflow areas; 
plugging 83 identified abandoned wells in the Roubidoux Aquifer and any 
other abandoned wells found connecting the Roubidoux; and a monitoring 
program for the Roubidoux Aquifer and Tar Creek. The construction of 
the ROD remedy was completed in December 1986.
    A second ROD covering operable unit #2 was issued on August 27, 
1997, to address soil contamination in the residential areas of the 
Site. The OU2 remedy included the following: excavation of lead-
contaminated soil above 500 mg/kg and replacement of clean soil for 
residential properties; disposal of excavated soils on-site in existing 
mining waste areas; use of institutional controls such as health 
education, indoor dust reduction, and blood lead monitoring; covering 
or replacement of chat surfacing on traffic areas with road base 
material; constructing physical barriers to restrict access to mining 
waste areas; and improving the ground cover for residential yards 
outside the mining area. The construction of the ROD remedy for OU2 is 
expected to be completed by the end of 2001 if federal and state 
funding is available.
    All final RODs for the site have not been issued. The schedule for 
future RODs is estimated as follows:

Tribal Pilot (includes industrial              ROD 12/31/01     (Tribal-
 properties in Cardin)....................                         lead)
Beaver Creek (includes watershed).........     ROD 12/31/02     (Tribal-
                                                                   lead)
Non-residential Areas (includes chat           ROD 12/31/03      (State-
 piles, tailing ponds, and agricultural                            lead)
 land)....................................


    Question 4d. Identify the actual physical cleanup work that has 
been Finished at the site and the cleanup activities that are underway.
    In the 1980s, diversion and diking structures were constructed to 
prevent surface water from flowing into the underground mines at three 
locations. A total of 83 abandoned Roubidoux wells were plugged. The 
well plugging work is ongoing as a State-lead activity (using federal 
Superfund dollars). The State estimates that 15 additional wells may be 
plugged in the future.
    In the Fall 1994, new studies began to evaluate mining waste as a 
source of contamination. Also in 1994, EPA acquired a summary of 
results of Indian Health Service testing, which indicated that 
approximately 35% of the Indian children tested in the area had blood 
lead levels greater than 10 ug/dL, the level that is considered 
elevated. In addition, the Oklahoma Department of Health screened 
children in the mining area and found in the Picher-Cardin area that 
21% of the children had elevated blood lead levels.
    In 1995, EPA responded to these results and initiated a removal 
action to address 17 high access areas (e.g., schools, parks, day care, 
and similar areas where children congregate) with surface soil 
contamination greater than or equal to 500 ppm lead and/or 100 ppm 
cadmium. A second removal action was initiated in 1996 to address lead 
contamination in soil greater than or equal to 1500 ppm at 
approximately 300 residential homes. The removal action was completed 
in the Summer 1997.
    Residential soil cleanup began in 1997 at approximately 2,100 
residential properties. The lead cleanup level is 500 ppm and the 
excavation depth is 18 inches. To date, approximately 1,400 properties 
have been remediated (which includes the 300 homes addressed by a 
removal action). The remaining approximately 700 properties are 
expected to be completed by the end of 2001, if federal and State 
funding is available.
    Between the years 1996 and 1997, independent studies indicated that 
the percentage of children with high blood lead levels were reduced by 
53%. To date, the Quapaw Tribe has been very supportive of EPA's 
cleanup efforts.
    Question 4e: Describe what cleanup work remains to be done and the 
expected construction completion date of the Tar Creek site.
    The remediation of the non-residential areas, including the Beaver 
Creek area and the Tribal Pilot area, remain to be completed. The non-
residential areas include the extensive chat piles, tailings ponds, and 
other agricultural land. The site lead for this action will be the 
State of Oklahoma. The Beaver Creek watershed and Tribal Pilot 
industrial areas in Cardin are currently in the Remedial Investigation/
Feasibility Study (RI/FS) phase, and the lead for this action is the 
Quapaw Tribe.
    Construction completion (all physical cleanup completed) at all 
non-residential areas is estimated to be completed by September 2006, 
if federal and State funding are available.
    Question 4f: Describe the status of any cost recovery action 
against the potentially responsible parties at the Tar Creek Site.
    With respect to the viable mining companies that operated at Tar 
Creek, there is no evidence linking the companies to operable unit 2 
(OU2). The viable mining companies, or their predecessors, have settled 
their liability with respect to operable unit I (OU1), and they would 
argue that they have additionally settled their liability with respect 
to OU2. EPA has told the viable mining companies that it does not 
intend to pursue them with respect to OU2, based on information that we 
now have in our possession. That information includes detailed maps of 
the waste ``chat'' piles owned by the viable mining companies. None of 
these piles can be linked to OU2. However, some of the piles may be the 
subject of later operable units. If that is the case, the viable mining 
companies may be pursued at that time. DOI is aware that we consider it 
a PRP for OU2 (and OU1); however, EPA has not yet taken action against 
DOI.
    Question 4g: State when the U. S. Army Corps of Engineers began 
managing response actions at the Tar Creek site and identify the 
private contractors who have been retained by either the EPA or the 
Corps of Engineers to conduct the actual response work.
    The USACE began managing response actions (physical construction) 
in May 1996. For actual physical construction work, the USACE 
contracted with Morrison Knudsen (NM) Corporation and EPA contracted 
with Reidel Environmental Services/Smith Environmental -Technologies.
    Question 4h. Have any instances of financial fraud against the U.S. 
Government been documented by either (1) the EPA Inspector General, (2) 
the Defense Criminal Investigation Service, or (3) the Federal Bureau 
of Investigation? If so, please provide a summary of each specific 
instance of financial fraud against the U.S. Government or 
misappropriation of federal funds and the dollar amounts involved.
    The Inspector General is investigating allegations of criminal 
wrongdoing related to the Tar Creek, Oklahoma site. No evidentiary 
conclusions have been made and the investigation is ongoing.
    Question 4i. If there has been financial fraud or misappropriation 
of federal dollars, please indicate the status of any efforts to recoup 
the money from either the Corps of Engineers or private contractors.
    The Inspector General is investigating allegations of criminal 
wrongdoing related to the Tar Creek, Oklahoma site. No evidentiary 
conclusions have been made and the investigation is ongoing.
    Question 4j. Has there been a case of ``proven bribery'' as alleged 
at the Subcommittee's March 30 hearing?
    The Inspector General is investigating allegations of criminal 
wrongdoing related to the Tar Creek, Oklahoma site. No evidentiary 
conclusions have been made and the investigation is ongoing.
    Question 5: When Congress passed S.880 amending Section 112(r) of 
the Clean Air Act last summer (P.L. 106-40 August 5, 1999) one of the 
important provisions as part of the overall compromise was the required 
study by the Attorney General of a sampling of covered stationary 
sources of vulnerability to criminal and terrorist activity, current 
industry practices regarding site security and security of 
transportation of regulated substances (see Section 3). This is a 
mandatory duty and legal requirement placed on the Attorney General. An 
interim report on this study is due in August 2000, according to the 
law. Please indicate the amount of funding in the Administration's 
FY2001 budget to perform this interim study, when the interim study was 
initiated and the date it is expected to be completed.
    PL 106-40 assigned the responsibility for conducting this study to 
the Attorney General. EPA's budget does not include funding for the 
Attorney General's study.
    Question 6. Is EPA legally prohibited from spending its 
appropriated funds to help in the cleanup of a Federal Superfund site?
    CERCLA 111(e)(3) is clear in stating: ``No money in the Fund shall 
be available for remedial action, other than actions specified in 
subsection (c) of this section, with respect to federally owned 
facilities. However, E.O. 12580, Section 9(i) permits Superfund monies 
to be used ``to pay for removal actions for releases or threatened 
releases from'' Federal facilities. However, these funds must be 
reimbursed to the Fund by the Federal agency which owns the facility.

</pre></body></html>
